<html>
<title> - U.S. POLICY IN MEXICO AND CENTRAL AMERICA: ENSURING EFFECTIVE POLICIES TO ADDRESS THE CRISIS AT THE BORDER</title>
<body><pre>[Senate Hearing 116-422]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-422

                  U.S. POLICY IN MEXICO AND CENTRAL 
                 AMERICA: ENSURING EFFECTIVE POLICIES 
                  TO ADDRESS THE CRISIS AT THE BORDER

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________
                               

                          SEPTEMBER 25, 2019

                               __________


       Printed for the use of the Committee on Foreign Relations
       
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                 Available via the World Wide Web:
                       http://www.govinfo.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
43-885 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk    



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Risch, Hon. James E., U.S. Senator From Idaho....................     1
    Prepared Statement...........................................     2

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

Madison, Hon. Kirsten D., Assistant Secretary, Bureau of 
  Narcotics and Law Enforcement Affairs, United States Department 
  of State, Washington, DC.......................................     5
    Prepared Statement...........................................     7

Kozak, Hon. Michael G., Acting Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, United States Department of State, 
  Washington, DC.................................................    11
    Prepared Statement...........................................    13

              Additional Material Submitted for the Record

Responses of Assistant Secretary Kirsten D. Madison and Acting 
  Assistant Secretary Michael G. Kozak to Questions Submitted by 
  Senator Robert Menendez........................................    40

Responses of Assistant Secretary Kirsten D. Madison to Questions 
  Submitted by Senator Ben Cardin................................    58

Responses of Acting Assistant Secretary Michael G. Kozak to 
  Questions Submitted by Senator Ben Cardin......................    62

Responses of Assistant Secretary Kirsten D. Madison to Questions 
  Submitted by Senator Edward J. Markey..........................    67

Responses of Acting Assistant Secretary Michael G. Kozak to 
  Questions Submitted by Senator Edward J. Markey................    67

Responses of Assistant Secretary Kirsten D. Madison and Acting 
  Assistant Secretary Michael G. Kozak to Questions Submitted by 
  Senator Todd Young.............................................    69

Response of Assistant Secretary Nominee Kimberly Breier to a 
  Question Submitted by Senator Robert Menendez on June 13, 2018.    71

Letter From Senator Edward J. Markey to the Trump Administration 
  Concerning Foreign Food-Related Aid Cuts to the Central 
  American Region................................................    72

Statement by Congresswoman Veronica Escobar of El Paso and a 
  Series of Documents and Letters Sent by Senator Menendez to the 
  State on U.S.-Mexico Agreements and State's Non-Responses......    75

Statement by Rick Jones, Senior Technical Advisor for Latin 
  America and the Caribbean, Catholic Relief Services............    94

                                 (iii)
  

 
    U.S. POLICY IN MEXICO AND CENTRAL AMERICA: ENSURING EFFECTIVE
    POLICIES TO ADDRESS THE CRISIS AT THE BORDER

                              ----------                              


                   WEDNESDAY, SEPTEMBER 25, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Gardner, Romney, 
Barrasso, Portman, Young, Cruz, Menendez, Cardin, Shaheen, 
Udall, Murphy, Kaine, Markey, and Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The Committee on Foreign Relations of the 
United States Senate will come to order.
    Today the committee meets to review measures taken by 
Congress and the Administration to reduce illegal migration 
flows from Central America.
    There have been growing concerns about the changing nature 
of illegal immigration flows arriving at our southwest border, 
as we all know. The uncontrolled arrival of and illegal entry 
of immigrants, including unaccompanied minors and/or adults 
traveling with children, exposes vulnerable populations, 
especially women and children, to unspeakable dangers. Only 
human traffickers and other unscrupulous criminals benefit from 
this unresolved situation. Transnational criminal organizations 
target and exploit immigrants along the journey north which in 
turn fuels the violence and insecurity from which they flee.
    Here in the U.S., they challenge our government's ability 
to protect the homeland and test the capacity of local and 
national authorities to respond to citizens' demands for safe 
and prosperous communities.
    Let me be clear. Our nation has a strong and enduring 
national interest in a safe, prosperous, and democratic Central 
America. Congress has responded to the crisis by supporting 
foreign assistance programs that address the root causes of 
illegal migration in cooperation with the Governments of 
Mexico, Guatemala, Honduras, and El Salvador.
    The need, however, far exceeds the financial ability of the 
U.S. or any government to solve this problem. U.S. security and 
judicial cooperation have, however, helped Central American 
countries reduce homicide rates by nearly half and increasingly 
take on high profile cases in the fight against public 
corruption.
    But much work remains to be done in reducing unacceptably 
high levels of violence, corruption, and economic insecurity, 
including to better enforcement of immigration laws. Certainly 
there are many challenges on the road ahead, but we can also 
see them as opportunities to engage with our neighbors in a 
meaningful way.
    President Bukele in El Salvador has made important and 
positive commitments to improve the challenging situation he 
inherited from his FMLN predecessor. We ought to work with his 
Administration to make sure these commitments become a reality 
in short order. We had the opportunity to meet with him 
personally, and he has personally made these commitments.
    The President-elect of Guatemala Giammattei also provides a 
new opportunity for engagement. Guatemala has the largest 
economy in Central America but faces significant challenges in 
improving living conditions for its people.
    Honduras has been a strong U.S. security and diplomatic 
partner, but many are concerned about the impact of ongoing 
political disputes and the unfinished fight against widespread 
corruption. Honduras must double down on efforts to improve 
domestic conditions in the short term.
    All three governments should work with the Administration 
on constructive solutions and enforceable commitments in these 
areas.
    Lastly, I would be remiss if I failed to note this 
institution's own inability to take practical steps to ease the 
ongoing immigration and humanitarian crisis. Despite multiple 
attempts, Congress continues to fail to modernize our 
immigration laws and close loopholes being exploited by violent 
gangs, human traffickers, and other transnational criminal 
organizations that prey on the most vulnerable and the 
desperate and innocent people in the region.
    With that, I welcome our guests here today. We are looking 
forward to what you have to say.
    I would like to turn to Senator Menendez for his opening 
remarks.
    [The prepared statement of Chairman Risch follows:]

                  Prepared Statement of Chairman Risch

    The Committee meets today to review measures taken by Congress and 
the Administration to reduce illegal migration flows from Central 
America.
    For nearly 8 years, there have been growing concerns about the 
changing nature of illegal migration flows arriving at our southwest 
border.
    The uncontrolled arrival of migrants, including unaccompanied 
minors and/or adults traveling with children, exposes vulnerable 
populations, especially women and children, to unspeakable dangers.
    Only human traffickers and other unscrupulous criminals benefit 
from this unresolved situation. Transnational criminal organizations 
target and exploit migrants along the journey north, which in turn, 
fuels the violence and insecurity from which they flee.
    Here in the U.S., they challenge our government's ability to 
protect the homeland and test the capacity of local authorities to 
respond to citizens' demands for safe and prosperous communities.
    Let me be clear, our nation has a strong and enduring national 
interest in a safe, prosperous, and democratic Central America.
    Congress has responded to the crisis by supporting foreign 
assistance programs that address the root causes of illegal migration 
in cooperation with the governments of Mexico, Guatemala, Honduras and 
El Salvador.
    U.S. security and judicial cooperation have helped Central American 
countries reduce homicide rates by nearly half, and increasingly take 
on high-profile cases in the fight against public corruption.
    The peoples in the region have demonstrated a commitment to find 
solutions through democratic institutions. However, much work remains 
to be done in reducing unacceptably high levels of violence, 
corruption, and economic insecurity--including through better 
enforcement of migration laws.
    Certainly, there are many challenges on the road ahead, but we can 
also see them as opportunities to engage with our neighbors in a 
meaningful way.
    President Bukele in El Salvador has made important and positive 
commitments to improve the challenging situation he inherited from his 
FMLN predecessor. We ought to work with his Administration to make sure 
those commitments become a reality in short order.
    The President-elect of Guatemala, Giammattei also provides a new 
opportunity for engagement. Guatemala has the largest economy in 
Central America, but faces significant challenges in improving living 
conditions for its people.
    Honduras has been a strong U.S. security and diplomatic partner, 
but I am concerned about the impact of ongoing political disputes and 
the unfinished fight against widespread corruption. Honduras must 
double down on efforts to improve domestic conditions in the short 
term.
    I urge all three governments to work with the Administration on 
constructive solutions and enforceable commitments in these areas.
    Lastly, I would be remiss if I failed to note our own inability to 
take practical steps to ease the ongoing migration and humanitarian 
crisis.
    Despite multiple attempts, Congress continues to fail to modernize 
our immigration laws and close loopholes being exploited by violent 
gangs, human traffickers, and other transnational criminal 
organizations that prey on the desperate and the innocent in the 
region.
    With that, I will ask Senator Menendez if he wishes to make any 
opening remarks.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. Let me thank you 
for convening the hearing to review U.S. policy towards Mexico 
and Central America.
    This is an incredibly important hearing, which comes at a 
time when I believe the President is engaged in a calculated 
attempt to aggravate regional migration dynamics for domestic 
political gain at the expense of our national security. Since 
taking office, the President has systematically worked to 
politicize the U.S. immigration system and polarize Americans 
on this issue.
    In 2017, the President sought to end the deferred action 
for childhood arrivals DACA program, a merciless decision that 
would have led to the deportation of more than 822,000 
individuals who arrived to the United States as children.
    In 2018, the Administration cruelly separated more than 
2,814 immigrant children from their families.
    In 2017, 2018, and 2019, the Trump administration lowered 
the number of refugees the United States would welcome to this 
nation, tarnishing our moral leadership and our historic role 
as a beacon of light for persecuted people.
    In the same vein, the Administration's foreign policy 
decisions that we will review today appear to be intentionally 
aimed at fueling regional instability and deliberately designed 
to leave people in harm's way.
    In May, President Trump took the unprecedented step of 
threatening Mexico, our second largest export market, our third 
largest trading partner, with the equivalent of escalating 
economic sanctions if their government did not take his 
definition of additional steps to address regional migration. 
To prevent the potentially disastrous blow to the United States 
and Mexican economies that the President's temper tantrum might 
have unleashed, U.S. and Mexican negotiating teams scrambled to 
cobble together an agreement that barely passes the legal laugh 
test. For 6 weeks after it was signed, the Administration could 
not tell us whether the U.S.-Mexico Joint Declaration was 
legally binding under international law and still cannot tell 
us whether the Government of Mexico views it as legally 
binding.
    In late July, the U.S. signed a so-called Safe Third 
Country Agreement with Guatemala with the intention of sending 
desperate asylum seekers back to Guatemala if they did not file 
an asylum application while passing through that country before 
arriving at the U.S. border. This must be the Trump 
administration's twisted attempt at a joke. With one of the 
highest homicide rates in the world, the Guatemalan Government 
cannot even protect its own citizens. Guatemala's obvious lack 
of capacity to carry out this agreement will only fuel more 
regional instability.
    Just last Friday, the U.S. signed a similar agreement with 
El Salvador. Given that El Salvador has recently held the tile 
of ``The World's Murder Capital,'' any agreement to send asylum 
seekers back to El Salvador is incredibly disturbing.
    So, Mr. Chairman, while I appreciate the spirit in which 
you worked with me to set up today's hearing, I would note that 
to this date, despite your best efforts, the Administration 
still refuses to provide us with complete copies of all of the 
agreements and arrangements that they are signing with Central 
American governments in relation to migration. There is no 
justification for withholding this information from Congress 
and from the American people other than this Administration 
does not want the public to know what it is doing in the name 
of the United States.
    Now, I suppose it is no surprise that DHS is missing in 
action today. They did not bother showing up to even try to 
defend the Administration's policies.
    We do know, however, that the Administration has expanded 
implementation of its deceptively named Migrant Protection 
Protocols along the entire U.S.-Mexico border. Under this 
abhorrent policy, the U.S. is pushing asylum seekers, including 
pregnant women and families with children, back over the border 
into some of Mexico's most violent cities to await adjudication 
of their asylum claims. Since the policy's inception in 
January, we have seen asylum seekers facing terrifying violence 
and tragedy. These decisions have consequences.
    No one in today's hearing should ever forget the photo of 
Oscar Alberto Martinez Ramirez and his 23-month old daughter 
Valeria who drowned on the banks of the Rio Grande after they 
were unable to enter the United States at a port of entry to 
file their asylum claim.
    Further fueling this instability, in March President Trump 
personally announced his cuts to U.S. foreign assistance to El 
Salvador, Guatemala, and Honduras, one of the most important 
tools that we have to defend our national interests and address 
the factors driving migration to the U.S. It seems that the 
President likes to use foreign assistance in political ways 
very often.
    This is a self-inflicted wound to our national security. 
This, by the way, monies that were certified by the Secretary 
of State on several occasions to have been effective in pursuit 
of the policies that were seeking.
    While the Administration has decided to go forward with 
limited funding for DHS and Justice Department initiatives, the 
White House has forced the State Department to reprogram $450 
million in funding that was appropriated by Congress. Congress 
made clear through the fiscal year 2018 appropriations omnibus 
that these funds should have gone to programs to improve the 
rule of law, combat drug trafficking and criminal gangs, 
professionalize local law enforcement, advance economic 
development, and strengthen the migration systems that will be 
overwhelmed by the Administration's new asylum agreements. 
Instead, we find ourselves without the necessary funds to 
address challenges in El Salvador, Guatemala, and Honduras.
    I think every member of this committee should be asking 
whether the Administration is intentionally trying to 
destabilize Central America in order to fuel more chaos at the 
U.S. border.
    With that in mind, I thank our witnesses for appearing 
today. I am going to have some very critical questions, and I 
look forward to your honest testimony in response.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Menendez.
    We will now turn to our witnesses. The Honorable Kirsten 
Madison has served in various senior leadership positions at 
the State Department, White House, Department of Homeland 
Security, and our very own Foreign Relations Committee. Welcome 
back.
    Ms. Madison's prior executive branch service includes 
serving as Deputy Assistant Secretary in the Bureau of Western 
Hemisphere Affairs, Director of the Western Hemisphere Affairs 
on the National Security Council, and Director of International 
Affairs and Foreign Policy Advisor to the Commandant of the 
Coast Guard.
    Outside of her time in government, Ms. Madison served as 
Senior Advisor to the Secretary-General of the Organization of 
American States. She most recently worked at the American 
Enterprise Institute as Deputy Director for Foreign and Defense 
Policy Studies.
    Ms. Madison, the floor is yours.

  STATEMENT OF HON. KIRSTEN D. MADISON, ASSISTANT SECRETARY, 
BUREAU OF NARCOTICS AND LAW ENFORCEMENT AFFAIRS, UNITED STATES 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ms. Madison. Thank you very much, Chairman Risch and 
Ranking Member Menendez and distinguished members of the 
committee. I very much appreciate the opportunity to testify 
before you today.
    Transnational criminal organizations, or TCOs, continue to 
have a devastating and deadly impact on the United States and 
our citizens. In the region, they undermine citizens' security, 
erode the rule of law, and limit economic opportunity. In 
extraordinarily consequential ways, TCOs exploit our shared 
land border with Mexico and the porous borders of Central 
America to smuggle migrants, traffic drugs and other illicit 
goods, and generate vast quantities of illicit revenue. 
Tackling these challenges does demand our continued focus, 
collaborative action, and cross-border cooperation.
    TCOs leave a deadly wake behind them wherever they go. 
Nowhere is the impact more tangible for Americans than right 
here at home. Nearly 70,000 Americans lost their lives through 
a drug overdose in 2017, and taking into account recent 
indications that Mexico's role as a fentanyl trafficking hub is 
evolving to include fentanyl production, these trends 
underscore the urgency with which we must act collectively to 
combat this crisis.
    The United States cannot effectively address the drug 
crisis nor the TCOs that perpetuate it without Mexico's direct 
action. While Mexico is working with us on many fronts, 
President Trump noted in his recent Majors List Determination 
that Mexico needs to do more. We must see better results that 
effectively contribute to a reduction in the amount of illegal 
narcotics flowing from and through Mexico. We want to see 
Mexican security forces and justice institutions root out the 
TCOs that destabilize the country.
    Mexico needs to work and develop a comprehensive whole-of-
government counternarcotics strategy with clear metrics so that 
we can better understand Mexico's progress and we can better 
understand how we can help. We are ready to jointly create 
unambiguous shared and measurable counternarcotics goals and 
targets, and in support of such a strategy, the United States 
needs Mexico to interdict more drugs, sustainably reduce poppy 
cultivation and heroin and synthetic drug production and bring 
more traffickers to justice while depriving them of their 
illicit profits.
    In Guatemala, Honduras, and El Salvador, INL has worked to 
counter drug trafficking and combat TCOs seeking not only to 
traffic in drugs but also weapons, illicit goods, and human 
beings to the United States by doing the long haul work of 
improving the capacity of these governments' law enforcement 
and justice sectors to work to control their borders and 
address these threats.
    The Guatemalan navy leads these countries in making 
positive strides in counternarcotics cooperation, much like El 
Salvador's law enforcement agencies lead in the fight against 
transnational criminal gangs. Although we are encouraged by 
Honduras' steps to work with us on gangs and other issues, we 
do need them to commit more resources and to improve training 
and institutional capacity, increase their operations, and 
continue to step forward to work with their other partners in 
the region.
    To counter TCOs and strengthen border security, we are also 
working to improve not only the skills of border agencies 
across the region, but we are also working to improve the 
collection and exchange of biometric information among these 
countries and with the United States. This capability enhances 
our joint efforts to identify, track, and dismantle 
transnational criminal networks and other violent criminal 
groups, to track migration patterns, to analyze human 
trafficking networks, and to support cross-border 
investigations of gang members and other criminals to enable 
successful prosecutions. This is really contributing to the 
larger effort to try and take a bigger bite out of criminal 
organizations that are responsible for a variety of ills in the 
region.
    For INL, the western hemisphere has long been a core focus. 
The work we do to take on these threats in the region can have 
an immediate impact on the security of our country, which is 
always priority one. Today, INL remains engaged in Guatemala, 
Honduras, El Salvador, and Mexico on a more limited basis but 
we remain engaged working to improve law enforcement, border 
security, and the main tools of cooperation like specialized 
embedded units between and among our law enforcement agencies. 
We do this in close partnership with organizations like CBP, 
Homeland Security investigations, DEA, and the FBI.
    INL investments on behalf of the American taxpayer will 
have maximum impact where there is demonstrated will on the 
part of our counterparts to work with us to confront these 
profound and, frankly, evolving challenges. The benefit to the 
United States is clear, but I do kind of want to emphasize one 
point as I end.
    This is also the key to governments in the region earning 
the trust and confidence of their citizens. To do that, they 
must demonstrate that they are willing and able to provide for 
security, to hold criminals and corrupt officials accountable, 
and to create the conditions in which ordinary citizens have 
more opportunity, economic and otherwise. We have been working 
with them on this, but in the end, they have to be the 
protagonists in their own story and taking these issues on.
    With that, I will end, and I look forward to your 
questions.
    [The prepared statement of Ms. Madison follows:]

                   Prepared Statement of Ms. Madison

    Chairman Risch, Ranking Member Menendez, distinguished members of 
the Committee: thank you for the opportunity to appear before you today 
to discuss the nature and scope of U.S. counternarcotics and law 
enforcement cooperation with Mexico and the Central American countries 
of El Salvador, Guatemala, and Honduras. Transnational criminal 
organizations (TCOs) continue to have a devastating and deadly effect 
on the United States and our citizens. In the region, they are 
undermining citizen security, eroding the rule of law and institutions 
that maintain it, and closing off opportunities for licit economic 
investment and growth. They thrive on corruptible public officials, and 
in many cases face no fear of punishment due to weak judicial 
institutions. In extraordinarily consequential ways, TCOs exploit our 
shared land border with Mexico and the porous borders of Central 
America and the Caribbean basin to traffic drugs, smuggle migrants and 
other illicit goods, and generate illicit revenue. Tackling this 
challenge demands our continued focus, collaborative action, and cross-
border cooperation.
    Transnational criminal organizations operating in the Western 
Hemisphere and beyond negatively affect the United States and its 
interests in a variety of ways, but nowhere are the consequences more 
sobering than in the ongoing drug crisis in our country. The U.S. 
Centers for Disease Control and Prevention (CDC) reported a staggering 
68,588 drug overdose deaths in 2018, according to its preliminary 
data.\1\ The reduction in fatalities compared to the more than 72,000 
deaths reported by the CDC the year prior is an important initial 
decrease, but we cannot afford to lose sight of the work that remains. 
Fatal overdoses attributed to the types of drugs produced abroad and 
trafficked into the United States are near record-high levels, or in 
the case of synthetic opioids and methamphetamine, increasing. As we 
seek to disrupt and deter TCOs, a top priority of the Department of 
State's Bureau of International Narcotics and Law Enforcement Affairs 
(INL) is to reduce overdose deaths through programs, alongside our 
interagency colleagues, that build the capacity and increase the will 
of our foreign partners to address these threats before they reach the 
United States, as well as through diplomacy at the bilateral, regional, 
and global levels. While we are naturally focused on the effect of 
drugs at home, we also know that narco-trafficking and other forms of 
transnational crime have a profound, negative effect on the citizens 
and institutions of the countries where they originate or transit. 
Because the consequences of transnational crime transcend borders, so 
must the remedies we seek to apply.
                             key challenges
    Opioids, particularly synthetic opioids, continue to destroy the 
lives of Americans and tear at the very fabric of our communities. In 
2017, nearly 68 percent of fatal drug overdoses in the United States 
involved opioids, and of those deaths, nearly 60 percent involved 
synthetic opioids.\2\ Synthetic opioids, such as fentanyl, are smuggled 
into the United States via mail from China and to a lesser degree, via 
Canada and Mexico. Traffickers also smuggle fentanyl into the United 
States across the U.S.-Mexico border, sometimes in the form of 
counterfeit prescription pills. More concerning are indications that 
Mexico's role as a fentanyl trafficking hub is growing and evolving to 
include fentanyl production. Synthetic opioids are particularly hard to 
target. Criminals can produce them almost anywhere and change formulas 
to evade detection and outpace international mechanisms used to 
schedule and control them. Opium poppy cultivation in Mexico is also 
near an all-time high at 41,800 hectares (Ha) \3\, or around 160 square 
miles, and nearly 90 percent of the heroin seized in the United States 
originated in Mexico.\4\
    Mexico is also the country of origin for most methamphetamine 
consumed in the United States, and along with Central America and parts 
of the Caribbean, it is a major transit route for cocaine from 
Colombia. Nationwide, U.S. Customs and Border Protection seizures of 
methamphetamine rose 16 percent between fiscal year (FY) 2017 and the 
first 10 months of FY 2019. The CDC estimated nearly 13,000 Americans 
fatally overdosed on methamphetamine and similar substances in 2018 
compared to approximately 10,700 the year prior.
    Added to the persistent challenge of plant-based drugs and the 
increasing danger of synthetic drugs are concurrent innovations in 
criminal behavior, such as criminal use of the ``dark web'', virtual 
assets, and encrypted communication platforms. TCOs and their 
affiliates exploit the anonymity and convenience afforded by these 
tools. TCOs increasingly seek to diversify or expand their activities 
beyond their traditional drug trafficking, kidnapping and extortion 
schemes, making illicit revenue streams more diffuse and networks 
harder to dismantle. These crimes include fuel theft; illegal mining; 
the trafficking of wildlife, guns, and counterfeit goods; as well as 
human smuggling and human trafficking.
    TCOs, drug traffickers, and other criminal organizations also 
perpetuate violence and corruption. The people of Mexico, El Salvador, 
Guatemala, and Honduras suffer daily from the violence caused by the 
drug trade. In Mexico, the documented homicide rate hit a record high 
in 2018 at 29 per 100,000 inhabitants, compared to 16.1 in 2014, and 
homicides continue to climb in 2019, according to Mexican government 
statistics. In El Salvador, Guatemala, and Honduras, homicides have 
fallen in recent years compared to peak totals earlier in the decade, 
but they remain high. We have seen decreases in daily homicides in El 
Salvador since President Bukele took office and are hopeful this trend 
will continue, though in 2018 El Salvador still had the highest rates 
in the region at 50 per 100,000. Citizens often do not trust 
governments enough to report crimes, especially corruption and 
extortion, and for crimes that are reported, the alleged perpetrators 
often go unpunished.
    We also know that criminal organizations--no matter what commodity 
they are trafficking--corrupt institutions and individuals as part of 
their business models. In Transparency International's Corruption 
Perceptions Index (CPI), Mexico, Honduras, and Guatemala fall into the 
bottom third of countries when ranked globally and within the 
hemisphere. El Salvador ranks in the middle of the road globally and 
according to the CPI, showed improvement between 2017 and 2018.
    To varying degrees in each country, high levels of violence and 
crime contribute to the large number of Guatemalans, Salvadorans, and 
Hondurans attempting to migrate to the United States. Migrants are also 
motivated by difficult economic conditions; rampant corruption and 
impunity; and their governments' inability to effectively provide 
security and dispense justice, combined with their citizens' perception 
of that inability.
    Border security institutions in the region, not immune to these 
pressures and suffering from a lack of resources, fail to effectively 
control the movement of drugs, illicit goods, and migrants. Porous 
borders and poor infrastructure compound the problems they face. The 
severity and interwoven nature of these challenges make our task 
difficult to reduce the number of Americans who fatally overdose on 
illicit drugs.
                        where do we go from here
    Mexico, El Salvador, Guatemala, and Honduras all have their own 
histories and their own unique set of circumstances. Nevertheless, the 
interconnectivity of the transnational crime issues and the scourge of 
the drug crisis require collective action. Like the United States, each 
has a role to play in lessening the effect of this shared catastrophe.
    Mexico remains one of the United States' most necessary bilateral 
partners. Our country cannot effectively address the drug crisis 
without Mexico's direct action. We continue to work with the Lopez 
Obrador administration to address our shared security priorities and 
seek to intensify cooperation on counternarcotics and other key 
security issues, such as improving border security and bolstering 
effective criminal justice in Mexico. The Merida Initiative remains the 
main vehicle for U.S.-Mexico security and law enforcement cooperation, 
including on counternarcotics. Over the last 2 and a half years, the 
U.S. Government refocused our efforts in Mexico to reflect the guidance 
of E.O. 13773, Enforcing Federal Law with Respect to Transnational 
Criminal Organizations and Preventing International Trafficking, the 
National Security Strategy, and high-level security dialogues with the 
Mexican government. Programs attack each component of the TCO business 
model to reduce the production of heroin, fentanyl, methamphetamine, 
and the transit of cocaine. Programs also focus on supporting Mexico's 
efforts to secure its borders and ports, deprive TCOs of their illicit 
revenue streams, and reduce impunity and corruption.
    Mexico has made progress over the last decade. Before the Merida 
Initiative, many Mexican law enforcement and justice sector 
institutions lacked any enforceable career standards and relied heavily 
upon on-the-job training. Today, Mexican institutions are improving 
standards for professionalization, including training programs, skills 
and competency certifications for personnel, and accreditation to 
international standards. Just last month, Mexico strengthened its asset 
forfeiture law, a key tool in the fight against TCOs, drug producers 
and traffickers, and their affiliates. We applaud Mexico for taking 
this long-awaited step and want to see the law used effectively. All of 
these steps are critical to enhancing shared security in the hemisphere 
in the long-term.
    Mexico has undertaken efforts that will provide a better 
understanding of poppy cultivation and associated opium yields, 
enabling better monitoring and information sharing on poppy 
eradication. Cooperation between the United States, Mexico, and the 
United Nations Office on Drugs and Crime on these efforts is laudable. 
It has been, and will continue to be, essential to lessening the 
production and trafficking of heroin. Yet as President Trump noted in 
his recent Majors List determination, Mexico needs to do more to stop 
the flow of deadly drugs entering our country. We must see better 
results in order to reduce the number of fatal drug overdoses in the 
United States and to adequately degrade Mexican TCOs and their 
networks. Mexico needs to develop a comprehensive and whole-of-
government counternarcotics strategy that includes clear metrics so the 
United States can better understand Mexico's progress--or the lack 
thereof--in reducing drug production and trafficking. We stand ready to 
jointly create unambiguous, shared, and measurable targets. In support 
of such a strategy, the United States needs Mexico to interdict more 
drugs, sustainably reduce poppy cultivation, and bring more drug 
traffickers to justice while removing their illicit profits. We 
recognize that inherent to this task are life-or-death consequences for 
citizens from both our countries, and we are grateful to the many 
Mexicans who are bravely meeting this challenge and confronting the 
TCOs that threaten us.
    Earlier this year, the President directed the Department to 
reprogram foreign assistance funding from El Salvador, Guatemala, and 
Honduras over concerns these governments were doing too little to stop 
outward migration to the United States. While the President has 
approved some limited exceptions for INL-funded programs the message is 
clear that we need these governments to show they are committed to 
these priorities.
    In El Salvador, Guatemala, and Honduras, under the U.S. Strategy 
for Central America, INL has worked to counter drug trafficking, combat 
TCOs, and decrease irregular migration to the United States by 
improving the capacity of these governments' law enforcement, 
migration, customs, and justice sectors to address these threats. 
Commitment to these goals is not uniform throughout the region, but the 
Guatemalan navy is a Central American leader making positive strides in 
counternarcotics cooperation, much like El Salvador does in the fight 
against transnational criminal gangs.
    In Guatemala, through which TCOs routinely smuggle cocaine on its 
way north from Colombia, INL and its U.S. interagency partners are 
working closely with the country's Naval Special Forces (FEN), a highly 
regarded counternarcotics partner in Central America. The FEN is 
responsible for over 80 percent of Guatemala's total drug seizures and 
interdicted over 21 MT of cocaine in 2018. More needs to be done in 
Guatemala to stop the increase in clandestine flights arriving with 
narcotics in Guatemala's territory. El Salvador, even with a 
comparatively lower threat from drug trafficking, seized nearly 13 MT 
of illegal drugs in the same year. Honduras has not demonstrated the 
same counternarcotics capacity and remains a permissive environment for 
trafficking. Though Honduras established its own FEN equivalent, the 
unit needs additional resources such as vessels or adequate fuel. 
Honduras seized just 3.7 MT of illegal drugs in 2018.
    On law enforcement and anti-gang cooperation more broadly, INL and 
the U.S. Federal Bureau of Investigation (FBI) work with the 
Governments of El Salvador, Guatemala, and Honduras to support 
Transnational Anti-Gang (TAG) vetted units and an associated Regional 
Criminal Gang Intelligence Platform (SICAT). TAGs lead international 
efforts to target transnational criminal gangs such as MS-13 and Barrio 
18. The Salvadoran TAG has facilitated the arrest of more than 150 MS-
13 members in the United States since 2015. The International Law 
Enforcement Academy in El Salvador, a venue for U.S. law enforcement to 
provide specialized training to law enforcement officials from around 
the hemisphere, has also proven itself to be an effective tool in 
strengthening ties with U.S. law enforcement, creating regional law 
enforcement networks, and increasing capacity to combat TCOs and drug 
trafficking.
    El Salvador is leading the charge in hosting an international 
fusion center of border security, law enforcement, and intelligence 
agencies (Joint Border Intelligence Group, or GCIF). This fusion center 
enables real-time collection, analysis, and dissemination of criminal 
intelligence among the United States, Mexico, Canada, Australia, Spain, 
and participating countries in Central America. From June 2017 to May 
2019, information sharing facilitated by GCIF led to the identification 
of 1,330 gang members, the majority of whom were previously unknown to 
the United States. In this same period, GCIF also identified 132 human 
smugglers and 56 drug traffickers, among other criminals, many of whom 
were seeking entry to the United States. Additionally, information from 
GCIF led to significant arrests of gang members, including the June 
2019 arrest of one of El Salvador's most wanted criminals who was 
seeking entry to the United States. While GCIF remains a vital tool for 
enhancing security through shared information, it can only succeed with 
greater commitment from its members. There is a need for additional 
analysts from Mexico and Guatemala. Most importantly, Honduras has yet 
to commit to providing permanent analysts. Countries' assignments of 
permanent analysts within GCIF would demonstrate commitment to 
enhancing regional security. El Salvador is unique amongst Central 
America in its political will and commitment to these partnerships.
    Related to information sharing and strengthening border security, 
the U.S. Government will build on bilateral efforts with Mexico--and 
are working to expand in Central America--to routinely collect and 
exchange with the United States biometric information collected by 
border security and law enforcement agents. These capabilities enhance 
our countries' joint efforts to identify, track, and dismantle TCOs and 
other violent criminal groups; track migration patterns; to anticipate, 
plan for, and respond to migration surges; to analyze criminal 
networks; and to support cross-border investigations of gang members 
and other criminals. In this regard, Mexico's action on enforcing 
migration controls strengthens our own border security.
    Beyond bilateral and sub-regional efforts to address the drug 
crisis, including associated crime and insecurity, the Department and 
INL are hard at work to find broader solutions to this global 
challenge. As a member of the Organization of American States (OAS) and 
as incoming Chair of the OAS Inter-American Drug Abuse Control 
Commission (CICAD), the United States works to advance key drug 
priorities in the Western Hemisphere. The Department aids OAS Member 
States in their implementation of global and regional drug control and 
organized crime treaties and helps to ensure that law enforcement and 
counternarcotics authorities collaborate effectively to disrupt and 
dismantle TCOs and their trafficking routes. We are also implementing a 
five-point, 5-year strategy to tackle the number one drug threat to the 
United States: synthetic opioids. The strategy guides our efforts to 
reduce the production of synthetic drugs, increase detection and 
interdiction, target online sales and associated financial 
transactions, reduce global demand for these drugs, and expand global 
partnerships that lead to action. The President carried this message to 
the United Nations General Assembly last year leading a Global Call to 
Action, momentum we were able to harness and build upon in March at the 
Commission on Narcotic Drugs in Vienna.
                               conclusion
    While the INL Bureau has worked to address some of the more 
immediate and acute challenges within our mandate--particularly the 
drug threat--we have historically applied solutions to the long-term 
challenges, such as working to strengthen the rule of law and give 
citizens hope that their governments are in fact capable of protecting 
them and holding criminals accountable. Successfully addressing these 
complex challenges requires strong and willing foreign partners, 
meaningful regional cooperation, and a willingness and a capability to 
quickly adapt to new trends in criminal behavior. Over the long-term, 
success on this front can ultimately help to create conditions more 
conducive to economic investment and growth. Whether in the region, the 
hemisphere, or elsewhere in the world, INL is committed to addressing 
these challenges for as long as they remain with the tools at our 
disposal.

----------------
Notes

    \1\ Predicted Number of Deaths for the Period Ending December 2018, 
https://www.cdc.gov/nchs/nvss/vsrr/drug-overdose-data.htm
    \2\ Drug and Opioid-Involved Overdose Deaths, United States, 2013-
2017, https://www.cdc.gov/mmwr/volumes/67/wr/
mm675152e1.htm?s_cid=mm675152e1_w
    \3\ New Annual Data Released by White House Office of National Drug 
Control Policy Shows Poppy Cultivation and Potential Heroin Production 
Remain at Record-High Levels in Mexico, https://www.whitehouse.gov/
briefings-statements/new-annual-data-released-white-house-office-
national-drug-control-policy-shows-poppy-cultivation-potential-heroin-
production-remain-record-high-levels-mexico/
    \4\ The 2016 Heroin Signature Program Report, https://www.dea.gov/
documents/2018/10/15/heroin-signature-report

    The Chairman. Thank you, Ms. Madison.
    Now we will hear from Mr. Michael Kozak. He served as the 
Acting Assistant Secretary for Western Hemisphere Affairs since 
September 13. He has served in a number of senior positions at 
the State Department, including as senior bureau official for 
democracy, human rights, and labor; the Senior Advisor to the 
Assistant Secretary for Democracy, Human Rights, and Labor; and 
the Senior Director on the National Security Council staff. He 
also served as the Principal Deputy Assistant Secretary of 
State in the Bureaus of Democracy, Human Rights and Labor; 
Inter-American Affairs; and Legal Advisor; and as Assistant 
Secretary of State for extended periods. He was the Ambassador 
in Minsk, Belarus, and Chief of Mission in Havana, Cuba.
    Welcome, Mr. Kozak. We are glad to have you here and 
anxious to hear your comments.

STATEMENT OF HON. MICHAEL G. KOZAK, ACTING ASSISTANT SECRETARY, 
BUREAU OF WESTERN HEMISPHERE AFFAIRS, UNITED STATES DEPARTMENT 
                    OF STATE, WASHINGTON, DC

    Ambassador Kozak. Well, thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Menendez, and distinguished 
members of the committee. It is an honor to be asked to discuss 
our U.S. policy in Mexico and Central America.
    Mexico and Central America share close bonds with the 
United States. The Administration's top objective remains 
ensuring the safety and security of the American people. But we 
also care deeply about the safety and security of those in the 
region. Today, they are being victimized by human traffickers.
    People have been heading north from El Salvador, Guatemala, 
and Honduras for decades. Since 2014, however, the numbers have 
surged. Our systems are overwhelmed. The number of people 
arriving at the southern border now approaches the total annual 
number of immigrants worldwide authorized by law.
    The U.S. strategy for Central America adopted in 2015 was 
designed to reduce the migration push factor. It was to do so 
by helping governments in the region who had the will to combat 
corruption, crime, and antiquated economic models that protect 
those who have long benefited from the status quo.
    Despite some significant programmatic successes, however, 
this approach failed. U.S. Customs and Border Protection 
encountered an average of 115,000 illegal migrants per month at 
the U.S. border from March to June of this year, and over 
140,000 in May alone. Something had to change.
    Consistent with the President's guidance earlier this year, 
the Department reprogrammed certain assistance intended for El 
Salvador, Guatemala, and Honduras to other countries. This 
reprogramming was designed to send a wakeup call to the 
governments that they need to do more to address outward 
migration and the factors that drive it.
    The Administration identified the immediate problem and 
what the governments of these countries could do to address it.
    Now, as to the problem, I think Mexican President Lopez 
Obrador described it best last month when he said--and I 
quote--we want to tell our people and our Central American 
brethren that they should not allow themselves to be 
manipulated and fooled by human smugglers. There is a huge 
network of human traffickers, and they charge huge amounts of 
money to transport migrants and organize these caravans.
    And Mexico acted to address the problem. In the June 7 
U.S.-Mexico Joint Declaration, Mexico committed to combat human 
smuggling, deploy its national guard throughout Mexico, and 
work with the U.S. to implement and expand the Migrant 
Protection Protocols. And this approach has worked. We have 
seen an almost 60 percent reduction in the numbers of illegal 
migrants arriving at the border.
    We now have worked also to create mechanisms with the 
countries in Central America that will allow those who have 
legitimate refugee or asylum concerns to obtain protection in 
Central America. They need not undertake the perilous journey 
in the hands of smugglers. For example, through the Agreement 
between the United States and Guatemala on Cooperation 
Regarding the Examination of Protection Claims, a very succinct 
title, the United States plans to help Guatemala build an 
asylum processing system that can help those fleeing their own 
countries of origin who may have asylum concerns.
    Salvadoran Foreign Minister Alexandra Hill just signed a 
similar agreement on September 20. And we are discussing 
similar arrangements with the Government of Honduras.
    Now, these measures are having a substantial effect on 
countering the pull factors that cause people to think that 
they will be able to enter and live in the United States if 
they just pay the smugglers and endure the abuse that they mete 
out.
    But these measures do not address the push factors that 
make people in the three countries leave home in the first 
place. Powerful criminal and political forces in these 
countries profit from irregular migration. The Governments of 
El Salvador, Guatemala, and Honduras must show the political 
will to do more to strengthen institutions, root out 
corruption, and fight impunity as their citizens themselves are 
demanding.
    We will continue to work and consult with Congress on 
future steps as we look forward to fiscal year 2020. Our long-
term success depends on fostering political will in the region 
to end years of corruption and impunity and to strengthen 
institutional capacity. As our partner governments take on this 
challenge--and we hope with seriousness of purpose--they will 
find us to be a close collaborator and friend.
    Thank you, Mr. Chairman, members of the committee, and we 
look forward to your questions.
    [The prepared statement of Ambassador Kozak follows:]

                 Prepared Statement of Ambassador Kozak

    Chairman Risch, Ranking Member Menendez, and distinguished Members 
of the Committee, it is an honor to be with you today on behalf of the 
State Department's Bureau of Western Hemisphere Affairs to discuss U.S. 
policy on Mexico and Central America and the Administration's response 
to the crisis at the U.S. southern border. This topic is of critical 
importance to the Administration, the American public, and Congress, so 
thank you for holding this hearing.
    I am pleased to be here today with my colleague from the Bureau of 
International Narcotics and Law Enforcement Affairs, with which the 
Bureau of Western Hemisphere Affairs works closely on these complex 
issues. The President's National Security Strategy states the Western 
Hemisphere ``stands on the cusp of prosperity and peace, built upon 
democracy and the rule of law,'' but that ``transnational criminal 
organizations--including gangs and cartels--perpetuate violence and 
corruption, and threaten the stability of Central American states 
including Guatemala, Honduras, and El Salvador.'' These same 
organizations also control human trafficking and narcotics smuggling.
    Mexico and Central America share close bonds with the United States 
through geographic proximity, commerce, and family ties as well as 
shared history, culture, and democratic values. The region has a 
significant impact on the American people and on our country's economic 
and security goals. The Department's top objective remains ensuring the 
safety and security of the American people. We work with Mexico and the 
Central American countries to address the common problems of human 
trafficking, transnational crime, and the production and movement of 
illicit narcotics. Our joint work in these areas is paramount to 
achieving our goal of ensuring security for the American people. Many 
of you have traveled extensively to the region and have seen firsthand 
our diplomatic teams working hard every day to advance U.S. interests 
by working with partner governments to combat these shared threats.
    In meeting challenges posed by the malign influence of 
transnational criminal networks and some external actors, we remain 
focused on strengthening our collaboration with civil society, the 
private sector, and international organizations to achieve our goals. 
We are deepening U.S. engagement through our ongoing daily diplomatic 
interaction and high-level visits. Secretary Pompeo visited El Salvador 
and Mexico in July, and the Department has recently hosted several 
high-level visits in Washington, such as that of President-elect of 
Guatemala Alejandro Giammattei, whom I had the pleasure to have met 
personally, and Mexican Foreign Secretary Marcelo Ebrard.
    The challenges facing Central America are not new. People have been 
heading north from the region for several decades, including during the 
civil war periods in El Salvador and Guatemala when violence in the 
region was rampant and tens of thousands of individuals were murdered. 
The key difference since 2014, however, has been the marked increase in 
the number of unaccompanied minors and family units arriving at the 
border. The total number of migrants has increased several fold. Most 
have been lured into paying smugglers who assure them they will easily 
be able to enter the United States and find lucrative jobs. Since 2014, 
the U.S. Government has responded to these changes with messaging aimed 
at educating intending migrants about the perilous journey that often 
results in physical violence or death of the victims at the hands of 
smugglers. We have also sought to make clear to those who might be 
targeted by the smugglers' assurances that U.S. enforcement initiatives 
significantly reduce the chances that individuals who do not qualify 
for refugee status or asylum will be able to evade our laws and take up 
residence and work in the United States. The U.S. Strategy for Central 
America, adopted in 2015, brought key capacity-building programs to the 
region. They were designed to help governments combat corruption, 
crime, and antiquated economic models that protect those who have long 
benefitted from the status quo rather than promoting broad-based 
economic growth.
    At the urging of the United States, and facilitated by some of this 
U.S. foreign assistance, the governments of El Salvador, Guatemala, and 
Honduras have taken some important steps. They are advancing their 
Customs Union integration, which will contribute to further regional 
security and facilitate business and trade among the three countries. 
They have also improved their law enforcement, last month, El Salvador 
reported its lowest monthly homicide rate since the end of the civil 
war in 1992. Between 2009 and 2018, Guatemala's murder rate fell from a 
high of 45 persons per 100,000 to approximately 22 per 100,000. 
Honduras has made great strides in reforming its National Police force 
and its community policing model contributed to a steep decline in the 
reported homicide rate, which fell from 86 to 40 per 100,000 citizens 
between 2011-2018.
    But even with such successes at the programmatic level, U.S. 
Customs and Border Protection (CBP) is encountering increasingly high 
levels of migrants arriving at the U.S. southern border--both at ports 
of entry and between the ports of entry. U.S. CBP officers encountered 
an average of 115,000 illegal immigrants per month from March to June 
of this year, and more than 140,000 in May alone--the highest numbers 
in recent history. Of these, approximately 70 percent were families or 
unaccompanied children, the majority from Honduras, Guatemala, and El 
Salvador. At that rate, the United States was on track to seeing one 
million encounters and apprehensions at our southern border this fiscal 
year, assuming nothing changed. Note that on an annualized basis those 
figures exceed significantly the total immigrants authorized by 
Congress and has vastly overloaded our immigration system. Clearly, the 
combination of stepped up enforcement at our border, messaging to the 
region, and the success of many of our foreign assistance programs were 
not getting the job done. Our assessment was that we had underestimated 
the pull factor from smugglers' messaging about the chances to enter 
and remain in the United States, and we underestimated the resilience 
of powerful, entrenched forces in the three countries that profit from 
the status quo and thus hindered all effects to promote good government 
and economic growth. Something had to change.
    In March, consistent with the President's guidance, the Secretary 
directed the Department to reprogram certain foreign assistance that 
would have gone to El Salvador, Guatemala, and Honduras pending a 
demonstration that they were serious about addressing the crisis. This 
was not a punitive action. Instead, it was designed to send a wakeup 
call that these governments need to do more to address outward 
migration, and the factors that drive it. Our assistance programs can 
help governments improve governance and promote growth. But our 
programs cannot substitute for the political will these governments 
need to meet the challenge.
    Our strategy has both short and long-term components. First, our 
homeland security experts assessed that the governments of these 
countries could take a number of steps in the short term, appropriate 
to the role each country has played in the crisis. Mexican President 
Andres Manuel Lopez Obrador said it best last month: ``We want to tell 
our people and our Central American brethren that they should not allow 
themselves to be manipulated and fooled by human smugglers. There is a 
huge network of human traffickers and they charge huge amounts of money 
to transport migrants and organize these caravans.'' In the June 7 
U.S.-Mexico Joint Declaration, Mexico committed to combat human 
smuggling, deploy its National Guard on its southern and northern 
borders, take increased steps to apprehend and repatriate irregular 
migrants consistent with Mexico's obligations under international law, 
and to work with the United States to implement and expand the Migrant 
Protection Protocols, known as MPP. The intent of this approach was to 
reduce the pull factors promoted by smugglers. And it has worked. Since 
signing the Joint Declaration in June, we have seen an almost 60 
percent reduction in the numbers of illegal immigrants arriving at the 
U.S. southern border. Still, the numbers are too high. Hundreds of 
thousands of innocents from Central America are being put at extreme 
risk by smugglers.
    The second part of the short-term strategy to combat the lure of 
the smugglers is to participate mechanisms with the countries in 
Central America that require those who have legitimate refugee or 
asylum claims to obtain protection in Central America, while deterring 
those who do not from undertaking the perilous journey in the hands of 
smugglers. In support of the July 26 Agreement between the United 
States and Guatemala on Cooperation Regarding the Examination of 
Protection Claims, the United States plans to help Guatemala build an 
asylum processing system that can provide refuge to those fleeing their 
countries of origin who may have asylum concerns, while weeding out 
those who do not. The July 30 Agreement Between the United States and 
Guatemala Concerning a Temporary Agricultural Workers Program is 
designed to give Guatemalans who are seeking temporary employment in 
the United States a safe and legal way to pursue their aspirations and 
to regulate the labor brokers involved to prevent abuse of the 
applicants.
    These initiatives have real promise. But they will enter into force 
only when legal requirements in both countries have been fulfilled, 
including a determination by our Departments of Justice and Homeland 
Security that the Guatemalan asylum system meets applicable legal 
standards. I should note here the concern expressed by some that even 
with significant assistance and strengthening, the Guatemalan system 
could not possibly handle the number of applicants arriving at the U.S. 
border. We concur that Guatemala is not equipped to handle those kinds 
of numbers. But only a subset of those who claim asylum in the U.S. 
actually end up qualifying for it. The others come only because they 
wrongly believe the traffickers assurances that they can enter and 
reside in the United States even if they do not have a valid claim. So, 
the premise of this agreement is that only those who genuinely have a 
well-founded fear of persecution will pursue their claims in Guatemala. 
A strengthened Guatemalan system and calibrated management of the 
returns will make this approach workable.
    And we are exploring these sorts of agreements elsewhere in the 
region. Our Deputy Assistant Secretary of State for Central America and 
Mexico just returned from discussing similar arrangements with the 
Honduran Government last week, and an Asylum Cooperation Agreement with 
El Salvador was signed September 20. These initiatives seek to 
strengthen coordination between our governments to expand the region's 
protection network. Once implemented they will ensure that countries in 
the region provide vulnerable individuals protection closer to home and 
discourage those who do not have genuine asylum concerns and thereby 
help address the humanitarian and security crisis at the U.S. southern 
border. The Department works closely with the Department of Homeland 
Security on these initiatives. We will undertake to keep the Committee 
apprised of progress in these negotiations.
    We believe these relatively new measures can and are having a 
substantial effect on countering the ``pull'' factors that cause people 
to think they will be able to enter and live in the United States if 
they can survive the journey. But they do not address the ``push'' 
factors that make people in the three countries conclude that the only 
hope for a better future for themselves and their children lies in 
escaping their own countries and entering the United States. The second 
longer term part of our strategy is aimed at that aspect of the 
problem.
    Recognizing the link between promoting prosperity in southern 
Mexico and Central America, the United States and Mexico are committed 
to fostering economic development and investment in southern Mexico and 
in Central America. The question is how to do that effectively. 
Powerful criminal and political forces in these countries benefit 
financially from irregular migration and see it as a release valve for 
a discontented population. These forces must be defeated in order to 
allow the capacities our assistance programs have helped build to have 
lasting effect. Our message is clear: the governments of El Salvador, 
Guatemala, and Honduras must do more to strengthen institutions, root 
out corruption, and fight impunity, which creates a permissive 
environment for transnational criminal organizations. Corruption in 
these nations enables those very organizations to profit from migrants' 
desperate decisions to abandon their life-long homes and undertake a 
dangerous and uncertain journey to reach the U.S. southern border.
    This is not just our opinion. The people of El Salvador, Guatemala 
and Honduras are demanding better, as evidenced by the election of 
President Nayib Bukele of El Salvador earlier this year. President 
Bukele has heard the demands of Salvadoran citizens loud and clear and 
has said his Administration takes responsibility for the conditions 
that force Salvadorans to leave the country. El Salvador also launched 
a new border security civilian police force aimed at better managing 
migration flows and security threats. In Guatemala, we have seen broad 
based protests against corruption and impunity and those candidates who 
have been successful in the past government elections have been those 
who promised to address these problems even if their subsequent 
performance in office left much to be desired in this respect.
    Those who have an abiding interest in preserving the status quo in 
each of these countries have proven remarkably resilient. While we can 
support those who are working for a better future, we cannot overcome 
the negative tendencies in their countries for them. Elected officials 
need to show the political will to take on these problems strongly and 
seriously. If they do, much is possible. We will encourage the U.S. 
private sector to help spur job growth where we see concrete action 
from our partner countries on corruption and rule of law that would 
make them good prospects for investment. One such example is the 
Overseas Private Investment Corporation's (OPIC) intention to make a 
$350 million investment in a liquefied natural gas facility in El 
Salvador. This initiative will showcase the U.S. Government's strategic 
use of private sector partnerships to support President Bukele's 
central goal of creating economic opportunities so that Salvadorans can 
build a prosperous future at home. OPIC, which will soon be merged into 
the International Development Finance Corporation along with USAID's 
Development Credit Authority, will be a critical tool for advancing 
U.S. interests in other countries in the region by catalyzing 
additional private sector and partner nation investments in support of 
U.S. policy goals of creating lasting prosperity and growth. There is 
no better partner for the region than the United States, which offers a 
transparent engine of economic growth. GDP growth solely through 
remittances is not sustainable and does not lead to balanced 
development. Rather, only when the governments and private sectors in 
these countries invest in their own people and economies will these 
countries realize what it truly means to be secure and prosperous.
    The U.S. Government is ready to support the efforts of the 
governments of El Salvador, Guatemala, and Honduras clearly when we see 
real action and evidence of their political will. We will continue to 
consult and work with Congress on future steps as well as on the 
actions the governments of El Salvador, Guatemala, and Honduras can and 
are taking to address the President's concerns as we look ahead to 
Fiscal Year 2020.
    There is nothing stopping the governments of El Salvador, 
Guatemala, and Honduras from adhering to their commitments under their 
own Alliance for Prosperity plan, other than a lack of political will. 
With real action--not just words--these governments can improve citizen 
security, expand economic opportunity, and strengthen good governance 
and democratic institutions. We see what success looks like in the 
examples of Costa Rica and Panama, where their citizens have created 
secure and prosperous lives at home. In July, Costa Rican and 
Panamanian authorities participated in a joint operation with Homeland 
Security Investigations to dismantle a human smuggling ring that 
operated throughout Central America. The Department of State made the 
operation possible by bringing our interagency and host nation partners 
together to secure borders and disrupt transnational criminal 
organizations. Costa Rica and Panama combined account for nearly a 
third of all drug interdictions in the region. The two countries are 
prime examples of the results we can expect to see when political will 
translates into action. We want to see El Salvador, Guatemala, and 
Honduras join them in charting a path to lasting prosperity and good 
governance.
    In conclusion, the United States seeks a secure, democratic, and 
prosperous hemisphere so all people can build a future in their home 
countries and communities. While we face difficult challenges, there 
are many reasons to be optimistic that working together with our 
partners in the region we are finding solutions to the immediate crisis 
that negatively affects each of the countries involved. Our long-term 
success depends on fostering political will in the region to put an end 
once and for all to years of corruption and impunity, and to strengthen 
institutional capacity. As our partner governments take on this 
challenge with seriousness of purpose, they will find us to be a close 
collaborator and friend.
    I look forward to your questions.

    The Chairman. Thank you so much.
    We are now going to do a 5-minute round of questions. I 
will reserve time. And with that, Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Secretary Kozak, since this is the first hearing this 
committee has convened on Mexico with official witnesses since 
January of 2017, I think it is important we start with the 
basics. Can you provide us with information about what steps, 
if any, Secretary Pompeo and the State Department have taken to 
ensure that Mexico pays for the border wall, as President Trump 
has claimed will happen?
    Ambassador Kozak. I do not think the State Department has 
been the lead on that issue. I think you would have to go back 
and look at what the President said at different times about 
offsets and that sort of thing. I do not think we were 
expecting a check to be handed over. But you can look at the 
balances----
    Senator Menendez. So there is nothing you can tell me that 
the Secretary has done in pursuit of getting Mexico to pay for 
the border wall.
    Ambassador Kozak. Not that I can tell you, sir, but I will 
certainly take the question back----
    Senator Menendez. I realize that, but you are here. I 
admire what you did when you were in Cuba and other places. But 
you are the witness here and I have no choice but to deal with 
the witnesses we are given.
    In that respect, to emphasize the point that the President 
never intended to have Mexico pay for the border wall, I would 
ask unanimous consent to include a question for the record from 
former Assistant Secretary Kimberly Breier, a political nominee 
from this Administration, in which she stated that she never 
intended to push Mexico on this issue. Mr. Chairman?
    The Chairman. That will be included in the record.
    [The information referred to above can be found at the end 
of this document.]
    Senator Menendez. Thank you, Mr. Chairman.
    As I mentioned earlier, let me continue to pursue a line of 
questioning here. Mr. Kozak, the State Department refused to 
provide this committee with a copy of the supplementary 
agreement with Mexico and was unable to explain whether the 
United States considered the Joint Declaration to be legally 
binding under international law or not. When Legal Advisor 
Marik String testified before this committee in July, he told 
us that the Joint Declaration was, ``an authoritative political 
agreement,'' a term that I understand has never been used to 
describe any agreement in the United States' history. Moreover, 
the few documents that we have received from the 
Administration, including in a response to a letter from the 
chairman, do not appear to represent the entire framework of 
binding and nonbinding agreements, implementing agreements, et 
cetera that the Administration has put in place with Mexico and 
the Northern Triangle. We have no idea what was the agreement 
signed with El Salvador last Friday. And as I understand it, 
DHS, CBP, and ICE have negotiated other agreements and 
instruments.
    So do you know if the Mexican Government views the Joint 
Declaration as legally binding?
    Ambassador Kozak. Senator, I have not had a chance to talk 
with the Mexican Government, but I can address some of the 
other issues you raised there.
    Senator Menendez. Well, those issues would be giving me the 
documents and the committee the documents.
    Ambassador Kozak. Yes. And my understanding is that both 
the Joint Declaration and the supplementary agreement have now 
been provided to the committee. I believe you have also 
received copies of the agreement with Guatemala. If not, we 
will be sure to get it to you----
    Senator Menendez. We do not. So let me follow up.
    Ambassador Kozak. --and the one that was signed with El 
Salvador as well.
    Senator Menendez. Let me follow up then on that question. 
Will you commit to transmitting to the committee a copy of all 
the migration-related instruments, binding or nonbinding, 
annexes, appendices, implementation plans, guidance, and other 
related documents that the Administration has signed, agreed 
to, or otherwise joined with Mexico and the Central American 
governments so we can finally get a clear picture of what the 
Administration is doing here?
    Ambassador Kozak. Yes, sir, with the caveat that often 
agencies, implementing agencies, have understandings. Some of 
them are just procedural and oral, who will be the point of 
contact and that kind of thing. Those we would not necessarily 
have available to provide you. It is not that there is anything 
greatly secret.
    But my understanding is on the Mexican accords, the latest 
state of play with the legal advisor's office--and I believe 
they briefed your staff as well--is that we do consider the 
supplementary agreement and the Joint Declaration, taken 
together, to constitute a legally binding agreement. We have so 
indicated to our Mexican counterparts. Those have been 
provided. I am not aware of any other agreements related to 
that. Obviously, as people implement it, they will have ways 
of----
    Senator Menendez. I sent the Department multiple questions 
about the U.S.-Mexico Declaration and supplementary agreement 
in early August, and I have asked for written responses to each 
question. We have yet to receive it. We are now almost at the 
end of September. Given the potentially important legal 
analysis underpinning the U.S. position on these instruments, I 
think it is critical for Congress to understand it.
    Can you give us a commitment to get us answers to the 
questions that have been pending since August within the next 
week?
    Ambassador Kozak. Yes, sir. We will provide answers. 
Recently it is my understanding that the legal advisor's staff 
had come up and briefed the committee staff and hopefully had 
addressed those questions. But if there are others----
    Senator Menendez. We had a series of requests for written 
responses, and we have not received them.
    Ambassador Kozak. We will work to make sure you get that.
    Senator Menendez. Finally, can you tell me whether you can 
confirm whether the State Department's own website says that 
the Mexican State of Tamaulipas has the same travel level 
warning as Syria, level 4, do not travel due to high levels of 
violent crime there?
    Ambassador Kozak. That is my understanding.
    Senator Menendez. Can you also say that the Administration 
has made clear that levels of violence in Mexico City were not 
indicated as considered when deciding to implement the 
Migration Protection Protocols along the U.S. border?
    Ambassador Kozak. I do not know the answer to whether----
    Senator Menendez. That is what our staff was told by 
officials from DHS, the State Department's Western Hemisphere, 
and the PRM Bureau. So I would like you to reconfirm that for 
me. That is what they were verbally told.
    And finally, can you tell me whether the Administration at 
a briefing told our staff and Republican staff, as I 
understand, that pregnant women in their third trimester and 
families with young children are not considered vulnerable 
populations and therefore will be sent back to Mexico under the 
``remain in Mexico'' policy? Can you confirm that?
    Ambassador Kozak. I cannot confirm that either, sir. I will 
have to consult with DHS and----
    Senator Menendez. Would you do so for the record?
    Ambassador Kozak. We will do so.
    Senator Menendez. I have questions for Secretary Madison, 
but in deference to my colleagues, I will wait for a second 
round.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. And thank you both 
for working on getting this hearing.
    In an action that disgraces our nation and further erodes 
U.S. leadership around the world, President Trump and Vice 
President Pence walked out of the United Nations Climate Summit 
this week. In doing so, they not only turned their backs on the 
world, but on future generations and on the very people he is 
trying to dissuade from seeking asylum in the United States 
with his abusive border policies separating families and his 
unconstitutional wall paid for by the United States military.
    In places like Central America, climate change is hitting 
hard, causing droughts, and raising temperatures. Since 2014, 
this drought has made subsistence farming nearly impossible. 
People are starving and unable to make a living.
    Coffee, a crop that was once a ticket to a stable 
livelihood, has been devastated by outbreaks of coffee leaf 
rust. The United States has reacted not by providing aid to 
help stem the resulting economic collapse or to provide support 
with the irrigation or drought-resistant crops or to address 
the climate crisis in our hemisphere head on. Instead, this 
Administration has cut or frozen foreign aid to the region.
    This question is to both of you. Was it appropriate for 
President Trump and Vice President Pence to turn their back on 
the world at the U.N. when the global community was addressing 
climate change this week?
    Ambassador Kozak. Well, I think the President has been 
clear on his rationale for the steps that he took. I have 
nothing that I could add beyond that.
    Senator Udall. Ms. Madison?
    Ms. Madison. Senator, I do not have anything to add on the 
climate policy.
    I will say that I and others in the Administration have 
been in New York. I was up there working on synthetic opioids 
and other issues with the Chinese. The United States also 
supported what I thought was a pretty remarkable convening of 
will and purpose on protection of international religious 
freedom in the world. So I think there has been some very 
positive engagement by this Administration. I was up there 
myself doing a forum with companies on synthetic opioids. So I 
think that record speaks for itself.
    In terms of the other issues, like Ambassador Kozak, I 
cannot add anything on climate change.
    Senator Udall. Did either of you recommend the United 
States mission at the United Nations address ways to support 
the climate refugees from Central America at the United Nations 
this week? Ms. Madison, you were up there.
    Ms. Madison. I did not.
    Senator Udall. Thank you.
    Do you agree with former Customs and Border Patrol 
Commissioner Kevin McAleenan who said--and I am quoting here 
from the Commissioner--``food insecurity, not violence, seems 
to be a key push factor in informing the decision to travel 
from Guatemala where we have seen the largest growth in 
migration flow this year.'' Do you agree with that?
    Ms. Madison. My view on the drivers and the push factors on 
migration is that it is complicated. It is not one thing. It is 
an accumulation of different issues. It is also about the 
posture that we have in terms of enforcement here and the 
structure of our laws. But I think in countries, I think it 
varies widely what the drivers are and why people make 
individual decisions to leave. I think some of it has to do 
with crime. I am sure some of it has to do with economic 
opportunity. I do not think there is any one piece of the 
puzzle that explains it.
    Senator Udall. Mr. Kozak?
    Ambassador Kozak. I would concur in that. You can look at 
some of the indicators where there has been actual success in 
driving down the levels of violence. This would tend to support 
the statement that you just quoted, Senator. But the numbers of 
people leaving has gone up even as the murder rate has gone 
down. And again, it is a complex system.
    From my past experience in dealing with mass migrations--
and I go back to the Mariel boat lift in 1980 and again in the 
1990s, we had both Haiti----
    Senator Udall. Let me just stop you a second because I have 
one more point I want to cover here.
    NBC News reported last week that research compiled by 
Customs and Border Protection showed that crop failures were 
having a devastating impact on rural Central Americans and were 
largely the cause of the migration to the United States. It was 
also reported that the White House largely ignored these 
findings when it made the decision to cut and freeze aid to the 
region.
    Did you read these reports, and do either of you believe 
that cutting aid to Central America will help address the root 
causes of migration?
    Ambassador Kozak. As I indicated in my testimony, I think 
the purpose with cutting the aid--and by the way, a lot of that 
aid was not addressed at providing food and so on. It was 
addressed at police training. It was addressed, some of it with 
my former bureau programs, to support independent journalists 
and this type of thing. All of these programs were good on 
their own merits. If you look at each one of them, I think you 
find that they were producing the results the programs were 
intended to produce.
    What was missing, though, is the political will on the part 
of the governments to actually attack some of these big 
problems of corruption and transparency. All of the economic 
push factors can go back to the lack of growth. You look at 
Costa Rica and Panama, which are similar countries. They have 
good, strong economic growth. People are not trying to leave 
those countries. The three countries that we are talking about 
have perennially had very slow growth rates. It is in part 
because their systems are so dominated by illegal groups, drug 
traffickers, human traffickers, and people with protectionist 
instincts. They do not want competition in the economy. So all 
of this conspires to avoid investment coming in, both domestic 
and foreign investment, to build and grow the economy. So that 
is one of the big pieces of the puzzle we have to deal with and 
I think would get at some of the factors that you are 
articulating, Senator.
    That is part of what we are trying to do, we say to the 
governments there, ``you need to get serious about this. You 
need to really do the reforms that are going to attract 
investment and make your economy strong and give your people a 
chance and a future in their own countries.'' We can train 
people and create capacity within their bureaucracy all day 
long. But if you do not have the political will to use that 
capacity and you allow what has traditionally gone on there to 
continue, that is the problem.
    So there was a signal there. You can debate whether that 
was the right way to do it or not. The Administration felt that 
it was and it is producing results. What we are looking for is 
how do we signal this? The people in these countries--you look 
in every past election--they are electing people who are 
pledging to take on these kinds of problems in the society. 
Then they get elected and they do not do it. That has been the 
syndrome for some time. So that is what we are really focused 
on. We really look forward to working with the committee and 
trying to figure out ways to incentivize that and convince 
people of it.
    Thank you.
    Senator Udall. I think cutting the aid cripples the 
countries. That is where I am coming from.
    The Chairman. Thank you, Senator.
    Mr. Kozak, thank you for that clear explanation based on 
your experience down there. Well said.
    Senator Cardin.
    Senator Cardin. Secretary Madison, I want to follow up a 
little bit on the questioning from Senator Menendez as it 
relates to these migration agreements. But I want to start 
first with what I observed when I was on the border.
    We had a congressional delegation that went to the McAllen 
area, the Rio Grande Valley, and we had a chance to talk with 
the border security people, as well as some of the migrants 
themselves.
    And the question I want to focus is on the safety of those 
who are trying to seek asylum in the United States when they 
reach our border and they are confronted with a situation where 
they want to present themselves here for asylum hearings, but 
they are told they have to wait in Mexico for a particular 
length of time until their number comes up when they can 
present their case. We have been told that that could be weeks. 
It could be months. And they are, therefore, expected to remain 
in Mexico pending their opportunity to present their claim.
    We were also told by our Border Patrol people that this 
town that they are in, in Mexico, is not a safe town. There are 
orders that our own personnel are not allowed to go to that 
city. And we have heard a lot of accounts about the abuses, 
particularly of women and children in these centers.
    Can you explain to me what the U.S. policy is in regards to 
those individuals coming to our border to protect their safety 
during a process to determine whether they are eligible for 
asylum?
    Ambassador Kozak. I cannot speak to the exact DHS----
    Senator Cardin. I was asking the Secretary, but you can 
answer.
    Ambassador Kozak. I am sorry, sir.
    Ms. Madison. So INL's role in Mexico--we are not dealing 
directly with the question of what is going on with asylum 
claims and other things.
    Senator Cardin. But you have set up a policy of getting a 
number, which can be weeks or months away, before they can 
present themselves for asylum.
    Ms. Madison. Again, I am not directly involved in the 
mechanics of the migration piece of it.
    What we do in Mexico is we work with the police, with the 
border officials, with the judicial system, and with the other 
instruments of the rule of law in Mexico that address security 
issues.
    Senator Cardin. Can you assure this committee today that 
those people who are waiting are being properly protected and 
they are not vulnerable to the type of circumstances we have 
heard of violence and rape and things like that?
    Ms. Madison. I am not in a position to assure the committee 
of what the circumstances are on the ground in a particular 
place in Mexico.
    Senator Cardin. Is there a reason why the U.S. policy would 
put people at that risk? That is, they cannot cross the border 
because you will not let them present the case until their 
number is called. Is there an explanation? Either one.
    Ambassador Kozak. I will add what I can on that, Senator, 
with the same caveats my colleague said we are not able to tell 
you about every place in Mexico.
    Senator Cardin. I have asked you about a specific place.
    Ambassador Kozak. What I can say is that our Bureau of 
Population, Migration, and Refugees has put--I think it is--in 
the order of $56 million into helping build shelters for people 
who are in that situation to stay in Mexico.
    Senator Cardin. I am not aware that we have put resources 
on this border----
    Ambassador Kozak. Well, that is my understanding.
    Senator Cardin. --because I have been told that our people 
cannot go there. So we are putting resources. We are putting 
resources where we cannot go?
    Ambassador Kozak. We often do that because we are working 
through----
    Senator Cardin. How do we know that it is accountable that 
they are actually safe in these shelters? How do you know that 
if you do not visit them?
    Ambassador Kozak. The shelters are set up by 
nongovernmental organizations, humanitarian organizations.
    Now, the reason people end up in that state--and you are, I 
think, talking about Tamaulipas and Nuevo Laredo--is the people 
who came into Tamaulipas and then came to our border point at 
Laredo, when they leave, they are going back where they came 
in. Now, they could go somewhere else in Mexico theoretically. 
But it is typical because----
    Senator Cardin. It is not theoretical. This is what they 
do. I heard numerous cases about this. They then try to find an 
illegal place to cross because it is not safe for them to stay 
in the town on the border because they will get raped, they 
will get abused. So they find an illegal place. And then they 
are picked up, and it causes the large numbers of people who 
have illegally crossed into this country. That is the safest 
way, and it is not a safe way because many of them--we have 
seen deaths where people try to cross illegally, et cetera. It 
is not a safe way to go.
    Ambassador Kozak. With that I would agree, Senator, 
completely. And this is why, as I was indicating in my 
testimony, that step one in trying to deal with a mass 
migration like this is to try to find measures that deter 
people from taking those risks in the first place and instead 
channel their concerns or their desires for economic 
improvement into safe and lawful ways of doing it. That is what 
we are trying to do with in-country refugee programs in the 
region.
    Senator Cardin. If they could be safe. And again, I am 
extremely concerned that we do not have eyes on the ground to 
see what is actually happening. We heard case after case after 
case of people being abused, particularly women and children 
waiting in the border towns. And now you are suggesting under 
these agreements that they will be safe in a country in which 
they are fleeing because they are not safe.
    Ambassador Kozak. Well, let me add a couple things. One, my 
colleague is clarifying to me that we do visit these shelters 
with our regional security officers. We recommend people not 
just go on their own. But when we have an official purpose 
there, we do it, and that is one of our purposes. So we are 
visiting and seeing what is going on in the shelters.
    Second, people are being abused and molested when they are 
trying to get there in the first place. We had the figures at 
30 some percent of all women in the migration flow have been 
sexually assaulted during that time.
    What we are trying to do is to say, ``do not do this. Do 
not come. Do not overwhelm our border facilities and so on. But 
if you do have legitimate asylum concerns, there are other ways 
to deal with that that are safe and lawful.'' My colleagues in 
the Refugee Bureau pointed out that for some time we have 
supported international entities operating in the three 
countries.
    Senator Cardin. If you will make available--since you do do 
inspections--could you make that information available to me 
and this committee where you have physically visited these 
sites and what you have learned in regards to the safety of the 
people there, recognizing that the person that you send in to 
make that has security with him or her because it is not safe 
for them to be there?
    Ambassador Kozak. Yes, certainly, sir.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thank you to the witnesses.
    I sort of want to follow up on the safety issue but from a 
different angle, the safe third country agreements. I know we 
have a safe third country agreement with Guatemala. I 
understand we have signed a protection cooperative agreement 
with El Salvador.
    You would agree with me that we should not enter into a 
safe third country agreement with a nation that we believe to 
be unsafe, should we?
    Ambassador Kozak. Well, Senator, first I think the name of 
the agreement--the one in Guatemala has a very long name. It 
was quoted in my testimony. But safe third country like Canada 
applies to people coming from anywhere and everywhere in the 
world. These are much more particularized is my understanding. 
So people who have come through Guatemala on their way would go 
back there.
    Senator Kaine. Do you think Guatemala is a safe country?
    Ambassador Kozak. The question is safe for whom.
    Senator Kaine. The Immigration and Naturalization Act says 
to be safe, it is a place where the migrant's life or freedom 
would not be threatened on account of race, religion, 
nationality, membership in a particular social group or 
political opinion and where the alien would have access to a 
full and fair procedure for determining a claim to asylum or 
equivalent temporary protection.
    Guatemala has one of the highest homicide rates in the 
world. Do you think Guatemala is a place where people's life 
and freedom are not threatened on account of race, religion, or 
political opinion?
    Ambassador Kozak. Yes, it is the latter point. It needs to 
be for one of those reasons that people are threatened.
    But what I would say just yesterday----
    Senator Kaine. Can I just say this? You would agree with 
me, would you not, the language should have a meaning, and we 
should not designate a country as a safe third country if in 
fact it is unsafe? Right? Can you agree with me on that 
proposition?
    Ambassador Kozak. I would agree we should not send someone 
who is liable to be persecuted on account of religion or 
political opinion or the other factors that you just read to a 
place where they would be persecuted for those reasons. That 
does not mean that a country that has a crime problem or 
something is unsafe in that respect if you are not one of the 
people who are likely to be----
    Senator Kaine. But if individuals have a claim that they 
are, then they should not be returned to that country. Correct?
    Ambassador Kozak. Correct. If they have a well-founded fair 
persecution in that country, for those reasons they should 
not----
    Senator Kaine. Yes. I just think----
    Ambassador Kozak. This is why we are working to try to help 
the Guatemalans develop their asylum capacity--to be sure that 
that happens. Just yesterday, OMB freed up another $47 million 
of aid so that we can provide assistance to Guatemala in 
building that capacity.
    Senator Kaine. Let me ask you this, Mr. Kozak. You 
indicated that you were defending the cut in aid, economic 
development and other aid, to the Northern Triangle countries 
because the governments were not doing enough in your view to 
take seriously these issues. I am kind of curious about that 
with respect to Honduras.
    The Honduran elections were fraught with controversy. And 
the OAS actually said the country should strike the elections 
and rerun the elections. Now, we have been trying to support 
the OAS, and when the OAS speaks strongly on something like 
that, that is tough for them to do. But they took a fairly 
strong position that the elections should be rerun to deal with 
the kind of corruption challenges you raised.
    The Trump administration actually ignored the OAS and 
recognized the legitimacy of the election of the current 
Honduran president. So having done that, now we are blaming 
them for not doing enough and cutting their aid. Why in your 
opinion did we not follow the OAS recommendation and recognize 
that corruption when the election occurred?
    Ambassador Kozak. Well, I am not sure of the connection 
between the two things.
    But with respect to the election----
    Senator Kaine. Well, I am just saying if we are blaming 
them for being corrupt and the OAS basically said the election 
shows they are corrupt, the U.S. please support us and call for 
new elections in Honduras, and instead we recognize the corrupt 
government and sort of vetoed what the OAS was proposing, why 
would we do that?
    Ambassador Kozak. I think, Senator, going back to my past 
job--and looking at the reports, there were election observers 
there from the EU and others. The consensus of the observers 
were that the election process, particularly the vote count, 
had been very badly handled. It undercut the appearance of 
transparency and so on. But on the other side, they said in the 
end in fact, the count was accurate and that the current 
president had narrowly been reelected.
    Senator Kaine. Do you know--did we consider the OAS 
position at all?
    Ambassador Kozak. I think we did do so. The OAS position 
was not that the vote was inaccurate but that there was so much 
of this controversy around it that it would be a good idea to 
rerun it again.
    Senator Kaine. My time has expired, but I just want to 
point out if the United States is basically having an 
opportunity to speak out against corruption and support the OAS 
when the OAS has said there should be new elections, and we 
choose to ignore the OAS and recognize the corrupt government, 
and then we blame the corrupt government for not doing enough 
and cut their aid, we are trying to have it both ways. And I 
think that is pretty clear.
    Thank you, Mr. Chair.
    The Chairman. Thank you.
    Senator Portman.
    Senator Portman. Thank you, Chairman Risch, and thanks for 
holding this committee hearing. And, Ranking Member Menendez, 
this is a critical part of our U.S. trade agenda right now, as 
well as critical for immigration policy and with regard to drug 
policy. So I am going to try to touch on all three quickly.
    One, on the trade front, is USMCA good or bad for Mexico? 
Mr. Kozak?
    Ambassador Kozak. I think the Mexican administration seems 
to have made the judgment it is good because they have adhered 
to it and moved it forward.
    Senator Portman. In fact, they are done with their 
processes there. We have come up with an agreement that meets a 
lot of the criteria that many in this body have called for over 
the years like enforceable labor standards, enforceable 
environmental standards, in fact, a 70 percent requirement of 
steel coming from North America for our cars, and a minimum 
wage in North America for auto workers. So my hope is we can 
get that done because it is good for Mexico. It is also good 
for us, and it is good for deepening our relationship and other 
issues.
    On the drug front, Secretary Madison, you spoke earlier 
about the flow of narcotics, and one thing you mentioned was 
the fentanyl coming now from the south. Fentanyl traditionally, 
as you know, has come through the mail system, mostly through 
the U.S. mail system, by the way, not the private carriers, 
directly from China. That poison comes right into our 
neighborhoods. But increasingly we are seeing it coming over 
the border.
    Can you give us some sense of that, what the numbers are, 
and where is it being made? We have heard different things. One 
is that there were a couple fentanyl illicit chemical companies 
in Mexico that were shut down. Others say it is still being 
made south of border. Some say it is coming in from China to 
Mexico, then being often converted into pill form and coming 
in. Tell us a little about that. Fentanyl being the deadliest 
of all of the drugs, the opioid that is killing the most people 
in my home State of Ohio.
    Ms. Madison. Yes, Senator. Obviously, we do a lot of work 
on the opioid issue writ large. And you are correct. It is a 
very pernicious business model, sold on the dark net, direct to 
consumer, paid for with anonymizing financial mechanisms, and 
then dropped into the mail and showing up in tiny and large 
towns all across this country with very deadly results.
    We are very concerned actually that, yes, we have begun to 
see production in Mexico and not on a huge, huge scale, but I 
do not think it takes a huge scale for it to be a problem. I 
think any production in Mexico should be of concern to us.
    I do think precursor chemicals still come from China. I do 
think some finished product comes from China. I have been out 
talking to some other governments about what they are seeing, 
and I think there is a fair amount of transshipment going on 
where it gets mailed from China to a third country and then 
kind of makes its way here. So I think the traffickers are just 
basically adjusting to the countermeasures that we put in 
place.
    With regard to Mexico specifically, we have been talking to 
the Government of Mexico about this particular issue and about 
the urgency and imperative for them to take it on. We have done 
a lot of work with them in their ports to get them up to our 
standards in their airports, in their maritime ports. We have 
done a lot of work with them on the border with nonintrusive 
inspection equipment, but more importantly, we have built a 
canine program there which is actually one of the more 
effective ways to tackle this. It is 500 dogs, and we did it in 
cooperation with the RCMP. So the Mexicans are doing some 
interdictions, but I think this production piece is of major 
concern.
    Yesterday, as I mentioned, I was up in New York, and one of 
the things I did was meet with the deputy commissioner from 
China's national narcotics commission. One of the things I 
explicitly talked to him about was the need for them to be 
working with Mexico and working with us on the precursor flow 
because there is a pattern of behavior that existed before 
synthetic opioids which is methamphetamine production in 
Mexico. And so the neural pathway is already there with the 
criminal organizations to send those precursor chemicals.
    We have also worked with Mexico to update their system for 
tracking precursor chemical imports and exports, which is 
another piece of this puzzle.
    Senator Portman. Have they done everything they can do in 
terms of scheduling the precursors? China, as you know, has 
made some changes in its law. It is not enough yet and they are 
not enforcing it the way we would like them to. But at least 
they are doing something by making it illegal. Has that 
happened in Mexico with regard to the precursors?
    Ms. Madison. I think there is more work to be done in 
Mexico. I am going to be there next week particularly to talk 
about this.
    Senator Portman. Let us know what we can do in that regard.
    You mentioned some of the measures that are being taken. 
One is one that came through this committee and others, which 
is the STOP Act, which is now law, which has helped to keep 
some of this flow coming through our mail system. And that is 
one reason you see the transshipments I believe because I think 
you are right. There is so much money in this.
    On the crystal meth, we used to have meth labs in Ohio. We 
do not anymore. And it is not for a good reason. It is because 
it is so cheap and so much more powerful now coming directly 
from Mexico, and the same cartels are selling it, I am told, on 
the streets of Columbus, Ohio. It is less expensive than 
marijuana for a similar dose. So I do think the crystal meth 
issue has become now a new epidemic in a sense in a lot of our 
communities, and Mexico is the source, I am told, of almost all 
that crystal meth. Is that accurate?
    Ms. Madison. They are definitely a source. I do not know if 
it is all, but they are definitely a source. And I think from 
our perspective, there is a lot more work to do on the drug 
front with Mexico, and that is part of the reason I am going 
down there. But we have a very practical conversation that we 
need to have about what comes next.
    The other thing I will just add is the challenge that we 
are going to have is as we go after the synthetic opioids and 
the fentanyls, what is going to happen is there is such agility 
in the synthetic drug market that they are going to continue to 
basically innovate, and we are going to have to sort adjust our 
strategies. And I think that is challenging because all these 
control mechanisms--they can quickly work their way out of 
them. And I think that is going to be one of the ongoing 
challenges that we have as we talk to governments about what 
else we can do.
    Senator Portman. We appreciate your service--my time has 
expired--and working directly with DHS because the Acting 
Secretary McAleenan is also, as you know, working on this 
issue. And again, the STOP Act is working. It is great. The 
INTERDICT Act is working. It is helpful. But you are right. 
There is so much money in it, and a slight change in the 
chemical compound and other adjustments in synthetic drugs is 
truly frightening. So thank you for your service there, and let 
us know what we can do to be more helpful.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Senator Merkley.
    Senator Merkley. Thank you very much.
    Mr. Kozak, you are familiar with the statute on third safe 
country, and you have made reference to it--or safe third 
country. And has it been used by any previous administration?
    Ambassador Kozak. Yes. I am trying to remember which 
administration did it. I believe it was during the Clinton 
administration. We reached a safe third country agreement with 
Canada.
    Senator Merkley. And that is the only safe third country 
agreement in our history. Is that not right?
    Ambassador Kozak. I believe that is correct.
    Senator Merkley. So that was in 2002 with Canada, one of 
the safest countries in the world.
    Now, we just signed a safe third country agreement with 
Guatemala. It has not been ratified by their Congress yet. That 
is yet to happen.
    Now, the U.S. State Department--their commentary on 
Guatemala is that it remains among the most dangerous in the 
world, endemic poverty, abundance of weapons, legacy of 
societal violence, presence of organized criminal gangs. Do you 
consider that a safe country to return people to?
    Ambassador Kozak. Senator, I believe, as we were discussing 
before, it is safe in the sense of that the individual would 
not be persecuted for his political opinion, race, religion and 
so on.
    Senator Merkley. That is not the question I asked you. Do 
you consider Guatemala to be safe, given the State Department's 
description, for people to be--who do not even come from 
Guatemala to be returned to?
    Ambassador Kozak. I would say it depends on who you are and 
where you are. I mean, Americans retire in Guatemala. I have 
friends who live there. I have been there myself and toured 
around.
    Senator Merkley. But you would concede there is a huge 
difference between an American with resources and a refugee who 
has no funds, no family in Guatemala, no friends in Guatemala. 
Are they not extraordinarily vulnerable to this epidemic of 
endemic crime that is being described by the State Department? 
Would you want your family member to return there with no 
friends or family or money? What I want to know is how 
reasonable this is.
    Ambassador Kozak. People who are involved in this mass 
migration that is occurring are not safe in any of the places 
that they are going. They are being victimized by traffickers. 
Particularly if you go to a country and you are doing it 
illegally, you are vulnerable.
    Senator Merkley. But you would agree it would be a lot 
safer if they were sent to Canada than sent to Guatemala.
    Ambassador Kozak. That is not the option.
    Senator Merkley. In 2018, the State Department report says, 
``Guatemala, widespread corruption, human trafficking, threats 
targeting the LGBTQ persons, use of force and compulsory child 
labor.'' Now, Tom Carper and I went down to Guatemala recently 
and met with all the social groups, met with the president. And 
they just emphasized how all of this is extraordinarily unsafe 
for ordinary people in Guatemala, people who do not have family 
connections to protect them, do not have resources. All of them 
were vulnerable. That is the point I want to make, that I do 
not think any American would want anyone they know who is 
without resources to be sent into that setting because they are 
just so vulnerable.
    Now, El Salvador--we learned on September 20th that this 
agreement had been signed with El Salvador. It allows us to 
send people who are not from El Salvador back to El Salvador. 
In fact, it actually excludes El Salvadorans. Are you aware of 
that? Are you aware that children are not accepted? Are you 
aware that under this agreement, children from Africa could be 
returned to El Salvador, who do not speak the language, who do 
not have any sort of supportive structure? Are you aware of the 
State Department's description of El Salvador? Forced 
disappearance by military personnel, torture by security 
forces, widespread government corruption, and violence against 
women, and gangs, children engaged in the ``worst forms of 
child labor.'' Is that a reasonable place to send children back 
who do not even come from El Salvador or do not even speak 
Spanish?
    Ambassador Kozak. Senator, first, the agreement with El 
Salvador has been signed, but it has not been put into force. 
The implementing agreements have not been done yet. What will 
happen to children is another matter.
    If I may get in, though, regarding all of these cases. In 
Guatemala, I just mentioned, we are about to provide $47 
million in assistance to help the system. So you are not just 
sending somebody back into the environment without any 
resources. The idea is they go back to a place where there are 
international organizations that can provide protection and 
resources to them as they pursue their asylum claims.
    Senator Merkley. My time is running out.
    Ambassador Kozak. The Department of Homeland Security is 
not planning on just sending anybody and everybody there. We 
understand the limited capacity they have now. But as capacity 
builds, they will be able to calibrate and modulate the return.
    Senator Merkley. I need to correct one point. We are 
sending people back without resources routinely. I have been 
across the border. I have visited with those returned back who 
have no resources, who have been in extraordinarily dangerous 
situations across the border in Mexico. This is both under the 
MPP and the metering program extraordinarily difficult 
situations. Just symbolic of that are Oscar and his daughter 
Valeria who were coming to the border to ask for asylum who 
were rejected, sent back into Mexico with no resources, no 
protection from gangs, felt the only safe way that they could 
proceed was to surrender themselves to CBP, swam the river. As 
we know from that photo in the New York Times, Oscar and his 
daughter died arm-in-arm down in the river. We did not send 
them back with resources. They did not have protection.
    And if you go to Tijuana and you go to the shelters there, 
people are terrified to leave the shelters. Are you even aware 
that the State Department does not allow our own personnel to 
travel between cities after dark or to solicit taxis on the 
street? This is a situation we are sending people back into. 
Whether it is under metering, whether it is under ``remain in 
Mexico,'' whether it is under a so-called safe third country 
when it is not a safe third country, those provisions in the 
law were designed for something like Canada, not a situation of 
this extraordinary danger, sending people into it without 
resources. It is an extraordinarily--in contravention of the 
entire vision of the Refugee Convention. And I hope you will 
deeply rethink being part of it.
    The Chairman. Thank you.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    You were not able to respond. I do not know if you would 
like to add anything to what the prior speaker just said.
    Ambassador Kozak. Yes, I think I would, Senator. Thank you 
for the opportunity.
    I would simply reaffirm again--there are safety and 
security problems in all of these countries. They are well 
documented in our human rights reports. That was my past job, 
making those reports.
    But the element that we have to take into account is that 
when we are encouraging or attracting a greater and greater 
flow of people that is putting people at great risk too. They 
are putting themselves in the hands of human smugglers who are 
physically abusing them, who are extorting them, and leaving 
them in trucks in the middle of the desert and all manner of 
things.
    So what we are trying to stop is the whole outflow, the 
uncontrolled mass outflow of people in very dangerous 
conditions. And then our systems get overwhelmed and that 
produces other problems as well. So what we are trying to say 
to people is do not do that in the first place. The way you 
accomplish that is to say ``if you try to come in that fashion 
that is unsafe and terrible for you''--this was our experience 
with Cuba years ago. People were drowning trying to get here. 
So we said, ``look, if we pick you up at sea, we are just going 
to put you back where you started from. However, if you go over 
to the U.S. Interest Section in Havana, you can apply for 
refugee status, and there is a safe, lawful way for you to get 
out.'' And that worked.
    So this is what we are trying to replicate here. We try to 
create opportunities for people to apply. They do have those 
opportunities, and some have taken advantage of it and have 
been able to get to the United States as refugees by applying 
in their own countries and being processed in San Jose, Costa 
Rica. But when you start this whole train of people going out 
with human smugglers and being subjected to abuses and so on, 
almost anything you do is not going to be very satisfactory.
    So I do not want to discount in any way the human suffering 
that you are describing, Senator. It is terrible. But it is 
terrible when they are on the way here as well as often when 
they go back. We have got to find a better way. That is what we 
are trying to do.
    Senator Barrasso. Thank you very much.
    Madam Secretary, I was reading an article. Guatemala joins 
ranks of cocaine producers as plantations and labs emerge. Can 
I ask you to just spend some time talking a little bit about 
the criminal groups, what is behind all of them in this effort? 
Because now Guatemala is becoming a producing nation.
    Ms. Madison. Yes. This is a major evolution to see this 
production shift up the isthmus because it has traditionally 
been a South American challenge. There was some indication. 
Last year, there were some plants found, but this is a much 
bigger thing. This is a series of plantations. It is pretty 
significant.
    I think the most important thing that happened immediately 
was that the Government of Guatemala acknowledged that they are 
now a producer and that they need to take this on. And we are 
already talking to them about what that looks like and how we 
can be of assistance. What this really shows is just the sort 
of pernicious nature of the criminal organizations that produce 
this stuff. As we put the pressure on them in South America, 
they are going to try and move their business model further 
north. And my guess is it has something to do with the 
effectiveness of some of the interdiction efforts that the 
Colombians and others are doing. They are just trying to get 
further up the food chain.
    We obviously do a lot of counternarcotics in Guatemala 
already. Canine programs, we work with their navy, and a whole 
range of things that we do with them. This is an evolution. We 
are talking to them. We got to figure out what we are going to 
do together or what they are going to do on their own while we 
work on these other pieces. But it is not a welcomed evolution 
for sure.
    Senator Barrasso. And, Secretary Kozak, in your testimony 
you stated, ``our message is clear. The governments of El 
Salvador, Guatemala, and Honduras must do more to strengthen 
institutions, root out corruption, fight impunity, which 
creates a permissive environment for transnational criminal 
organizations.'' So I completely agree. Widespread corruption, 
failed governance make it extremely difficult to combat the 
threats posed by these transnational gangs, organized criminal 
groups.
    In your assessment, are the governments of El Salvador and 
Guatemala and Honduras capable and willing to do those things?
    Ambassador Kozak. Well, on the capable side, this is what 
we have been working on for a couple of decades now. My 
colleague's bureau has done some really yeoman work on this. We 
have trained judges. We have trained prosecutors. We have 
trained investigators. We have trained accountants to look into 
financial crimes. I worked on the side of training independent 
journalists so that they could pursue corruption and the links 
between people and so on.
    So on the capacity side, they have developed a lot of 
capacity over time. But what is still absent, or at least not 
there to the degree we would like to see it, is the political 
will to use those capabilities. What you have in each of these 
countries is people who have profited from and continue to 
profit from having a system that is corrupt and non-transparent 
and where there is impunity. This is what I was saying earlier. 
It then contributes to a lack of growth. What investor wants to 
invest in a place where they know that if they start competing 
with somebody, that that privileged somebody can get the judge 
to rule in their favor or the tax authorities will take your 
money away or something. And so the result is really lousy 
growth rates in these countries. And that is one of the main 
factors that cause people to want to leave and look for 
economic opportunity here.
    So we are not the only ones demanding this. You look at 
election after election in the three countries. People who are 
promising to take that on are getting elected on that campaign 
promise. Unfortunately, they have not always been able to 
deliver. We are certainly hopeful. We are hearing the right 
things certainly from President Bukele in El Salvador who is 
riding a 90 percent popularity wave right now on those kinds of 
messages. President-elect Giammattei in Guatemala is making 
noises to that effect as well, that he wants to move on these 
things. So we are going to work whenever we see the will there. 
But we are trying to encourage people across the board in those 
countries to have that political will to take these factors on 
and end what has just been this chronic disease in the 
countries for years.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    You know, at the U.N. General Assembly yesterday, President 
Trump demonstrated that he clearly does not grasp or care about 
the root causes of this crisis. Mr. Kozak, do you agree that 
crop failures and food insecurity have contributed to increased 
migration from Central America to the United States?
    Ambassador Kozak. I would say that the overall economic 
conditions, of which the situation of farming in those 
countries is one of them, have contributed.
    Senator Markey. So, yes, food insecurity and crop failures 
have contributed.
    Ambassador Kozak. When they have occurred, of course.
    Senator Markey. Okay. So the Trump administration obviously 
knows that the answer is yes. An internal Customs and Border 
Protection report in September of 2018 showed a clear 
correlation between food insecurity and high migration from 
Guatemala. I also have in my possession documents from your 
Department warning specifically that cuts in USAID food 
security programs would lead to increased migration from 
Honduras.
    Can either of you explain why this Administration has cut 
food security funding knowing from your own agency's studies 
that doing so would increase migration from Central America by 
cruelly depriving people of a fighting chance at home?
    Ambassador Kozak. As I indicated in my testimony, Senator, 
the step on cutting assistance was more of a wakeup call than 
an analysis of the effect of each one of these programs. What 
is clear is we have had these programs going for years and 
years and years, and the migration numbers have gone up, up, 
up. So we were being programmatically successful on a lot of 
these things. We had all assessed that if we could make a dent 
in the murder rate, if we could make an improvement on food 
security, that that would reduce migration. But it was not 
having that effect.
    Now, there are so many variables. We could discuss all day 
what we think was the main factor or the secondary factor.
    So I do not think it was people sitting there saying that 
we are able to make a direct linkage between this and that. It 
was saying, look, we want to send a wakeup call to people and 
say ``you guys in the region need to start acting differently 
too. And then we can look at what we can do with our 
assistance.''
    I would add too what we are looking at heavily now is what 
can we do to encourage investment in the region, not just 
providing more and more foreign assistance? Can we use OPIC 
funding, for example? There is a big liquid natural gas project 
that is going into El Salvador now. I think it is like $350 
million or something. This is going to create jobs. It is going 
to create----
    Senator Markey. I just want to come back to your own 
Department's warning specifically that cuts in USAID food 
security programs would lead to increased migration from 
Honduras. That is not speculation or just speaking from the 
heart that these people really need food. That is an assessment 
made by the Department that it would have that consequence.
    And again, when you are a poor person, when you have hungry 
children in your family and you get the message that there are 
going to be cuts in the programs that are going to be providing 
for food security for your family, that is a powerful message 
to move and get out of here. This is not a good situation.
    So you might have just said that this is a signal that was 
sent, but the signal, of course, is going to the poorest people 
in their country that the food that they were relying upon is 
not going to be there any longer and that the United States 
Government is sending a signal that they are not going to be 
providing that help.
    So I just think that from our government's perspective, the 
problem is being exacerbated. It is clearly, again, a 
misunderstanding of the underlying problems here, which are 
poverty, which is hunger, which is, yes, injustice in these 
countries. But the way to help these people or to convince them 
to stay is not to cut their food security. That is at the core 
of all of these issues. And crop failures, of course, are also 
related to a global climate resiliency strategy. And the 
President, of course, at the U.N. is not even talking about 
climate at all as a potential cause of this problem.
    So are either of you aware of any proactive efforts by this 
Administration to assess climate change vulnerabilities to this 
region?
    Ms. Madison. I am not.
    Ambassador Kozak. Nor am I.
    Senator Markey. So according to a GAO report, ``the State 
Department stopped providing missions with guidance on whether 
and how to include climate change risks in their integrated 
country strategies.'' Why is that?
    Ms. Madison. I do not have any sense of why that decision 
was made, sir.
    Ambassador Kozak. Nor do I, but we will be happy to go back 
and----
    Senator Markey. Well, again, we know the reason why. It has 
to do with Exxon Mobil, with LNG companies, with others who 
actually control the agenda of the Trump administration. And of 
course, what we do need ultimately alternatively is a proactive 
and coordinated effort to assess it and to address the climate 
change vulnerabilities in each of these countries because that 
also is related to the crop failures. And unless and until we 
do that, a small handful of jobs that come from an LNG facility 
in any of these countries is going to be far outweighed by the 
harm which is being done by climate change to those countries 
and to their ability to be able to sustainably provide for 
their own people.
    So I am going to ask just to introduce into the record a 
letter which I am sending today to the President on these 
questions so that we at least try to elicit from the 
Administration answers to these critical questions.
    The Chairman. Thank you, Senator. Your letter will be 
admitted into the record.
    [The information referred to above can be found at the end 
of this document.]
    The Chairman. Mr. Kozak, I am impressed with your 
understanding of this, having worked with it for so long. And I 
think the American people have questions about this. This is a 
horrible situation. It is a human tragedy of mammoth 
proportions. I appreciate your statement about, look, every 
person is different, what motivates them to leave their country 
and go somewhere else.
    What would be your opinion--and I understand it varies from 
person to person. These people who come north--do they view us, 
the United States, people in the United States of America as 
having a responsibility to take care of them?
    Ambassador Kozak. Well, again, as you indicate, Mr. 
Chairman, everybody is different.
    The Chairman. What is your general feeling?
    Ambassador Kozak. In my sense, it is not so much that we 
have a responsibility to take care of them. It is that they are 
saying, ``I am not able to see a good future for myself or my 
family in my country because there are economic obstacles, 
there are lack of justice, lack of rule of law obstacles. I 
cannot aspire in my own country to say, gee, I could open up a 
store and compete with that guy down the street and gain more 
market share and employ my neighbors.'' They just cannot do any 
of that. So they look to us as saying, okay, here is a place 
where I can go and I can get a job, I can send money back to my 
family, and that kind of thing.
    And this is what we are trying to channel that energy into 
a better place. When you look at these agreements that we are 
in the process of doing now with the three countries, they are 
not just the asylum element that we have discussed here this 
morning. There is also agreements on the H2A visa program. So 
that we will be working with our Department of Labor and the 
departments of labor in those countries so that there will be 
more opportunity for people to come here under H2A visas. They 
do not have to bring their whole family with them and go 
through the perils that we have been discussing. They would be 
able to come lawfully, legally, get a decent job, take money 
back home, and then maybe that helps them grow their 
opportunity in their own country.
    So I think they look to us as a place of opportunity. That 
is why everybody wants to come. But not so much that the U.S. 
Government has a responsibility to provide them an income.
    The Chairman. And I guess that takes me to the next step, 
and that is, as you point out, there are countries down there 
that do not have this kind of problem. The problems are well 
documented as what happens when they hit the border of the 
United States. Why would they not stay in Mexico and say, 
``well, here is a place for opportunity.'' Or why would they 
not go to Belize? Or why would they not go to Panama? Is it 
just because it is so much better here, that things are so much 
better here that they are willing to take the risks to come 
here?
    Ambassador Kozak. I think that is some of it. It is also 
that there are a lot of familial relations now too. Look at the 
amounts of money that people have to pay. If you are somebody 
who is very impoverished in one of these countries and the 
coyotes are charging you $7,000--I think is about the average--
you do not have $7,000. If you did, you would not be wanting to 
leave. But you have got family in the United States who can 
provide $7,000. Probably not somebody in Mexico.
    I would say, though, that Costa Rica and Panama are also 
destinations for people who are fleeing problems in their own 
countries. The bulk of the people who fled Nicaragua are in 
Costa Rica. Panama has got a sizeable chunk of Venezuelans at 
this point. So those countries are attractive to people.
    The Chairman. We do not hear much about that.
    Ambassador Kozak. Yes. They just quietly take care of it, 
and they are doing a good job. We are trying to be helpful with 
them.
    One thing I did not think I got on the record here, 
Chairman that might be useful. Aside from all these agreements 
that we are doing recently, we have had a program for some time 
in the three countries where the U.N. High Commissioner for 
Refugees, the International Organization for Migration, working 
with funding from the United States amongst other countries, 
has had in-country refugee programs. So let us say you are an 
investigative journalist in Guatemala who is writing stories 
about the connections between drug dealers and bribing local 
officials or judges or something and you get yourself into a 
position where you are going to be persecuted for that reason. 
You go to them and they say, ``yes, you have got a--it sounds 
like a good claim.'' They will help you go over to Costa Rica 
where there is a regional processing center. And a lot of those 
people are ending up in the United States, in Europe, in other 
countries in the hemisphere. So there is a lawful way to deal 
with that kind of problem as well.
    We are trying to enhance that and deter the everybody get 
in trucks and vans and get left out in the middle of the desert 
or molested, the way that the alien smugglers are doing it. So 
I think that is what we are trying to signal is there is a 
right way to do this and a wrong way. Let us put our emphasis 
on the right way.
    The Chairman. Thanks so much for your insight on this. I 
appreciate it. It has been helpful.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    First, I would like to ask unanimous consent that a 
statement for the record be included by Congresswoman Veronica 
Escobar of El Paso and a series of documents, letters that have 
been sent by myself to the State on U.S.-Mexico agreements and 
State's non-responses be included for the record.
    The Chairman. They will be included.
    [The information referred to above can be found at the end 
of this document.]
    Senator Menendez. Mr. Secretary, I was listening to the 
conversation between you and the chairman, and I appreciate the 
context in which you answered the last question the chairman 
asked, is there an expectation that we have to take care of 
them. So when Vietnamese refugees came here, they did not think 
we had to care of them. Right? When Cuban refugees came to the 
United States, they did not think we had to take care of them. 
Right? When Venezuelans fled under Chavismo, we did not feel 
that we had to take care of them. When Nicaraguans went during 
that period of time--so it is fair to say that these people 
fled either incredible oppression or in some cases horrific 
violence. Is that not a fair statement?
    Ambassador Kozak. The people from the countries you just 
mentioned, Senator? Yes, absolutely.
    Senator Menendez. And so they did not think we had to take 
care of them, but they knew this country was a country that was 
a beacon of light to the rest of the world as it relates to 
giving refuge when it is appropriate and the law is met to 
taking care of some of these challenges. So I think we have to 
think about that in that context as well.
    Let me ask Secretary Madison. In March, the President cut 
funds appropriated by Congress to address root causes of 
migration from Central America. And while some DHS and DOJ 
programs will receive continued funding, these cuts terminated 
a wide range of programs designed to advance our national 
security.
    Secretary Madison, INL sent us a list of all the programs 
your bureau had to cut due to the President's decision. The 
list included funds for police training, improving police 
forensics and intelligence, preventing gang recruitment, and 
combating the sexual exploitation of children, all initiatives 
that I think we could agree would stabilize Central America and 
slow migration. Is that the case?
    Ms. Madison. Senator, those are programs that we will have 
to suspend or have or will wind down. It depends on what the 
pipeline looks like. And I think what that reflects is, as my 
colleague has noted, a decision by the President that his 
highest priority was the migration numbers and that while we 
would preserve some of the specialized programs that we are 
doing in Central America to work on counternarcotics and port 
issues and TCOs, that in fact he was going to send a message to 
these countries----
    Senator Menendez. Let us talk about sending messages. Are 
you telling this committee that there are not other countries 
in the world rooted in deep corruption that we do not continue 
to have programs of your Department? And I would be happy to 
cite you some if you do not think there are any.
    Ms. Madison. Senator, we are not talking about the rest of 
the world. We are talking about----
    Senator Menendez. Well, we are. We are talking about 
comparisons, Madam Secretary. If you and the Secretary are 
going to say that the President's purpose is to send a message, 
well, I can assure you there is corruption in Afghanistan. I 
can assure you that there is corruption in a series of nations 
in which we are continuing to engage in programs from your part 
of the State Department. So let us not say we are sending a 
message in that regard because then we would be sending a 
global message. Right?
    Ms. Madison. Senator, this is not a message about 
corruption. This is a message from our President about the 
priority he places on these countries taking aggressive action 
to address the outflow of their citizens and the crisis that we 
have on our southern border. And again, I think it is a time-
honored tradition in this town to use foreign assistance as 
leverage. In fact, I think if you were to look at the statutes 
on foreign assistance, you would find them replete with 
conditions and cuts.
    Senator Menendez. You do not have to quibble. Do not talk 
to me about corruption as the reason that you are stopping 
funds because that is how you send them a message to get their 
act together when in fact there are countries that we send 
hundreds of millions of dollars that are in fact deeply rooted 
in corruption and have serious issues for which we are working 
in the hopes that they will change. Right? But when you cut 
funding combating the sexual exploitation of children, when you 
cut funding preventing gang recruitment, I do not know how that 
helps us at the end of day create greater stability in Central 
America and sends a message.
    So can you confirm, Secretary Madison, that the President's 
cuts force you to reprogram, for whatever the reasoning that 
you want to justify, $90 million from Central America that 
included the initiatives I listed?
    Ms. Madison. We were, in fact, directed to reprogram 
funding.
    Senator Menendez. Okay. Is your assessment that these 
programs that INL was funding under your leadership were 
effective and were helping to address violence and improve the 
rule of law in the region?
    Ms. Madison. Senator, these programs, while they 
programmatically can be effective, as my colleague has noted, 
our Secretary testified on the Hill and made the absolutely 
critical point for this Administration, which is the only 
metric that matters is the question of what the migration 
situation looks like on the southern border. So we were asked 
to reprogram----
    Senator Menendez. I did not ask you about migration. Listen 
to my question. You are a former staffer of this committee. You 
understand very well, and you have adopted the State 
Department's ability to deviate from the question.
    My question is, is it your assessment that these programs 
that INL was funding under your leadership were effective and 
were helping to address violence and improve the rule of law in 
the region? Yes or no.
    Ms. Madison. Senator, again, I believe that these programs 
have been programmatically effective, but the issue is the pace 
with which it is----
    Senator Menendez. I did not ask you about migration. I 
asked you----
    Ms. Madison. Sir.
    Senator Menendez. --whether the programs were effective. 
Yes or no.
    Ms. Madison. Sir, I actually have answered that question. I 
have said I believe----
    Senator Menendez. Okay. So the answer is yes.
    Ms. Madison. --that these programs can be programmatically 
effective. But that is a different question than whether or not 
all these----
    Senator Menendez. You do not get to ask the questions. You 
get to answer them.
    Ms. Madison. Sir.
    Senator Menendez. It is a different question as to whether 
you want to use this for migration. It is a different issue. I 
want to know whether the programs were effective. The answer is 
yes. And it must be yes because I am sure you can confirm to 
the committee that the State Department, the Secretary sent 
Congress nine different reports that acknowledge progress was 
made and certified that benchmarks were being met. Is that not 
true? On these programs.
    Ms. Madison. Sir, I cannot confirm the number. I feel 
certain that certifications have been sent.
    Senator Menendez. Secretary Kozak, can you confirm the 
number?
    Ambassador Kozak. I cannot confirm the number, but it 
sounds right.
    Senator Menendez. So I would be happy to----
    Ambassador Kozak. I would not question the number you have 
given.
    Senator Menendez. --produce some documents for you that we 
have----
    Ambassador Kozak. I would not question the number.
    Senator Menendez. There are nine different reports that the 
Secretary of State acknowledged progress was being made and 
certified to the Congress that benchmarks were being met.
    So given that progress was being made, as determined by the 
Secretary of State, can you explain to us the impact on our 
national security and national interests when we ultimately end 
those programs for which we were making progress and certifying 
benchmarks?
    Ms. Madison. Not all programs have been severed. The 
programs that we continue to fund and to support are programs 
that are focused on the highest priorities of counternarcotics, 
transnational criminal organizations, and borders and 
immigration. The issue, which I will try again to put on the 
table, is that these programs are not moving the needle fast 
enough to address the situation on our southern border. And 
that is the benchmark and the measure our President has put on 
the table.
    Senator Menendez. You are saying that the only reason we 
did these programs was, in fact, to stop migration to the 
southern border? That is why we did these programs. No other 
reason.
    Ms. Madison. Senator, I am not saying that. What I am 
saying is that is the measure that matters to the President.
    Senator Menendez. You are trying to conflate something, and 
I am just not going to permit you to conflate it. The reality 
is that these programs were meant to create institutional 
capacity building in the very countries that we say do not have 
the capacity. And, yes, I am all with you on getting 
governments to have the will to do what is necessary, but to 
believe that those governments on their own with the 
institutional incapacity that exists, with the lack of 
resources that exists could actually make this happen, to think 
that cutting funds for ultimately hurting, you know, on the 
effort to combat the sexual exploitation of children, come on. 
That is just irrational. Irrational.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I find your testimony completely rational, and I think you 
are excellent spokespersons for what is happening there. I am 
going to give you the last opportunity, both of you.
    First of all, I want to express appreciation of the 
committee, of the American people for what you do under very 
difficult circumstances for a most tragic situation that 
everyone would like to make different. And I know you are 
working in good faith to do that.
    So, first, starting with you, Ms. Madison, could you give 
us a closing statement, anything you want to add to the 
dialogue that has taken place in the committee today.
    Ms. Madison. Thank you, Mr. Chairman. I appreciate it.
    Obviously, I chose to lead the Bureau of International 
Narcotics and Law Enforcement Affairs for a reason, after 
having been the oversight person on this committee who worked 
on it many years ago.
    I do believe that these programs are beginning to help 
these countries move along the spectrum. It is obviously not 
working on a sort of meta-level, and I think we are going to 
look at them as we are in this period of suspension and figure 
out what we do differently.
    In the meantime, I would say that we are still focused on 
the priorities of counternarcotics and working with border 
officials and working on transnational organized crime, which 
is absolutely essential to the security of this country. And it 
is a national security priority for us to do that, and we 
preserve those efforts.
    And while I fully appreciate the disagreements that exist 
regarding the larger goal of this Administration and the use of 
these assistance dollars, I want to assure you that I take very 
seriously my stewardship of these resources in securing results 
for the American people.
    Thank you.
    The Chairman. Thank you, Ms. Madison. Well said.
    Mr. Kozak?
    Ambassador Kozak. Well, thank you, Mr. Chairman, and thank 
you, Ranking Member Menendez, and your colleagues for giving us 
the opportunity here today.
    I would emphasize that despite the fact that we clearly do 
not agree on a lot of methodology, I think there is agreement 
on the goal. I think all of us would like to see safe, orderly 
migration from the region. We would like to see the region 
developed to the extent that people are not trying to leave in 
droves. I think there is a lot of work to be done there. There 
is no magic bullet to do this.
    The Administration has taken an approach that we are trying 
to work and we think is being effective. At the same time, we 
are very open to other ideas. There may be other things that we 
can try. We would look forward to working very closely with the 
committee and trying to debate these things back and forth and 
see if there are things that we can do together that would stem 
this tide of illegal migration and get things back on a track 
where people are safe and can start to have a real future in 
their own countries.
    So thank you again for the opportunity.
    The Chairman. Thank you so much. And, again, thank you both 
for your service.
    For the information of members, the record will remain open 
until the close of business on Friday. We ask witnesses to 
respond as promptly as possible. Your responses will also be 
made a part of the record.
    With the thanks of the committee and the thanks of American 
people, this committee is adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Assistant Secretary Kirsten D. Madison and Acting 
Assistant Secretary Michael G. Kozak to Questions Submitted by Senator 
                            Robert Menendez

    Question. Has Secretary of State Pompeo formulated a diplomatic 
strategy to ensure that Mexico pays the costs related to the 
construction of a border wall between the United States and Mexico?

    Answer. Border infrastructure is one part of a comprehensive 
approach to improve security at our southern border. The United States 
and Mexico continue to cooperate closely to manage and protect our 
nearly 2,000-mile border and to combat shared threats posed by 
transnational criminal organizations, including human smugglers. Mexico 
like the United States has devoted major resources to combatting the 
mass migration that affects both countries and endangers the migrants. 
We appreciate Mexico's invaluable contribution to resolving the overall 
problem.

    Question. What steps has Secretary of State Pompeo taken to ensure 
that Mexico pays the costs related to the construction of a border wall 
between the United States and Mexico?

    Answer. Border infrastructure is one part of a comprehensive 
approach to improve security at our southern border. The United States 
and Mexico continue to cooperate closely to manage and protect our 
nearly 2,000-mile border and to combat shared threats posed by 
transnational criminal organizations, including human smugglers. Mexico 
like the United States has devoted major resources to combatting the 
mass migration that affects both countries and endangers the migrants. 
We appreciate Mexico's invaluable contribution to resolving the overall 
problem.

    Question. Has Secretary of State Pompeo spoken with the current or 
former government of Mexico to reiterate President Trump's statement 
that Mexico will pay the costs related to the construction of a border 
wall between the United States and Mexico? If so, what message was 
conveyed by the Secretary and how did the Government of Mexico respond?

    Answer. Border infrastructure is one part of a comprehensive 
approach to improve security at our southern border. The United States 
and Mexico continue to cooperate closely to manage and protect our 
nearly 2,000-mile border and to combat shared threats posed by 
transnational criminal organizations, including human smugglers. Mexico 
like the United States has devoted major resources to combatting the 
mass migration that affects both countries and endangers the migrants. 
We appreciate Mexico's invaluable contribution to resolving the overall 
problem.

    Question. Did Secretary of State Tillerson formulate a diplomatic 
strategy to ensure that Mexico pays the costs related to the 
construction of a border wall between the United States and Mexico?

    Answer. The prior Secretary worked to develop a common strategy 
with Mexico to address the common problem of uncontrolled mass 
migration that affects both countries and endangers and victimizes the 
migrants.

    Question. What steps did Secretary of State Tillerson take to 
ensure that Mexico pays the costs related to the construction of a 
border wall between the United States and Mexico?

    Answer. The prior Secretary worked to develop a common strategy 
with Mexico to address the common problem of uncontrolled mass 
migration that affects both countries and endangers and victimizes the 
migrants.

    Question. Has Secretary of State Tillerson spoken with the current 
or former government of Mexico to reiterate President Trump's statement 
that Mexico will pay the costs related to the construction of a border 
wall between the United States and Mexico? If so, what message was 
conveyed by the Secretary and how did the Government of Mexico respond?

    Answer. The former Secretary conveyed our commitment to working 
with Mexico to combat human trafficking, transnational crime, and the 
movement of drugs and illicit goods across our shared border. Mexico is 
an important partner in combatting mass migration, and we cooperate to 
improve border controls and stop human smuggling networks that 
victimize the migrants.

    Question. Please provide a list of all agreements, instruments, and 
arrangements, binding or non-binding; annexes; appendices; 
implementation plans, guidance and other related documents that the 
Trump administration has signed, agreed to, or otherwise joined with 
Mexico and the Central American governments so that we can finally get 
a clear picture of what this Administration is doing in the name of the 
American people? Please ensure that the list includes agreements signed 
by the Department of Homeland Security, Department of Justice, 
Department of Defense, and all of their respective agencies and 
instrumentalities. Please ensure that the list includes the title of 
the agreement; the date it was signed; the entities and officials that 
signed it; and whether the agreement includes any supplemental 
agreements, annexes or implementation plans (or other supporting 
documents).

    Answer. The Department has provided all relevant agreements under 
the Case-Zablocki Act and will continue to transmit agreements 
consistent with the requirements of the Act moving forward. This 
includes the Joint Declaration and Supplementary Agreement the 
Department transmitted to the Congress pursuant to the Case Act on 
August 6, 2019.

    Question. Please provide a copy of all of these agreements, 
arrangements, instruments, supplemental agreements, annexes, appendices 
and implementation plans.

    Answer. The Department has provided all relevant agreements under 
the Case-Zablocki Act and will continue to transmit agreements 
consistent with the requirements of the Act moving forward. This 
includes the Joint Declaration and Supplementary Agreement the 
Department transmitted to the Congress pursuant to the Case Act on 
August 6, 2019. With respect to the Department's reporting practice 
with regard to the Case Act, my understanding is that the Department 
follows the criteria set out at 22 CFR 181.2 in deciding whether any 
undertaking, oral agreement, document, or set of documents, including 
an exchange of notes or of correspondence, constitutes an international 
agreement within the meaning of the Case Act, and that it will continue 
to do so. These criteria include the identity and intention of the 
parties; the significance of the arrangement; specificity, including 
objective criteria for determining enforceability; the necessity for 
two or more parties; and the form of the instrument.

    Question. What agreements has the United States Government signed 
with the Government of El Salvador since January 1, 2017. As the State 
Department is the lead agency on U.S. diplomacy with foreign 
governments, please ensure that the list includes agreements signed by 
the Department of Homeland Security, Department of Justice, Department 
of Defense, and all of their respective agencies and instrumentalities. 
Please ensure that the list includes the title of the agreement; the 
date it was signed; the entities and officials that signed it; and 
whether the agreement includes any supplemental agreements, annexes or 
implementation plans (or other supporting documents). Please provide a 
copy of all of these agreements, supplemental agreements, annexes, and 
implementation plans.

    Answer. The Asylum Cooperation Agreements with El Salvador has not 
yet entered into force. Should it enter into force in the future, it 
will be transmitted to Congress within 60 days of the date of their 
entry into force. Pursuant to 1 U.S.C.  112b, ``the Secretary of State 
shall transmit to the Congress the text of any international agreement 
(including the text of any oral international agreement, which 
agreement shall be reduced to writing), other than a treaty, to which 
the United States is a party as soon as practicable after such 
agreement has entered into force with respect to the United States but 
in no event later than sixty days thereafter.''

    Question. What agreements has the United States Government signed 
with the Government of Guatemala since January 1, 2017. As the State 
Department is the lead agency on U.S. diplomacy with foreign 
governments, please ensure that the list includes agreements signed by 
the Department of Homeland Security, Department of Justice, Department 
of Defense, and all of their respective agencies and instrumentalities. 
Please ensure that the list includes the title of the agreement; the 
date it was signed; the entities and officials that signed it; and 
whether the agreement includes any supplemental agreements, annexes or 
implementation plans (or other supporting documents). Please provide a 
copy of all of these agreements, supplemental agreements, annexes, and 
implementation plans.

    Answer. The Asylum Cooperation Agreement with Guatemala entered 
into force on November 15, 2019, and will be transmitted to Congress 
within 60 days of that date. Pursuant to 1 U.S.C.  112b, ``the 
Secretary of State shall transmit to the Congress the text of any 
international agreement (including the text of any oral international 
agreement, which agreement shall be reduced to writing), other than a 
treaty, to which the United States is a party as soon as practicable 
after such agreement has entered into force with respect to the United 
States but in no event later than sixty days thereafter.'' In addition, 
the Department of Homeland Security and Guatemala's Ministry of 
Government signed a Memorandum of Cooperation (MOC) on May 27, 2019. 
This MOC describes areas in which the two governments commit to work in 
good faith to enhance cooperation on border security, training, joint 
actions to counter illicit flows of people, drugs, and money, and 
improvements in the identification, administration, and detention of 
illegal immigrants. For this MOC with Guatemala, I would refer you to 
the Department of Homeland Security for further information.

    Question. What agreements has the United States Government signed 
with the Government of Honduras since January 1, 2017. As the State 
Department is the lead agency on U.S. diplomacy with foreign 
governments, please ensure that the list includes agreements signed by 
the Department of Homeland Security, Department of Justice, Department 
of Defense, and all of their respective agencies and instrumentalities. 
Please ensure that the list includes the title of the agreement; the 
date it was signed; the entities and officials that signed it; and 
whether the agreement includes any supplemental agreements, annexes or 
implementation plans (or other supporting documents). Please provide a 
copy of all of these agreements, supplemental agreements, annexes, and 
implementation plans.

    Answer. The Asylum Cooperation Agreement with Honduras has not 
entered into force. Should it enter into force in the future, it will 
be transmitted to Congress within 60 days of the date of their entry 
into force. Pursuant to 1 U.S.C.  112b, ``the Secretary of State shall 
transmit to the Congress the text of any international agreement 
(including the text of any oral international agreement, which 
agreement shall be reduced to writing), other than a treaty, to which 
the United States is a party as soon as practicable after such 
agreement has entered into force with respect to the United States but 
in no event later than sixty days thereafter.''

    Question. What was the strategic reason and rationale for 
suspending and reprogramming U.S. foreign assistance to El Salvador?

    Answer. The President directed the Secretary and the Department to 
reprogram certain assistance that would have benefitted El Salvador. In 
addition, the Department further decided to pause some Fiscal Year 2017 
foreign assistance funds until the Department is satisfied the 
Government of El Salvador, is taking sufficient action to reduce the 
number of migrants coming to the U.S. border. The Department and USAID 
will revisit the use of these funds no later than April 2020.

    Question. What evaluation did the State Department conduct about 
the repercussions to U.S. national interests and national security of 
suspending and reprogramming U.S. foreign assistance to El Salvador? 
When did such an evaluation start and when did it finish? What were the 
findings of any such evaluation?

    Answer. In April 2019, the Secretary initiated a review of all 
Department of State and United States Agency for International 
Development (USAID) Fiscal Year 2017 foreign assistance funding for 
current agreements and awards for El Salvador. This complex review 
encompassed $617 million in planned assistance spanning 707 individual 
programs and activities for the northern triangle countries. The review 
focused on costs that would be incurred by shutting down existing 
activities. As a result of the review, the Secretary decided certain 
Fiscal Year 2017 funds, including those previously awarded via grants 
and contracts to implementing partners, would continue. These 
activities total approximately $450 million.

    Question. What specific steps does the United States want El 
Salvador to take prior to obligating new U.S. foreign assistance for El 
Salvador? Has El Salvador taken any such steps? What is the potential 
timeline for reinstating U.S. foreign assistance to El Salvador?

    Answer. We expect the government of El Salvador to take action to 
stem irregular migration to the United States, such as combatting 
migrant smuggling and human trafficking rings, enhancing border 
security, dissuading its citizens from illegally immigrating, and 
receiving and reintegrating its returned citizens.
    El Salvador has taken important steps in this direction in recent 
weeks, including signing an Asylum Cooperation Agreement and agreeing 
to further discussions on additional measures. Providing appropriate 
assistance to help our counterparts carry out these measures will be 
part of our strategy and appropriate Congressional consultations and 
notifications will occur as the strategy is implemented.

    Question. Is the Government of El Salvador speaking with any other 
foreign donors or investors--including, but not limited to the 
Government of China--to offset the impact of the U.S. cuts during this 
period in which we have suspended foreign assistance?

    Answer. No, not to our knowledge. We actively engage governments on 
both the risks posed by problematic Chinese assistance as well as the 
opportunities presented by working with democratic development partners 
that bring international quality standards, transparency, and respect 
for human rights. These alternatives include Japan, South Korea, 
Taiwan, and multilateral development finance institutions such as the 
Inter-American Development Bank as well as the U.S. Increasing 
engagement by China and Russia in the region poses a nascent but 
serious challenge to U.S. national security interests.

    Question. What was the strategic reason and rationale for 
suspending and reprogramming U.S. foreign assistance to Guatemala?

    Answer. The President directed the Secretary and the Department to 
reprogram certain assistance that would have benefitted Guatemala. In 
addition, the Department decided to pause some Fiscal Year 2017 foreign 
assistance funds until the Department is satisfied the Government of 
Guatemala, is taking sufficient action to reduce the number of migrants 
coming to the U.S. border. The Department and USAID will revisit the 
use of these funds no later than April 2020.

    Question. What evaluation did the State Department conduct about 
the repercussions to U.S. national interests and national security of 
suspending and reprogramming U.S. foreign assistance to Guatemala? When 
did such an evaluation start and when did it finish? What were the 
findings of any such evaluation?

    Answer. In April 2019, the Secretary initiated a review of all 
Department of State and United States Agency for International 
Development (USAID) Fiscal Year 2017 foreign assistance funding for 
current agreements and awards for Guatemala. This complex review 
encompassed $617 million in planned assistance spanning 707 individual 
programs and activities for the Northern Triangle. The review focused 
on costs that would be incurred by shutting down existing activities. 
As a result of the review, the Secretary decided certain Fiscal Year 
2017 funds, including those previously awarded via grants and contracts 
to implementing partners, would continue. These activities total 
approximately $450 million.

    Question. What specific steps does the United States want Guatemala 
to take prior to obligating new U.S. foreign assistance for Guatemala? 
Has Guatemala taken any such steps? What is the potential timeline for 
reinstating U.S. foreign assistance to Guatemala?

    Answer. We expect the government of Guatemala to take action to 
stem irregular migration to the United States, such as combatting 
migrant smuggling and human trafficking rings, enhancing border 
security, dissuading its citizens from illegally immigrating, and 
receiving and reintegrating its returned citizens.
    Guatemala has taken important steps in this direction in recent 
weeks, including signing an H2A agreement concerning temporary 
agricultural workers; an Asylum Cooperation Agreement; a border 
security arrangement; and a biometrics data sharing arrangement. 
Providing appropriate assistance to help our counterparts carry out 
these measures will be part of our strategy and appropriate 
Congressional consultations and notifications will occur as the 
strategy is implemented.

    Question. Is the Government of Guatemala speaking with any other 
foreign governments--including, but not limited to the Government of 
China--to offset the impact of the U.S. cuts during this period in 
which we have suspended foreign assistance?

    Answer. No, not to our knowledge. We actively engage governments on 
both the risks posed by problematic Chinese assistance as well as the 
opportunities presented by working with democratic development partners 
that bring international quality standards, transparency, and respect 
for human rights. These alternatives include Japan, South Korea, 
Taiwan, and multilateral development finance institutions such as the 
Inter-American Development Bank as well as the U.S. Increasing 
engagement by China and Russia in the region poses a nascent but 
serious challenge to U.S. national security interests.

    Question. What was the strategic reason and rationale for 
suspending and reprogramming U.S. foreign assistance to Honduras?

    Answer. The President directed the Secretary and the Department to 
reprogram certain assistance that would have benefitted Honduras. In 
addition, the Department decided to pause some Fiscal Year 2017 foreign 
assistance funds until the Department is satisfied the Government of 
Honduras is taking sufficient action to reduce the number of migrants 
coming to the U.S. border. The Department and USAID will revisit the 
use of these funds no later than April 2020.

    Question. What evaluation did the State Department conduct about 
the repercussions to U.S. national interests and national security of 
suspending and reprogramming U.S. foreign assistance to Honduras? When 
did such an evaluation start and when did it finish? What were the 
findings of any such evaluation?

    Answer. In April 2019, the Secretary initiated a review of all 
Department of State and United States Agency for International 
Development (USAID) Fiscal Year 2017 foreign assistance funding in 
Honduras. This complex review encompassed $617 million in planned 
assistance spanning 707 individual programs and activities for the 
Northern Triangle countries. The Review focused on costs that would be 
incurred by shutting down existing activities. As a result of the 
review, the Secretary decided certain Fiscal Year 2017 funds, including 
those previously awarded via grants and contracts to implementing 
partners, would continue. These activities total approximately $450 
million.

    Question. What specific steps does the United States want Honduras 
to take prior to obligating new U.S. foreign assistance for Honduras? 
Has Honduras taken any such steps? What is the potential timeline for 
reinstating U.S. foreign assistance to Honduras?

    Answer. We expect the government of Honduras to take action to stem 
migration to the United States, such as combatting migrant smuggling 
and human trafficking rings, enhancing border security, dissuading its 
citizens from illegally migrating, and receiving and reintegrating its 
returned citizens.
    Honduras has taken important steps in this direction in recent 
weeks, including signing an Asylum Cooperation Agreement and agreeing 
to further discussions on additional measures. Providing appropriate 
assistance to help our counterparts carry out these measures will be 
part of our strategy and appropriate Congressional consultations and 
notifications will occur as the strategy is implemented.

    Question. Is the Government of Honduras speaking with any other 
foreign governments--including, but not limited to the Government of 
China--to offset the impact of the U.S. cuts during this period in 
which we have suspended foreign assistance?

    Answer. No, not to our knowledge. We actively engage governments on 
both the risks posed by problematic Chinese assistance as well as the 
opportunities presented by working with democratic development partners 
that bring international quality standards, transparency, and respect 
for human rights. These alternatives include Japan, South Korea, 
Taiwan, and multilateral development finance institutions such as the 
Inter-American Development Bank as well as the U.S. Increasing 
engagement by China and Russia in the region poses a nascent but 
serious challenge to U.S. national security interests.

    Question. The Department of Homeland Security recently signed 
asylum related agreements with the governments of El Salvador, 
Guatemala, and Honduras. Did DHS inform the State Department of its 
intention to sign these agreements, prior to signing them? If so, when?

    Answer. The Secretary of Homeland Security sought and received 
authority from the Secretary of State before signing each agreement.

    Question. Did the State Department provide any assessments or 
evaluations to DHS regarding the capacity of the Salvadoran, 
Guatemalan, and Honduras migration and asylum systems prior to DHS 
signing the agreements? If so, what was the content of these 
assessments or evaluations? How and by who were such assessments and 
evaluations transmitted to DHS?

    Answer. I cannot discuss internal and interagency deliberations, 
nor can I discuss specific documents or communications that are 
involved in such deliberations.

    Question. Does the State Department currently assess that the 
Government of El Salvador has the capacity to receive by asylum seekers 
that reached the U.S. border? If so, how many asylum seekers does the 
State Department assess that the Government of El Salvador is capable 
of receiving back on a monthly basis?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that these countries meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted and that the individual will have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection.

    Question. What is the name of the Salvadoran asylum agency? What is 
its annual budget? How many employees does it have?

    Answer. The Commission for Refugee Status (CODER) is responsible 
for refugee status determinations for the Salvadoran government and is 
staffed by employees of the Ministry of Foreign Affairs. CODER does not 
have its own budget.

    Question. What is the name of the Salvadoran migration agency? What 
is its annual budget? How many employees does it have?

    Answer. The Direccion General de Migracion y Extranjeria is the 
organization within the Government of El Salvador responsible for 
migration issues.
    Pursuant to this question, the Department of State is seeking 
specific information regarding its budget and staffing but has not 
received a response at this time.

    Question. Does the State Department currently assess that the 
Government of Guatemala has the capacity to receive by asylum seekers 
that reached the U.S. border? If so, how many asylum seekers does the 
State Department assess that the Government of Guatemala is capable of 
receiving back on a monthly basis?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted and that the individual will have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection.

    Question. What is the name of the Guatemalan asylum agency? What is 
its annual budget? How many employees does it have?

    Answer. The National Commission for Refugees (CONARE) is the 
Guatemalan agency responsible for asylum issues. It has four 
participating officials (one from the National Migration Institute 
(IGM), and one from each of the Ministries of Government, Labor and 
Social Development, and Foreign Affairs). Currently none of these 
officials is dedicated to CONARE full-time. CONARE meets to review 
asylum petitions and submit recommendations to the National Migration 
Authority (AMN) for final decision.
    The Office of International Migration Relations (ORMI) has seven 
full-time employees (three caseworkers, three investigators seconded to 
CONARE, and one supervisor). They conduct investigations in support of 
CONARE recommendations. The Department of State has not yet been able 
to confirm what CONARE's current budget is. With funding from the 
Department of State's Bureau of Population, Refugees, and Migration 
(PRM) UNHCR is assisting the government of Guatemala in scaling up its 
asylum capacity over the coming year.

    Question. What is the name of the Guatemalan migration agency? What 
is its annual budget? How many employees does it have?

    Answer. The Government of Guatemala is currently in the process of 
institutional reform to strengthen its migration management 
capabilities. Under the new pending Migration Authority Agreement, the 
National Migration Authority (AMN), including the National Migration 
Institute (IGM), was scheduled to move out of the Ministry of 
Government in August 2019 to become a ``decentralized entity.''
    The AMN is composed of representatives from seven governmental 
institutions: four ministries, the IGM, the Council for Guatemalan 
Migrants, and the Office of the Vice-President as the head. It does not 
have its own budgeted staff. The budget for the newly decentralized AMN 
was still under negotiation as of October 2019.

    Question. Does the State Department currently assess that the 
Government of Honduras has the capacity to receive by asylum seekers 
that reached the U.S. border? If so, how many asylum seekers does the 
State Department assess that the Government of Honduras is capable of 
receiving back on a monthly basis?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted and that the individual will have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection.

    Question. What is the name of the Honduras asylum agency? What is 
its annual budget? How many employees does it have?

    Answer. The Human Rights Management office within the National 
Migration Institute (INM) manages the process for making asylum 
determinations within the Government of Honduras. The officers make 
recommendations to the Commission for the Analysis, Revision, and 
Dictum on the Status of Refugees. The commission is composed of three 
members of the Ministry of Justice, Governance and Decentralization and 
three members of the INM. Additionally, two eligibility officers assist 
the human rights manager in the presentation of cases to the commission 
for adjudication. The INM Director signs the final approval to grant 
asylum.
    Pursuant to this question, the Department of State is seeking 
specific information regarding its budget.

    Question. What is the name of the Honduras migration agency? What 
is its annual budget? How many employees does it have?

    Answer. The National Migration Institute (INM) is the umbrella 
entity within the Government of Honduras covering migration issues. 
Pursuant to this question, the Department of State is seeking specific 
information regarding its budget and staffing but has not received a 
response at this time.

    Question. To whom, when, and where does this agreement apply?

    Answer. Guatemala and the United States signed an Asylum 
Cooperative Agreement on July 26, 2019. The Attorney General and the 
Secretary of Homeland Security determined that Guatemala's asylum 
system provides full and fair access to individuals seeking protection, 
as required by U.S. law, prior to the ACA entering into force on 
November 15, 2019. The first individual was sent to Guatemala under the 
agreement on November 21, 2019. While the ACA is a bilateral agreement 
between the United States and Guatemala, humanitarian assistance 
efforts funded by the Bureau of Population, Refugees, and Migration 
complement its implementation through partners like the United Nations 
High Commissioner for Refugees and the International Organization for 
Migration. The ACA with Guatemala helps address the humanitarian and 
security crisis at our southern border, while simultaneously fulfilling 
our mandate to provide protection and resolve the plight of persecuted 
and uprooted people.

    Question. Given known violence and humanitarian concerns in 
Guatemala, how is this agreement consistent with our international 
obligations related to asylum seekers and refugees?

    Answer. On November 15, the agreement the United States signed with 
Guatemala entered into force following certification by the Attorney 
General and the Secretary of Homeland Security pursuant to 8 U.S.C.  
1158(a)(2)(A) that individuals seeking asylum who are removed to 
Guatemala will have access to a full and fair procedure for determining 
their asylum claim or equivalent protection and following an exchange 
of diplomatic notes. Individuals who would be persecuted or tortured in 
Guatemala will not be sent to that country pursuant to this same 
statutory provision.

    Question. Given the limitations of Guatemala's existing asylum 
system, how is the country equipped to process and adjudicate 
potentially thousands of asylum seekers?

    Answer. The Department of State's Bureau of Population, Refugees, 
and Migration (PRM) provided more than $26 million in humanitarian 
assistance funding for UNHCR to assist the government of Guatemala in 
scaling up its asylum capacities over the coming year.

    Question. What is your understanding of the resources--financial 
and personnel--the Government of Guatemala budgets for processing 
asylum claims?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted and that the individual will have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection.
    The National Commission for Refugees (CONARE) is the Guatemalan 
agency responsible for asylum issues. It has four participating 
officials (one from the National Migration Institute (IGM), and one 
from each of the Ministries of Government, Labor and Social 
Development, and Foreign Affairs). Currently none of these officials is 
dedicated to CONARE full-time. CONARE meets to review asylum petitions 
and submit recommendations to the National Migration Authority (AMN) 
for final decision.
    The Office of International Migration Relations (ORMI) has seven 
full-time employees (three caseworkers, three investigators seconded to 
CONARE, and one supervisor). They conduct investigations in support of 
CONARE recommendations. The Department of State has not yet been able 
to confirm what CONARE's current budget is. With funding from the 
Department of State's Bureau of Population, Refugees, and Migration 
(PRM) UNHCR is assisting the government of Guatemala in scaling up its 
asylum capacity over the coming year.
    The Government of Guatemala is currently in the process of 
institutional reform to strengthen its migration management 
capabilities. Under the new pending Migration Authority Agreement, the 
National Migration Authority (AMN), including the National Migration 
Institute (IGM), was scheduled to move out of the Ministry of 
Government in August 2019 to become a ``decentralized entity.''
    The AMN is composed of representatives from seven governmental 
institutions: four ministries, the IGM, the Council for Guatemalan 
Migrants, and the Office of the Vice-President as the head. It does not 
have its own budgeted staff. The budget for the newly decentralized AMN 
was still under negotiation as of October 2019.

    Question. What is Guatemala's current capacity for the number of 
asylum claims it can process annually based on the resources currently 
budgeted for asylum claims?

    Answer. The National Commission for Refugees (CONARE) is the 
Guatemalan agency responsible for asylum issues. It has four 
participating officials (one from the National Migration Institute 
(IGM), and one from each of the Ministries of Government, Labor and 
Social Development, and Foreign Affairs). Currently none of these 
officials is dedicated to CONARE full-time. CONARE meets to review 
asylum petitions and submit recommendations to the National Migration 
Authority (AMN) for final decision.
    The Office of International Migration Relations (ORMI) has seven 
full-time employees (three caseworkers, three investigators seconded to 
CONARE, and one supervisor). They conduct investigations in support of 
CONARE recommendations. The Department of State has not yet been able 
to confirm what CONARE's current budget is. With funding from the 
Department of State's Bureau of Population, Refugees, and Migration 
(PRM) UNHCR is assisting the government of Guatemala in scaling up its 
asylum capacity over the coming year.
    Due to the ongoing reorganization of ORMI, the State Department 
cannot yet provide an accurate estimation of Guatemala's asylum 
processing capacity at this time. The United States government is 
actively working with our partners and the Government of Guatemala to 
better understand its current capacities.

    Question. In light of the agreement, what is the expected increase 
in the number of asylum claims in Guatemala, and what amount of 
additional resources will be required to handle such claims?

    Answer. The United States and Guatemala have not yet finalized an 
implementation plan, which would include more details on how both 
governments plan to implement the ACA.
    In line with its own strategic priorities and the state-led 
Comprehensive Regional Protection and Solutions Framework (MIRPS), with 
humanitarian assistance funding from the Department, UNHCR will support 
the Guatemalan government to scale up its asylum capacity.

    Question. What is your understanding of the ability and willingness 
of the Government of Guatemala to devote such additional resources to 
asylum claims to cover the increase?

    Answer. The Guatemalan government is committed to strengthening its 
asylum system based on its 2017 commitments under the Comprehensive 
Regional Protection and Solutions Framework. State's support for UNHCR 
in Guatemala bolsters Guatemala's efforts to implement its national 
action plan, which includes a series of measures to strengthen the 
asylum system.

    Question. Where will asylum seekers sent to Guatemala pursuant to 
this agreement be located in Guatemala?

    Answer. The Asylum Cooperation Agreement (ACA) between the U.S. and 
Guatemala has not yet entered into force. The Department of State, in 
coordination with the Department of Homeland Security, is actively 
engaging with the Government of Guatemala to finalize detailed plans 
for implementation of the agreement.

    Question. Do you assess that such asylum seekers will be subject to 
the same crime and insecurity plaguing Guatemala?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that these countries meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted or tortured for political reasons, and that the individual 
will have access to a full and fair procedure for determining a claim 
to asylum or equivalent temporary protection.

    Question. Does this agreement (the Safe Third Country Agreement 
with Guatemala) require a rule or further bilateral documents to become 
effective?

    Answer. Pursuant to the terms of the Asylum Cooperative Agreement 
(``ACA'') between the United States and Guatemala, the ACA will enter 
into force after the parties exchange notes indicating that each has 
complied with all necessary domestic legal procedures for the ACA to 
enter into force. As of the date of this hearing, this exchange has not 
yet occurred and accordingly the agreement has not entered into force. 
I defer to the Departments of Justice and Homeland Security regarding 
any need to modify existing regulations to provide for the U.S. 
implementation of this and any other ACAs that the United States enters 
into.

    Question. Given that 8 U.S.C.  1158(a)(2)(A) states that the 
designation of a safe third country requires the Attorney General to 
determine that the ``the alien would have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection,'' will the U.S. Attorney General issue findings regarding 
the fullness and fairness of Guatemala's asylum system and, if so, 
when?

    Answer. The Attorney General and the Secretary of Homeland Security 
must both determine that the Guatemalan refugee protection system 
satisfies the ``access to full and fair procedure'' requirements of 8 
U.S.C.  1158(a)(2)(A) before the Asylum Cooperative Agreement between 
the United States and Guatemala enters into force. I defer to the 
Departments of Justice and Homeland Security as to when they anticipate 
those determinations will be made.

    Question. Please indicate any change in U.S. policy or regulations 
related to Guatemala during the pendency of the negotiation of this 
agreement or since its conclusion.

    Answer. To the best of my understanding, there have been no changes 
to U.S. policy or regulations related to Guatemala during ACA 
negotiations.

    Question. To whom, when, and where does this agreement apply?

    Answer. Honduras and the United States signed an Asylum Cooperative 
Agreement (ACA) on September 25, 2019. The ACA between the United 
States and Honduras has not yet entered into force. The United States 
and Honduras have not yet finalized an implementation plan, which would 
include information on how both governments plan to implement the ACA.

    Question. Given known violence and humanitarian concerns in 
Honduras, how is this agreement consistent with our international 
obligations related to asylum seekers and refugees?

    Answer. I understand no individual can be sent to a country in 
which the individual would be persecuted or tortured. The Attorney 
General and the Secretary of Homeland Security must certify that 
Honduras meets the requirements of 8 U.S.C.  1158(a)(2)(A) prior to 
implementation of the Asylum Cooperation Agreement, including that 
individuals will have access to a full and fair procedure for 
determining a claim to asylum or equivalent temporary protection.

    Question. Given the limitations of Honduras's existing asylum 
system, how is the country equipped to process and adjudicate 
potentially thousands of asylum seekers?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted and that the individual will have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection.

    Question. What is your understanding of the resources--financial 
and personnel--the Government of Honduras budgets for processing asylum 
claims?

    Answer. The Human Rights Management office within the National 
Migration Institute (INM) manages the process for making asylum 
determinations within the Government of Honduras. The officers make 
recommendations to the Commission for the Analysis, Revision, and 
Dictum on the Status of Refugees. The commission is composed of three 
members of the Ministry of Justice, Governance and Decentralization and 
three members of the INM. Additionally, two eligibility officers assist 
the human rights manager in the presentation of cases to the commission 
for adjudication. The INM Director signs the final approval to grant 
asylum.
    Pursuant to this question, the Department of State is seeking 
specific information regarding its budget.

    The National Migration Institute (INM) is the umbrella entity 
within the Government of Honduras covering migration issues. Pursuant 
to this question, the Department of State is seeking specific 
information regarding its budget and staffing but has not received a 
response at this time.

    Question. What is Honduras's current capacity for the number of 
asylum claims it can process annually based on the resources currently 
budgeted for asylum claims?

    Answer. The Department is taking steps to consult with our 
international organization partners and the Government of Honduras in 
order to verify such information.

    Question. In light of the agreement, what is the expected increase 
in the number of asylum claims in Honduras, and what amount of 
additional resources will be required to handle such claims?

    Answer. The United States and Honduras have not yet finalized an 
implementation plan, which would include more details on how both 
governments plan to implement the ACA. It is expected that the U.S. 
Government will begin working with the Government of Honduras to draft 
detailed plans for implementation of the agreement in the coming weeks.

    Question. What is your understanding of the ability and willingness 
of the Government of Honduras to devote such additional resources to 
asylum claims to cover the increase?

    Answer. Through its adoption and implementation of the 
``Comprehensive Regional Protection and Solutions Framework'' (MIRPS, 
in Spanish), the Government of Honduras expressed its commitment to 
comprehensively improve its protection systems for refugees, asylum 
seekers, and internally displaced persons. We are prepared to support 
Honduras' goals in this regard, through our support for international 
humanitarian organizations.

    Question. Where will asylum seekers sent to Honduras pursuant to 
this agreement be located in Honduras?

    Answer. The Asylum Cooperation Agreement (ACA) between the U.S. and 
Honduras has not yet entered into force. The United States and Honduras 
have not yet finalized an implementation plan, which would include more 
details on how both governments plan to implement the ACA.

    Question. Do you assess that such asylum seekers will be subject to 
the same crime and insecurity plaguing Honduras?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that these countries meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted or tortured for political reasons, and that the individual 
will have access to a full and fair procedure for determining a claim 
to asylum or equivalent temporary protection.

    Question. Does this agreement (the Safe Third Country Agreement 
with Honduras) require a rule or further bilateral documents to become 
effective?

    Answer. Pursuant to the terms of the Asylum Cooperative Agreement 
(``ACA'') between the United States and Honduras, the ACA will enter 
into force after the parties exchange notes indicating that each has 
completed all necessary domestic legal procedures for bringing the ACA 
into force and that an Initial Joint Implementation Plan has been 
established. This exchange has not yet occurred and accordingly the 
agreement has not entered into force. I defer to the Departments of 
Justice and Homeland Security regarding any need to modify existing 
regulations to provide for the U.S. implementation of this and any 
other ACAs that the United States enters into.

    Question. Given that 8 U.S.C.  1158(a)(2)(A) states that the 
designation of a safe third country requires the Attorney General to 
determine that the ``the alien would have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection,'' will the U.S. Attorney General issue findings regarding 
the fullness and fairness of Honduras's asylum system and, if so, when?

    Answer. The Attorney General and the Secretary of Homeland Security 
must both determine that the Honduran refugee protection system 
satisfies the ``access to full and fair procedure'' requirements of 8 
U.S.C.  1158(a)(2)(A) before the Asylum Cooperative Agreement between 
the United States and Honduras enters into force. I defer to the 
Departments of Justice and Homeland Security as to when they anticipate 
those determinations will be made.

    Question. Please indicate any change in U.S. policy or regulations 
related to Honduras during the pendency of the negotiation of this 
agreement or since its conclusion.

    Answer. To the best of my understanding, there have been no changes 
to U.S. policy or regulations related to Honduras during ACA 
negotiations.

    Question. To whom, when, and where does this agreement apply?

    Answer. The United States and El Salvador signed an Asylum 
Cooperation Agreement on September 20, 2019. When it enters into force, 
the agreement will allow the United States to transfer third country 
nationals who wish to seek asylum or other forms of protection to El 
Salvador to access the Salvadoran government's protection system.

    Question. Given known violence and humanitarian concerns in El 
Salvador, how is this agreement consistent with our international 
obligations related to asylum seekers and refugees?

    Answer. Under U.S. law, the ACA requires that DHS and DOJ certify 
that an asylum seeker has access to full and fair procedures for 
determining a claim to asylum or equivalent temporary protection in a 
third country, and that they would not face persecution or torture. We 
are prepared to work with El Salvador to strengthen its capacity to 
provide asylum to those who seek it. The Government of El Salvador 
remains ultimately responsible for addressing crime and insecurity in 
its country.

    Question. Given the limitations of El Salvador's existing asylum 
system, how is the country equipped to process and adjudicate 
potentially thousands of asylum seekers?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that a country meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted and that the individual will have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection. The United States and El Salvador have not yet finalized an 
implementation plan, which would include more details on how both 
governments plan to implement the ACA. We would welcome the opportunity 
to work with our international partners and the Government of El 
Salvador to strengthen the capacity of the asylum system.

    Question. What is your understanding of the resources--financial 
and personnel--the Government of El Salvador budgets for processing 
asylum claims?

    Answer. The Commission for Refugee Status (CODER) is responsible 
for refugee status determinations for the Salvadoran government and is 
staffed by employees of the Ministry of Foreign Affairs. CODER does not 
have its own budget. The Direccion General de Migracion y Extranjeria 
is the organization within the Government of El Salvador responsible 
for migration issues. Pursuant to this question, the Department of 
State is seeking specific information regarding its budget and staffing 
but has not received a response at this time.

    Question. What is El Salvador's current capacity for the number of 
asylum claims it can process annually based on the resources currently 
budgeted for asylum claims?

    Answer. The Department is taking steps to consult with our 
international organization partners and the Government of El Salvador 
in order to verify such information.

    Question. In light of the agreement, what is the expected increase 
in the number of asylum claims in El Salvador, and what amount of 
additional resources will be required to handle such claims?

    Answer. The United States and El Salvador have not yet finalized an 
implementation plan, which would include more details on how both 
governments plan to implement the ACA. It is expected that the U.S. 
Government will work with the Government of El Salvador to draft 
detailed plans for implementation of the agreement.

    Question. What is your understanding of the ability and willingness 
of the Government of El Salvador to devote such additional resources to 
asylum claims to cover the increase?

    Answer. Through its adoption of the ``Comprehensive Regional 
Protection and Solutions Framework'' (MIRPS, in Spanish) in July 2019, 
the Government of El Salvador expressed its commitment to 
comprehensively improve its protection systems and join its neighbors 
in taking a coordinated approach to addressing forced displacement 
issues. It is expected that the Salvadoran government will develop a 
national action plan in accordance with the MIRPS framework.

    Question. Where will asylum seekers sent to Guatemala pursuant to 
this agreement be located in El Salvador?

    Answer. The Asylum Cooperation Agreement (ACA) between the United 
States and El Salvador has not yet entered into force. The United 
States and El Salvador have not yet finalized an implementation plan, 
which would include more details on how both governments plan to 
implement the ACA.

    Question. Do you assess that such asylum seekers will be subject to 
the same crime and insecurity plaguing El Salvador?

    Answer. The Attorney General and the Secretary of Homeland Security 
must certify that these countries meet the requirements of 8 U.S.C.  
1158(a)(2)(A) prior to implementation, including that individuals 
cannot be removed to a country in which the individual would be 
persecuted or tortured for political reasons, and that the individual 
will have access to a full and fair procedure for determining a claim 
to asylum or equivalent temporary protection.

    Question. Does the Safe Third Country Agreement with El Salvador 
require a rule or further bilateral documents to become effective?

    Answer. Pursuant to the terms of the Asylum Cooperative Agreement 
(``ACA'') between the United States and El Salvador, the ACA will enter 
into force after the parties' exchange notes indicating that each has 
completed all necessary domestic legal procedures for bringing the ACA 
into force. This exchange has not yet occurred and accordingly the 
agreement has not entered into force. I defer to the Departments of 
Justice and Homeland Security regarding any need to modify existing 
regulations to provide for the U.S. implementation of this and any 
other ACAs that the United States enters into.

    Question. Given that 8 U.S.C.  1158(a)(2)(A) states that the 
designation of a safe third country requires the Attorney General to 
determine that the ``the alien would have access to a full and fair 
procedure for determining a claim to asylum or equivalent temporary 
protection,'' will the U.S. Attorney General issue findings regarding 
the fullness and fairness of El Salvador's asylum system and, if so, 
when?

    Answer. The Attorney General and the Secretary of Homeland Security 
must both determine that the Salvadorian refugee protection system 
satisfies the ``access to full and fair procedure'' requirements of 8 
U.S.C.  1158(a)(2)(A) before the Asylum Cooperative Cooperation 
Agreement between the United States and El Salvador enters into force. 
I defer to the Departments of Justice and Homeland Security as to when 
they anticipate those determinations will be made.

    Question. Please indicate any change in U.S. policy or regulations 
related to El Salvador during the pendency of the negotiation of this 
agreement or since its conclusion.

    Answer. To the best of my understanding, there have been no changes 
to U.S. policy or regulations related to El Salvador during ACA 
negotiations.
                   authoritative political agreements

    Question. Please explain why the Department characterized the Joint 
Declaration (JD) as an ``authoritative political agreement,'' which 
appears to blur the line between instruments that are binding under 
international law--generally referred to as legal agreements--and 
instruments that are not binding under international law--generally 
referred to as political arrangements or commitments.

    Answer. As you know, the President announced that the United States 
and Mexico had entered into this agreement on June 7. Two days later, 
the Mexican Government issued a statement indicating a view that this 
arrangement was not legally binding.
    In the wake of this Mexican statement, we believed it was important 
to take time to review the status of the arrangement and engage with 
the Government of Mexico before stating a definitive position, and it 
was during this period that we communicated the position that we viewed 
this arrangement as an ``authoritative political agreement.''
    While we recognize the ambiguity of this statement, we believed it 
was important at that time, given those ongoing discussions. We have 
now clearly communicated our view to the Government of Mexico that the 
arrangement is legally binding, consistent with the requirements and 
timeframe envisioned by the Case Act.

    Question. Please explain the precise characteristics that lead to 
the classification of a written instrument or oral commitment as an 
``authoritative political agreement.''

    Answer. The President announced that the United States and Mexico 
had entered into this agreement on June 7. Two days later, the Mexican 
Government issued a statement indicating a view that this arrangement 
was not legally binding.
    In the wake of this Mexican statement, the Department believed it 
was important to take time to review the status of the arrangement and 
engage with the Government of Mexico before stating a definitive 
position, and it was during this period that we communicated the 
position that we viewed this arrangement as an ``authoritative 
political agreement.''
    While the Department recognizes the ambiguity of this statement, we 
believed it was important at that time, given those ongoing 
discussions.
    The Administration has now clearly communicated our view to the 
Government of Mexico that the arrangement is legally binding, 
consistent with the requirements and timeframe envisioned by the Case 
Act.

    Question. Please provide examples of other ``authoritative 
political agreements'' in U.S. history.

  i.  Were such instruments or oral commitments referred to as 
        ``authoritative political agreements'' at the time they were 
        finalized or concluded? If not, when were they classified as 
        such?

  ii.  For any examples, please indicate whether they are binding or 
        non-binding for purposes of international law, and whether they 
        were reported under the Case Act (if finalized subsequent to 
        enactment of that statute).

    Question. Does the United States ever enter into political 
agreements that are not ``authoritative?'' If yes, please explain why, 
and please provide examples of such non-authoritative political 
agreements.
     Does the Department generally transmit to Congress authoritative 
or non-authoritative political agreements pursuant to the Case Act? If 
yes, please provide examples. If no, please explain why not.

    Answers. It is the Department's understanding that we have not 
previously used the specific term ``authoritative political 
agreement''. Further, it is the Department's understanding that this 
situation presented a number of unique issues. As you know, the 
President announced that the United States and Mexico had entered into 
this agreement on June 7. Two days later, the Mexican Government issued 
a statement indicating a view that this arrangement was not legally 
binding.
    In the wake of this Mexican statement, the Department believed it 
was important to take time to review the status of the arrangement and 
engage with the Government of Mexico before stating a definitive 
position, and it was during this period that the Department 
communicated the position that we viewed this arrangement as an 
``authoritative political agreement.''
    While we recognize the ambiguity of this statement, the Department 
believed it was important at that time, given those ongoing 
discussions. We have now clearly communicated our view to the 
Government of Mexico that the arrangement is legally binding, 
consistent with the requirements and timeframe envisioned by the Case 
Act.
    With respect to the decision to report this under the Case Act, the 
Department's understanding is that the Department followed the criteria 
set out at 22 C.F.R. 181.2 in deciding whether any undertaking, oral 
agreement, document, or set of documents, including an exchange of 
notes or of correspondence, constitutes an international agreement 
within the meaning of the Case Act. These include the identity and 
intention of the parties; the significance of the arrangement; 
specificity, including objective criteria for determining 
enforceability; the necessity for two or more parties; and the form of 
the instrument. The Department transmitted to Congress the Mexico Joint 
Declaration and Supplementary Agreement under the Case Act on August 6, 
2019.
    With respect to your second question, as described above the 
Department used the phrase ``authoritative political agreement' to 
describe the arrangement at a point in time that the United States was 
engaged in discussions in order to state a definitive U.S. position on 
the nature of the arrangement. We recognize the ambiguity of the 
statement; as a general principle, the Department would typically 
consider any finally-negotiated arrangement, whether it is legally-
binding or non-binding in nature, to be ``authoritative'' with respect 
to the text negotiated by the parties.
    With respect to your third question, as noted above, the Department 
transmits agreements that are binding under international law to 
Congress, pursuant to the Case Act.
                     circular 175 (c-175) authority

    Questions. Were the JD and Supplementary Agreement (SA) negotiated 
and concluded pursuant to C-175 authority?

  a.  If yes, did the C-175 authorization and underlying memorandum of 
        law indicate that the JD, the SA or both, individually or 
        collectively, would constitute a binding agreement under 
        international law? Please explain.

  b.  If yes, please proved the date(s) any such C-175 authority was 
        issued.

  c.  If yes, please provide copies of the authority and underlying 
        memorandum of law.

    If the JD and/or the SA were not negotiated and/or concluded 
pursuant to C-175 authority, please explain why.

    Answers. The Administration has been engaged in ongoing discussions 
with the Government of Mexico with a view to addressing the shared 
challenges of illegal migration, including the entry of migrants into 
the United States across our shared border in violation of U.S. law.
    In connection with these discussions, in the summer of 2018, the 
Department proposed that the United States and Mexico negotiate a 
binding international agreement regarding burden-sharing and the 
assignment of responsibility for processing refugee status claims of 
migrants. The decision to pursue negotiations for such an agreement was 
fully coordinated and approved within the executive branch in 
accordance with the Circular 175 process.
    In June 2019, the Administration engaged with Mexico on the details 
of a binding international agreement regarding burden-sharing and the 
assignment of responsibility for processing refugee status claims of 
migrants, which was consistent with the Circular 175 process noted 
above. During those negotiations, the Government of Mexico introduced 
other proposed measures to address the challenges of illegal migration, 
and we and the Government of Mexico sought to reduce to writing the 
proposed way forward. Ultimately, as noted previously, the Joint 
Declaration and Supplementary Agreement were drafted and agreed to by 
the two parties to set the stage for a further set of discussions to 
advance these joint policy objectives; this approach couples a 
commitment to pursue further negotiations on a safe third country 
agreement with commitments to pursue a set of other measures.
     Given that the Circular 175 process is an internal executive 
branch process for coordinating and facilitating review and approval of 
proposed international agreements, the Administration is not in a 
position to share the underlying documentation given that this presents 
issues regarding internal Executive Branch deliberations and attorney-
client communications. The Department can assure you, however, that the 
Joint Declaration and Supplementary Agreement were reviewed and 
approved prior to their conclusion. The Administration transmitted 
these instruments to Congress, in accordance with the Case Act, on 
August 6.
   analysis of whether jd and sa are binding under international law

    Question. Please indicate whether the JD alone is binding under 
international law?

    Please identify the characteristics of the JD from which it can be 
concluded that both the United States and Mexico regard the JD as 
binding under international law?

    Please indicate which specific provisions of the JD impose binding 
obligations on either the U.S., Mexico, or both.

    Please indicate whether the SA alone is binding under international 
law?

    Please identify the characteristics of the SA from which it can be 
concluded that both the United States and Mexico regard the SA as 
binding under international law.

    Please indicate which specific provisions of the SA impose binding 
obligations on either the U.S., Mexico, or both.

    Answer. The Department regards the Joint Declaration and 
Supplementary Agreement collectively to constitute a legally binding 
agreement under international law. The two components of this agreement 
contain a series of commitments to address irregular migration, some of 
which are legally binding and others of which are not legally binding. 
The essential objective of this agreement was to commit the Government 
of Mexico to implement a series of measures designed to stem the flow 
of migrants into the United States. In addition, it was essential to 
the Administration to ensure the firmest possible commitment from the 
Government of Mexico to take specific further actions in the event the 
other measures identified in the agreement were unsuccessful in 
addressing the migrant flow problem.
    In particular, the Supplementary Agreement specifies that the 
United States and Mexico will immediately begin discussions to 
establish definitive terms for a binding bilateral agreement to further 
address burden-sharing and the assignment of responsibility for 
processing refugee status claims of migrants. In addition, it 
establishes an obligation on the part of Mexico to take all necessary 
steps under domestic law with a view to ensuring that this further 
binding agreement will enter into force within 45 days if the United 
States determines that the measures adopted by the Government of Mexico 
pursuant to the Joint Declaration have not sufficiently achieved 
results in addressing the flow of migrants to the southern border of 
the United States. In this way, it is necessary to read the Joint 
Declaration and Supplementary Agreement together to identify the legal 
obligations established with regard to the negotiation and entry into 
force of a further binding agreement to address burden-sharing and the 
assignment of responsibility for processing refugee status claims of 
migrants.
    Since the conclusion of these instruments, the United States and 
Mexico have focused their efforts on implementation of the range of 
commitments reflected in the Joint Declaration in order to address 
challenges posed by illegal migration at the southern border. In light 
of our current progress, the United States and Mexico have not to date 
pursued further negotiations to finalize the text of a binding 
agreement contemplated by the Supplementary Agreement, and the United 
States therefore has not triggered the obligation for Mexico to take 
necessary steps to bring such an agreement into force.
    The Department understands that some confusion has arisen regarding 
the legal character of the Joint Declaration and Supplementary 
Agreement in light of statements about them in weeks immediately 
following their conclusion. The President announced that the United 
States and Mexico had entered into this agreement on June 7. Two days 
later, the Mexican Government issued a statement indicating a view that 
the instruments were not legally binding. In the wake of this Mexican 
statement, we believed it was important to take time to review the 
status of the instruments and engage with the Government of Mexico 
before stating a definitive position, and it was during this period 
that we communicated the position that we viewed the instruments as an 
``authoritative political agreement.'' While we recognize the ambiguity 
of this statement, we believed it was important at that time, given 
those ongoing discussions. We have now clearly communicated our view to 
the Government of Mexico that the arrangement is legally binding and 
transmitted the agreement to Congress consistent with the requirements 
and timeframe envisioned by the Case Act.

    Question. Please identify and explain in detail the specific 
factors that the Department analyzed in arriving at the position that 
the JD and SA collectively are binding under international law.

    Please provide a detailed explanation, with relevant examples, of 
the legal theory by which the Department believes it is possible for a 
subsequent instrument, such as the SA, to render a change in the legal 
character of a prior instrument that was not itself previously 
considered binding under international law?

    Please indicate whether the Department's analysis of the binding 
nature of the JD, SA, and the JD and SA collectively is consistent with 
the practice and precedent of the United States on international 
agreements and arrangements, or if the analysis departs from the 
practice and precedent of the United States in this area. If it does 
differ, please explain the following:

  i.  how it differs;

  ii.  why the executive branch departed from U.S. practice and 
        precedent;

  iii.  whether the executive branch's position on the JD, SA, and SA 
        and JD collectively is a one-time departure from U.S. practice 
        and precedent, or whether the departure represents a shift in 
        executive branch practice;

  iv.  whether the executive branch has made the Government of Mexico 
        aware of any departure.
       position of the united states with regard to the jd and sa

    Questions. During the course of the negotiations of the JD and SA, 
what was the position of the United States on whether the JD, the SA, 
and the JD and SA collectively were binding under international law?

    Upon finalizing the JD and SA, what was the position of the United 
States on whether the JD, the SA, and the JD and SA collectively were 
binding under international law?

    Acting Legal Adviser String appeared to indicate in his July 24 
testimony that questions of whether the JD and SA were binding under 
international law were still being considered within the executive 
branch. If the United States did not have a position on the question of 
whether the instruments were binding during the negotiation or when the 
instruments were finalized, please explain why that would be the case.

    Did the position of the United State on whether the instruments 
were binding change from the outset of the negotiations to the date the 
instruments were finalized or at any point between the date the 
instruments were finalized to the July 29 communication from the 
Department to SFRC staff. If yes, please explain the substance of the 
change(s)--i.e. from what to what--and the reason(s)?

    Position of the Government of Mexico (GOM) with regard to the JD 
and SA (as understood by the executive branch)

    Answers. With respect to the our reporting practice with regard to 
the Case Act, the Department follows the criteria set out at 22 C.F.R. 
181.2 in deciding whether any undertaking, oral agreement, document, or 
set of documents, including an exchange of notes or of correspondence, 
constitutes an international agreement within the meaning of the Case 
Act, and that it will continue to do so.
    With respect to your second question, the Department does not agree 
with the premise of the question given that both the Joint Declaration 
and Supplementary Agreement were agreed upon jointly.
    With respect to your remaining questions, the United States regards 
the Joint Declaration and Supplementary Agreement collectively to 
constitute a legally binding agreement under international law, which 
is consistent with practice, despite the unique set of issues presented 
by the negotiations, described at length above in response to other 
questions.
    Namely, the two components of this arrangement contain a series of 
commitments, some of which are legally binding and others of which are 
not legally binding. The essential objective of this arrangement was to 
commit the Government of Mexico to implement a series of measures 
designed to stem the flow of migrants into the United States.
    As the negotiations unfolded, it became essential to the 
Administration to secure the firmest possible commitment that the 
Government of Mexico would commence the negotiation of a safe third 
country agreement to ensure that the Administration could put such an 
agreement in place if the other measures identified in the arrangement 
were unsuccessful in addressing the migrant flow problem.
    In our view, it is necessary to read the two components of the 
arrangement--the Joint Declaration and Supplementary Agreement--
together as establishing and identifying the triggering conditions for 
the Mexican obligation to ``take the all necessary steps under domestic 
law with a view to ensuring that the agreement will enter into force 
within 45 days.''
    Since the conclusion of these instruments, the United States and 
Mexico have focused their efforts on implementation of the range of 
commitments reflected in the Joint Declaration in order to address 
challenges posed by illegal migration at the southern border. In light 
of our current progress, the United States and Mexico have not to date 
pursued further negotiations to finalize the text of a binding 
agreement contemplated by the Supplementary Agreement, and the United 
States therefore has not triggered the obligation for Mexico to take 
necessary steps to bring such an agreement into force.

    Questions. Has the position that the JD and SA collectively 
constitute a binding agreement under international law been conveyed to 
the GOM?

  a.  If yes, please indicate when this position was first conveyed to 
        the GOM.

  b.  If no, please explain why it has not been conveyed to the GOM.

    What is the Department's understanding of the position of the GOM 
on the following:

  a.  whether the JD is binding for purposes of international law,

  b.  whether the SA is binding for purposes of international law, and

  c.  whether the JD and SA collectively are binding for purposes of 
        international law.

    *Please note that the preceding questions are not a request for the 
Department to speak on behalf of the GOM; rather we are interested in 
the Department's understanding of the GOM's position.

    Answer. The Department understands that we clearly communicated our 
view to the Government of Mexico that the arrangement is legally 
binding prior to the agreement being transmitted to Congress consistent 
with the requirements and timeframe envisioned by the Case Act.
    With regard to your next set of questions, we also understand that 
some confusion has arisen regarding the legal character of the Joint 
Declaration and Supplementary Agreement in light of statements about 
them in weeks immediately following their conclusion. The President 
announced that the United States and Mexico had entered into this 
agreement on June 7. On June 9, the Mexican Government issued a 
statement indicating a view that the instruments were not legally 
binding.
    The Department's understanding is also that the Mexican Government 
has appreciated our ongoing and candid communications on these 
important policy issues that are of shared concern to our two nations. 
Our nations have together focused on addressing these issues of shared 
concern through a variety of measures.
   impact of potential differing positions between united states and 
                                 mexico

    Questions. If the GOM does not share (and never has shared) the 
executive branch position that the JD and SA collectively are binding 
under international law, would that change the executive branch 
position that the JD and SA collectively are binding? If no, please 
explain.

    If the GOM does not share (and never has shared) the executive 
branch position that the JD and SA collectively are binding under 
international law, could the GOM be bound by any provision of such 
instruments? If yes, please explain.
                          case act transmittal
    In light of the executive branch position that the JD and SA 
collectively are binding under international law and the indication 
that they will be transmitted to Congress pursuant to the Case Act, 
does the Department commit to transmitting to Congress, pursuant to the 
Case Act, all similarly-situated instruments going forward?

    Answers. The Department understands that, with respect to your 
first two questions, the Administration has been engaged in ongoing 
discussions with the Government of Mexico with a view to addressing the 
shared challenges of illegal migration, including the entry of migrants 
into the United States across our shared border in violation of U.S. 
law. The results of their efforts are memorialized in two documents 
concluded on June 7, 2019--the U.S.-Mexico Joint Declaration and the 
Supplementary Agreement between the United States and Mexico. As we 
have previously indicated, the Administration regards these two 
documents, collectively, to constitute a binding agreement under 
international law. This is the Administration's position, and the 
Administration is proceeding in our diplomatic efforts on the basis of 
this position.
    In relation to the Government of Mexico's compliance with the 
provisions of these instruments since they were concluded, the United 
States and Mexico have focused their efforts on implementation of the 
range of commitments reflected in the Joint Declaration in order to 
address challenges posed by illegal migration at the southern border. 
In light of our current progress, the United States and Mexico have not 
to date pursued further negotiations to finalize the text of a binding 
agreement contemplated by the Supplementary Agreement, and the United 
States therefore has not triggered the obligation for Mexico to take 
necessary steps to bring such an agreement into force.
    With respect to your final questions regarding the Department's 
reporting practice with regard to the Case Act, the Department's 
understanding is that we follow the criteria set out at 22 C.F.R. 181.2 
in deciding whether any undertaking, oral agreement, document, or set 
of documents, including an exchange of notes or of correspondence, 
constitutes an international agreement within the meaning of the Case 
Act, and that it will continue to do so.
                 domestic legal authority for jd and sa
    Question. The Department has indicated that it ``consider[s] the 
Joint Declaration and Supplementary Agreement to be, collectively, an 
executive agreement, concluded in the exercise of the President's 
constitutional authority for the conduct of foreign relations:''

  a.  Please be more specific concerning the constitutional authority 
        asserted as the basis for the JD and SA. Which specific 
        provisions of the Constitution does the Department view as 
        providing the domestic legal authority for the JD and SA?

  b.  Prior to the JD and SA, had the United States concluded any 
        international instrument related to immigration or migration 
        and asserted ``the President's constitutional authority for the 
        conduct of foreign relations'' or any other constitutional 
        authority of the President as the sole domestic legal basis for 
        the instrument(s)?

      i.  If yes, please provide a list of each instrument that meets 
            these criteria, the date it was concluded, and a statement 
            of the specific constitutional provisions that provide the 
            asserted authority.

    Answer. It is the Department's understanding that we transmitted 
the Mexico Joint Declaration and Supplementary Agreement under the Case 
Act on August 6, 2019 and that the accompanying report indicated that 
the legal authority for entering into the agreement was Article II of 
the U.S. Constitution.
    Further, the Department understands that reliance on Article II as 
the sole source of authority for entering into an international 
agreement is not uncommon in situations where an agreement either 
imposes obligations only on the treaty partner, but not on the United 
States, or imposes obligations on the United States limited to matters 
within the President's constitutional authority, such as the 
negotiation of international agreements.

    Question. Does the Department generally transmit to Congress 
authoritative or non-authoritative political agreements pursuant to the 
Case Act? If yes, please provide examples. If not, why not.

    Answer. The Department used the phrase ``authoritative political 
agreement' to describe the arrangement at a point in time that the 
United States was engaged in discussions in order to state a definitive 
U.S. position on the nature of the arrangement. We recognize the 
ambiguity of the statement; as a general principle, the Department 
would typically consider any finally negotiated arrangement, whether it 
is legally-binding or non-binding in nature, to be ``authoritative'' 
with respect to the text negotiated by the parties. The Department 
transmits agreements that are binding under international law to 
Congress, pursuant to the Case Act.

    Question. Can you confirm that, according to the State Department's 
own website, the Mexican state of Tamaulipas has the same travel level 
warning as Syria--level 4 do not travel--due to high levels of violent 
crime there?

    Answer. The Mexican state of Tamaulipas currently has a do not 
travel advisory for that state due to crime and kidnapping. Violent 
crime, such as murder, armed robbery, carjacking, kidnapping, 
extortion, and sexual assault, is common. Gang activity, including gun 
battles and blockades, is widespread. Armed criminal groups target 
public and private passenger buses as well as private automobiles 
traveling through Tamaulipas, often taking passengers hostage and 
demanding ransom payments. Federal and state security forces have 
limited capability to respond to violence in many parts of the state. 
Syria has a do not travel advisory due to terrorism, civil unrest, 
kidnapping, and armed conflict. No part of Syria is safe from violence. 
Kidnappings by armed groups, arbitrary arrests, the use of chemical 
warfare, shelling, and aerial bombardment pose significant risk of 
death or serious injury. The destruction of infrastructure, housing, 
medical facilities, schools, and power and water utilities has also 
increased hardships inside the country.

    Question. During a briefing for SFRC staff by officials from DHS 
and the State Department's WHA and PRM bureaus, the Administration 
admitted that levels of violence in Mexican cities were not indicators 
considered when deciding where to implement the Migrant Protection 
Protocols along the U.S. border. Can you explain this?

    Answer. Questions on how locations were identified should be 
directed to the Department of Homeland Security.

    Question. During the State-DHS briefing, the Administration also 
told SFRC Democratic and Republican staff that pregnant women in their 
third trimester and families with young children are not considered 
``vulnerable populations'' and therefore will be sent back to Mexico 
under the Remain in Mexico policy. Can you confirm this? How can you 
possibly explain this?

    Answer. Questions about Migrant Protection Protocol procedures 
should be addressed to the Department of Homeland Security.
                                 ______
                                 

   Responses of Assistant Secretary Kirsten D. Madison to Questions 
                    Submitted by Senator Ben Cardin

    Question. 2017 marked a record level of U.S. overdoses, with more 
than half of the 72,000 overdose deaths involving opioids. In Maryland 
there were 2,143 opioid-related deaths last year. Mexican drug 
trafficking organizations pose the greatest crime threat to the United 
States and have ``the greatest drug trafficking influence,'' according 
to the annual U.S. Drug Enforcement Administration's (DEA's) National 
Drug Threat Assessment. They are involved in extensive money 
laundering, bribery, gun trafficking, and corruption, causing Mexico's 
homicide rates to spike:
    To what extent, if at all, has the need to address migration issues 
inhibited U.S. and Mexican efforts to address other issues such as 
counter-narcotics and trade?

    Answer. The Mexican government continues to address multiple 
priorities of importance to the United States, including migration, 
trade, and counternarcotics. Since President Lopez Obrador took office 
in late 2018, the Mexican government has surged significant resources 
to focus on migration and fuel theft, which is a major revenue stream 
for criminal trafficking organizations. At the highest levels, the 
United States continues to engage with Mexico on a range of U.S. 
priorities, including the need for Mexico to intensify its 
counternarcotics efforts.

    Question. 2017 marked a record level of U.S. overdoses, with more 
than half of the 72,000 overdose deaths involving opioids. In Maryland 
there were 2,143 opioid-related deaths last year. Mexican drug 
trafficking organizations pose the greatest crime threat to the United 
States and have ``the greatest drug trafficking influence,'' according 
to the annual U.S. Drug Enforcement Administration's (DEA's) National 
Drug Threat Assessment. They are involved in extensive money 
laundering, bribery, gun trafficking, and corruption, causing Mexico's 
homicide rates to spike:
    How have drug seizures and migrant border wait times trended over 
the past several months?

    Answer. For trends on drug seizures by U.S. authorities and migrant 
wait times at the U.S.-Mexico border, the Department of State refers 
you to the Department of Homeland Security. The Department of State 
partners with Mexican authorities to reduce drug trafficking across our 
border and production in Mexico, disrupt transnational criminal 
organizations and remove their illicit revenue, and bring criminals to 
justice. The Department of State is focused in particular on addressing 
increases in the amount of synthetic opioids that transnational 
criminal organizations produce in and traffic through Mexico. Reducing 
the flow of these drugs into the United States is a top priority.

    Question. What are you doing to strongly and publicly signal that 
INL and the Department of State are committed to supporting the fight 
against corruption in Central America?

    Answer. Reducing corruption and enhancing transparency and 
integrity is a cornerstone of the Department's approach in Central 
America. The Department works with host government partners to 
professionalize justice sector institutions in Central America and 
ensure they have the capabilities to combat corruption. The Department 
is also committed to utilizing the variety of sanctions and visa 
restriction tools, including Section 7031(c) of the annual 
appropriations bill and the Global Magnitsky Human Rights 
Accountability Act, to prevent corrupt individuals from traveling to 
and spending their ill-gotten gains in the United States and as 
valuable tools to hold the corrupt accountable and deter further 
corruption.

    Question. Until recently, INL supported programs in Central America 
that established, trained, and/or strengthened police units dedicated 
to addressing gender-based violence. What is the status of these 
programs now?
    How were they impacted by recent Administration decisions to defund 
programs in the Northern Triangle?

    Answer. Several gender-based violence programs and initiatives 
continue to function with previous fiscal year funds. Once prior fiscal 
year funds are expended, no new FY2017 nor FY2018 funds will be 
available and gender-based violence programs will cease until new funds 
are made available.

    Question. Many programs in the Northern Triangle are designed and 
implemented with the aim of humanitarian and development purposes. 
These programs are intended to transform communities and foster 
development, but do not track impacts on migration as that was not the 
goal or mandate of the program.
    How is this fact being considered in programming decisions?

    Answer. The President has made clear that the Governments of El 
Salvador, Guatemala, and Honduras have not made enough progress and 
need to do more to address the drivers of irregular migration. We know 
that the root causes of illegal immigration to the United States--weak 
governance, insecurity, and lack of prosperity--must be addressed to 
reduce out-migration from Central America. We are engaging Central 
American governments on additional steps they should take to achieve 
those shared goals.
    The Department of State and USAID routinely adjust our programming 
based on performance data and alignment toward U.S. policy goals. For 
example, in collaboration with our implementing partners, USAID is 
currently collecting data against new indicators related to the 
migration experiences, attitudes, and intentions of participants in the 
assistance programs we fund in the countries of El Salvador, Guatemala 
and Honduras. These new indicators will help USAID and implementing 
partners to better monitor the direct effects of our programs on 
improving governance, security, and economic prosperity.

    Question. How does knowingly sending vulnerable women and children 
back to these conditions under the Remain in Mexico policy comply with 
the United States' international human rights and humanitarian 
obligations?

    Answer. Mass migration promoted by human smugglers that results in 
sexual assault of over 30 percent of women and girls clearly is not 
supportive of their human rights. Our policies are designed to stop 
that and to channel uncontrolled illegal, unsafe mass migration into 
safe, orderly, and legal channels. The Department of State understands 
the Department of Homeland Security (DHS) does not return unaccompanied 
children to Mexico under the Migrant Protection Protocols (MPP) and may 
exclude other vulnerable individuals on a case-by-case basis. We refer 
you to DHS for additional details on MPP implementation.
    The Government of Mexico has noted publicly that individuals under 
MPP are accorded all rights and freedoms recognized in Mexico's 
constitution, its migration laws, and the international treaties to 
which Mexico is a party.
    In the June 7 U.S.-Mexico Joint Declaration, the Mexican government 
committed to offer jobs, healthcare, and education to migrants returned 
to Mexico under the MPP.

    Question. The Trump administration is pushing forward with plans to 
harden the southern border to reduce the influx in migration. As a 
result, the Mexican government has found itself under pressure to take 
an increasing number of asylum seekers. Please assess the relative 
strength or weakness of Mexico's asylum system.

    Answer. Mexico has an adequate legal framework governing its asylum 
system and, with U.S. support, the government's asylum processing 
capacity has tripled in the past year.
    Mexico's domestic legal framework provides asylum seekers the right 
to access public services such as education and the right to work. 
Mexico is a party to the 1951 Convention relating to the Status of 
Refugees, its 1967 Protocol, and the 1984 Convention against Torture 
and Other Cruel, Inhuman or Degrading Treatment or Punishment. Mexico 
applies the Cartagena Declaration to asylum seekers from Honduras, 
which, among other things, enables them to obtain refugee status if 
fleeing generalized violence.

    Question. What type of assistance has the U.S. Government provided 
through UNHCR to support that agency?

    Answer. In fiscal year 2019, the Bureau for Population, Refugees, 
and Migration (PRM) contributed more than $51 million to UNHCR for its 
operations in Mexico to help build Mexico's asylum capacity and assist 
asylum seekers and refugees. Specifically, this money helps support 
Mexico's refugee agency, provides access to legal assistance, 
psychosocial counseling, refugee integration and shelter support.
    With UNHCR technical assistance funded by PRM the Mexican 
Commission for Refugee Assistance (Spanish acronym COMAR) has expanded 
its capacity to meet growing operational needs, including the 
recruitment of 155 individual contractors, 27 of whom have been 
absorbed by COMAR and are now funded through the Government of Mexico 
directly. With the help of U.S.-funded UNHCR support, COMAR has opened 
new offices in Monterrey, Tijuana, and Palenque.

    Question. In your view, what level of assistance would need to be 
provided over what length of time to help Mexico absorb the level of 
applications it is receiving?

    Answer. At a minimum, assistance must continue at current levels to 
help the Mexican Commission for Refugee Assistance (Spanish acronym 
COMAR) finish clearing its current backlog of asylum applications, on 
which it has made significant progress over the past year. The backlog 
arose, in part, due to the 2017 earthquake, which resulted in 
significant loss of files and triggered various administrative capacity 
shortfalls and delays.

    Question. How important is it for the Administration to conclude a 
safe third country agreement with Mexico?

    Answer. Combatting illegal migration across the U.S. southern 
border is a top priority for the administration and we continue to 
interact with the Mexican government on a variety of ways to do so. We 
laud Mexico's ongoing efforts to curb the flow of illegal immigration 
to the United States through the enforcement of its immigration.

    Question. Guatemala's National Commission for Refugees decides 
asylum claims: Please describe the Commission's current structure, such 
as the size of the Commission's staff, how often it meets, how many 
full-time dedicated staff it employs, and whether it has permanent 
staff and space.

    Answer. The National Migration Authority (AMN) is charged with 
resolving all asylum claims based on recommendations submitted by the 
National Refugee Commission (CONARE), an advisor entity to the AMN. 
Currently, the Office of International Migration Relations (ORMI) has a 
team of seven full-time employees. Before February 2019, there were 
only four. Under Guatemala's new domestic arrangement on ``migration 
authority,'' ORMI was set to be absorbed as a new sub-department under 
the AMN, but it is unclear at this time whether the reorganization 
process has been completed.
    CONARE consists of working-level technical representatives from the 
Ministries of Government, Labor and Social Development, and Foreign 
Affairs, and a representative from the Guatemalan Institute for 
Migration (IGM). CONARE makes a technical recommendation to AMN to 
approve or deny asylum requests, based on its assessment of whether the 
case meets the requisite burden of proof. The representatives in CONARE 
remain on the payrolls of their respective ministries. Currently none 
of these people is dedicated to CONARE full-time.
    AMN makes the final decision on asylum cases and ultimately is the 
entity that grants asylum. It is composed of seven governmental 
institutions: four ministries, the Guatemalan Institute for Migration 
(IGM), the Council for Guatemalan Migrants, and the Office of the Vice-
President as the head. Like CONARE, AMN has a principal participant and 
stand-in from each institution, none of whom is dedicated full-time to 
asylum determinations.

    Question. In the past 2 years, how many asylum applications did the 
Commission receive, process, and approve

    Answer. According to the Government of Guatemala, CONARE received 
262 applications in 2018 and 218 in 2019 as of July. CONARE was unable 
to work on cases for over a year while the Rules of Procedure for 
Refugee Status were being drafted. As of March 2019, there was a 
backlog of 210 cases. Though CONARE has been able to make about 30 
recommendations since March, the National Migration Authority (AMN) has 
not reached a decision on these cases. CONARE is meeting bi-weekly, 
instead of monthly, over the next few months to make recommendations on 
the backlogged cases. Historically, Guatemala has had capacity to 
process about 100-150 cases per year.

    Question. The United States has only signed a safe third country 
agreement with Canada, where the murder rate is only 1.8 per 100,000 
residents, or one third of that of the United States. How can the U.S. 
Government in good conscience sign similar agreements with countries 
like Guatemala, El Salvador, and Honduras, where murder and other crime 
rates are some of the highest in the world?

    Answer. The United States signed Asylum Cooperation Agreements 
(ACAs) with the governments of Guatemala (July 26), El Salvador 
(September 20) and Honduras (September 25). We expect these countries 
to meet the requirements of 8 U.S.C.  1158(a)(2)(A) prior to 
implementation, so that the United States may, when appropriate, 
transfer asylum-seekers to pursue protection claims there.

    Question. Women and girls can face violence, exploitation, and 
abuse throughout their journey. For example, a woman fleeing domestic 
violence in Guatemala is also highly vulnerable to further sexual 
assault, trafficking, or other abuse as she transits El Salvador. How 
does the recently announced agreement with the Government of El 
Salvador requiring asylum seekers to seek asylum in El Salvador before 
attempting to do so in the United States protect women and girls from 
experiencing violence during their journey?

    Answer. In support of the Asylum Cooperation Agreement with El 
Salvador, which has not entered into force, the Department anticipates 
providing support for the Government of El Salvador to build up its 
asylum system and capacities, to include the appropriate staffing and 
expertise for assessing, identifying, and responding to protection 
concerns, including unique vulnerabilities of women and girls.

    Question. What is your role in implementing this agreement? How 
does that comply with your mandate to strengthen systems, rule of law, 
and human rights when it is clear that an agreement of this sort is 
primarily intended to keep people from our borders rather than to 
address the severe vulnerabilities women and girls face along the way?

    Answer. The Department of Homeland Security and the White House 
have led U.S. engagement with the Governments of El Salvador, 
Guatemala, or Honduras on asylum-related agreements. While the specific 
needs associated with strengthening partner nation institutional 
capacity are still being evaluated, existing INL programming works with 
host nation partners to strengthen judicial and law enforcement 
institutions, combat corruption, and improve professionalization.

    Question. Why was the U.S. Government silent, and why did it not 
more forcefully defend such an institution (CICIG) that was helping to 
eliminate a key root cause of migration?

    Answer. The United States remains committed to supporting 
Guatemalan institutions and the Guatemalan people in their ongoing 
fight against corruption and impunity. We take that fight seriously, 
knowing that the rule of law, reduced corruption, and an end to 
impunity are key to security, stability, and prosperity not only in 
Guatemala, but throughout the region and the world.
    The departure of CICIG does not affect the Department's commitment 
to continue working with Guatemalan partners to build their capacity to 
fight corruption and impunity.

    Question. What are we doing to help President Bukele of El Salvador 
establish a similar commission in his country?

    Answer. On September 6, the Salvadoran government and the 
Organization of American States (OAS) announced the creation of the 
International Commission against Corruption and Impunity in El Salvador 
(CICIES). The Salvadoran Government and OAS have not yet worked out 
implementation details; we are engaging both to learn more about the 
effort as well as potential resource needs. In the framework of respect 
for El Salvador's sovereignty, we look forward to helping support 
President Bukele in this initiative, and encourage all constructive 
measures that seek to reduce corruption and impunity in El Salvador.

    Question. Guatemalan authorities recently discovered a large coca 
plantation in their country--a first for Central America, which has 
traditionally served as a trans-shipment point for drugs exported from 
Colombia to Mexico and the United States. Is Central America turning 
into a drug-producing region?

    Answer. We are analyzing the Guatemalan government's recent 
discovery of coca plants and cocaine labs. Traditionally we have viewed 
Central America mostly as a drug transit region. We continue to seek 
additional information about this most recent discovery and will 
continue to ensure our programming is targeted based on verified 
evidence of regional trends.

    Question. The Federal Police in Mexico received significant 
assistance from the U.S. Government during the Bush and Obama 
administrations, but the latest move to centralize policing authority 
in Mexico has been the creation of the National Guard:
    What progress has been made in Mexico on the creation of the new 
National Guard force?

    Answer. In support of the National Guard, Mexico enacted a series 
of new laws, including a constitutional amendment; reassigned 
approximately 60,000 personnel from the Mexican Army (SEDENA), Navy 
(SEMAR), and Federal Police (PF) to the force; recruited approximately 
2,500 new personnel to date; and deployed units to 150 locations 
throughout Mexico. President Lopez Obrador's proposed budget for 2020 
dedicates $192 million to the National Guard.

    Question. What more could the U.S. Government do to help with the 
professionalization of this force, and what do we have to show for all 
of the resources previously expended by the U.S. Government in vetting 
and equipping the Federal Police?

    Answer. As Mexico makes increasingly clear the intended roles and 
authorities of the National Guard (NG), the U.S. Government will 
continue to work with our Mexican counterparts to identify and evaluate 
the types of assistance that would most directly build capacity to 
support U.S. interests, including targeted professionalization programs 
as well as programs that support the achievement of more impactful 
counternarcotics results. Since the inception of the Merida Initiative, 
the Federal Police (PF) has been an instrumental partner in our shared 
efforts to counter transnational organized crime. The Department is 
engaging actively with the Government of Mexico to ensure it 
appropriately preserves and leverages previous and ongoing U.S. 
investments as the PF transitions into the National Guard.

    Question. Mexico is in the midst of its most dangerous year on 
record, with unprecedented numbers of murders reported so far in 2019. 
Following the threat of tariffs against Mexico in June, President Lopez 
Obrador diverted some 25,000 troops from the anti-drug fight to contend 
with successive waves of migrants from Central America:
    To what extent has placating President Trump on border enforcement 
distracted Mexican security forces from other priorities, such as 
combating organized crime and securing the streets?

    Answer. The Mexican Government continues to address multiple 
priorities of importance to the United States, including migration, 
trade, and counternarcotics. Since President Lopez Obrador took office 
in late 2018, the Mexican government has surged significant resources 
to focus on migration and fuel theft, which is a major revenue stream 
for criminal trafficking organizations. At the highest levels, the 
United States continues to engage with Mexico on a range of U.S. 
priorities, including the need for Mexico to intensify its 
counternarcotics efforts.
                                 ______
                                 

 Responses of Acting Assistant Secretary Michael G. Kozak to Questions 
                    Submitted by Senator Ben Cardin

    Question. How would you assess the current state of U.S. relations 
with Mexico, El Salvador, Guatemala, and Honduras?

    Answer. I would assess the relationship with all four countries as 
close and productive. Mexico and Central America share close bonds with 
the United States through geographic proximity, commerce, and family 
ties as well as shared history, culture, and democratic values. We 
cooperate closely with Mexico, El Salvador, Guatemala, and Honduras on 
a broad range of political, security, migration, counternarcotics, 
trade, and economic issues. For example, we work closely with Mexico 
and the Central American countries to address irregular migration, 
human trafficking, transnational crime, and the production and movement 
of illicit narcotics. Our joint work in these areas is paramount to 
achieving our goal of ensuring security for the American people.

    Question. Unauthorized immigration is just one of the many 
priorities the U.S. has in Central America. We are also critical 
trading partners and share a host of other regional objectives: How 
would you rank reducing migration among U.S. priorities for each of 
those countries and among the priorities of the governments of each of 
those countries?

    Answer. The President has made it clear that reducing irregular 
migration to the United States is a top U.S. Government priority in 
Central America but it is not at odds with our other priorities, but is 
an integral part of achieving them and vice versa. The key is that the 
governments in the region may find the political will to help us stop 
the uncontrolled mass migration in the short term and to make the 
reforms necessary to create security, economic opportunity in the 
medium term. These are also top priorities for Central American 
populations. The Department of Homeland Security (DHS) signed a 
bilateral memorandum of cooperation on border security cooperation with 
Guatemala on May 28 and Asylum Cooperation Agreements with Guatemala on 
July 26, El Salvador on September 20, and Honduras on September 25. The 
Department of Labor (DOL) signed a cooperative agreement with Guatemala 
on July 30 concerning H-2A nonimmigrant visas for temporary 
agricultural workers. And we are working to lobby about reforms that 
will create opportunities for economic advancement and prosperity.

    Question. How would you assess Mexico's migration control efforts 
under the Lopez Obrador government?

    Answer. The June 7 U.S.-Mexico Joint Declarations reflects a scale 
and level of commitment not seen before. The Lopez Obrador government 
has made significant progress to control Mexico's southern border and 
irregular migration, including deploying the Mexican National Guard 
throughout the country, significantly increasing apprehensions and 
repatriations, where appropriate, of irregular migrants and stepping-up 
activities against human smuggling and trafficking operations 
throughout the country. Thanks to these efforts, amongst others, we 
have seen substantial reductions in the flow of illegal immigrants to 
the United States.

    Question. To what extent, if at all, do you share Mexico's 
proposition that the best way to reduce emigration from Central America 
is to improve security and economic development there?

    Answer. We agree completely. We welcome the Comprehensive 
Development Plan launched by the Government of Mexico, in concert with 
the Governments of El Salvador, Guatemala, and Honduras, and with 
support from the U.N. Economic Commission for Latin America and the 
Caribbean, to promote our shared objectives. Our joint work in the 
areas of human trafficking, transnational crime, and the production and 
movement of illicit narcotics is necessary to achieving our goal of 
ensuring security for the American people. We know that the root causes 
of irregular migration--weak governance, insecurity, and lack of 
economic growth and opportunity--must be addressed to reduce out-
migration from Central America. We look to Central American governments 
to show the political will for the reforms necessary to achieve those 
shared goals.

    Question. The U.S. Strategy for Central America is a bipartisan, 
multi-year U.S. Government plan promoting institutional reforms and 
addressing developmental challenges. The Strategy aims to protect 
American citizens by addressing the security, governance, and economic 
drivers of migration and illicit trafficking, while increasing 
opportunities for U.S. and other businesses:
    How have conditions in Central America changed since the launch of 
the U.S. Strategy for Engagement?

    Answer. Since the U.S. Strategy for Central America was adopted in 
2015, homicide rates have fallen dramatically in El Salvador, 
Guatemala, and Honduras. In August 2019, El Salvador reported its 
lowest monthly homicide rate since the end of the civil war in 1992. 
With U.S. Government assistance, the Governments of El Salvador, 
Guatemala, and Honduras have advanced their Customs Union integration, 
which has facilitated regional trade.
    Though these projects were effective, they did not stop migration 
flows. Political will to change the status quo, which depends on 
corruption and lack of transparency, and produces lack of economic 
opportunity, has been insufficient. The President has made clear that 
the Governments of El Salvador, Guatemala, and Honduras need to do more 
to address the drivers of irregular migration.

    Question. Have there been differences among the three Northern 
Triangle countries?

    Answer. Yes. There are important differences in the political, 
economic, and social structures and demographics, developmental 
patterns, and criminal dynamics in each of the three states.

    Question. What is your assessment of the effectiveness of the 
strategy, and what, if any, changes are necessary?

    Answer. The U.S. Strategy for Central America has been successful 
in creating key capacity for governments to combat corruption, crime, 
and antiquated economic models. The Strategy's successes include, for 
example, supporting major reforms to Honduras' National Police force 
and strengthening the rule of law by training more than 1,700 human 
rights defenders in FY 2018 alone.
    However, while these projects were effective at the programmatic 
level, they have not been sufficient to reduce irregular migration 
flows to the United States nor in ending corruption, impunity, or 
creating economic opportunity. The Governments of El Salvador, 
Guatemala, and Honduras have not shown the political will necessary to 
adequately address these root causes of outward migration.

    Question. In June the Trump administration said it would withhold 
$183 million of the $432 million in aid allocated from the fiscal year 
2017 and that it would also suspend the entire $370 million allocated 
for fiscal year 2018:
    How has the decision to withhold most foreign assistance to the 
Northern Triangle affected U.S. influence in the region?

    Answer. The reprogramming of the FY 2018 assistance has received 
attention from the governments of all three countries, and we have had 
productive conversations on addressing irregular migration to the 
United States. For example, El Salvador's president Nayib Bukele has 
publicly acknowledged that he and his government must `own' the 
migration problem and create Salvador-based solutions to address it, 
and in July 2019, the Salvadoran Government initiated a U.S.-Salvadoran 
Migration Task Force. Since President Bukele assumed office on June 1, 
2019, apprehensions of Salvadorans at the U.S. southern border have 
dropped by 60% from the level of May 2019.

    Question. How might an extended suspension of assistance affect 
migration trends?

    Answer. The President's decision to reprogram certain foreign 
assistance intended for programs in El Salvador, Guatemala, and 
Honduras was designed to send a wake-up call that these governments 
need to take concrete steps to reduce irregular migration to the United 
States and the factors that drive these outward flows. We have already 
seen some signs that migratory flows from those countries have fallen. 
From March to August, the number of migrants apprehended along the U.S. 
southern border has dropped by nearly 40 percent. We are working with 
the Governments of El Salvador, Guatemala, and Honduras to enhance 
collaboration on border security, asylum cooperation, information 
sharing, and non-immigrant visa programs and will provide assistance to 
support measures that affect governments' political will to offer the 
economic and governance factors that push migration.

    Question. What steps do the Northern Triangle governments need to 
take in order for the Administration to restart assistance?

    Answer. We expect the Governments of El Salvador, Guatemala, and 
Honduras to take action to stem irregular migration to the United 
States, such as combatting migrant smuggling and human trafficking 
rings, enhancing border security, dissuading its citizens from 
illegally immigrating, and receiving and reintegrating its returned 
citizens.
    El Salvador, Guatemala, and Honduras have taken important steps in 
this direction in recent weeks, including signing Asylum Cooperation 
Agreements and agreeing to further discussions on additional measures. 
Providing appropriate assistance to help our counterparts carry out 
these measures will be part of our strategy and appropriate 
Congressional consultations and notifications will occur as the 
strategy is implemented.
                     northern triangle governments
    The Northern Triangle deals with high levels of corruption, drug 
trafficking, and gang violence despite tough police and judicial 
reforms. While the U.S. has provided the three countries with billions 
of dollar in aid over the past decade, some analysts believe U.S. 
immigration policies have exacerbated threats to regional security:

    Question. What is your assessment of the partners the United States 
works with in the Northern Triangle?

    Answer. While the governments of El Salvador, Guatemala, and 
Honduras have begun taking steps to address migration challenges, they 
must do more to strengthen institutions, root out corruption, and fight 
impunity, which creates a permissive environment for transnational 
criminal organizations. Corruption in these nations enables those very 
organizations to profit from migrants' desperate decisions to abandon 
their life-long homes and undertake a dangerous and uncertain journey 
to reach the U.S. southern border. Our long-term success depends on 
continued political will by these governments to end corruption and 
impunity and to strengthen institutional capacity.

    Question. To what extent are governments in El Salvador, Guatemala, 
and Honduras bolstering or undermining the effectiveness of U.S. 
assistance efforts?

    Answer. The governments of El Salvador, Guatemala, and Honduras 
have taken some important steps, including signing arrangements related 
to asylum, border security, information sharing, and business 
opportunities. That said, they must continue to do more to strengthen 
institutions, root out corruption, and fight impunity. As our partner 
governments take on these challenges with seriousness of purpose, they 
will find us to be a close collaborator and friend.

    Question. How is the U.S. Government supporting reformers in the 
region in the absence of assistance?

    Answer. The United States seeks a secure, democratic, and 
prosperous hemisphere so all people can build a future in their home 
countries and communities. Our long-term success depends on fostering 
political will in the region to end years of corruption and impunity, 
and to strengthen institutional capacity. The root and facilitating 
causes of irregular migration--insecurity, weak governance, and lack of 
economic opportunity--must be solved in coordination with regional 
governments; multilateral development banks; the international 
community; civil society; and the private sector.

    Question. In your view, how likely is it that prosecutors in the 
Northern Triangle will be able to maintain their progress against 
entrenched official and elite corruption without U.S. support?

    Answer. Those who have an abiding interest in preserving the status 
quo in each of these countries have proven remarkably resilient. While 
we can support those who are working for a better future, we cannot 
overcome the negative tendencies in their countries for them. Elected 
officials need to show the political will to take on these problems 
strongly and seriously. They must do more to strengthen institutions, 
root out corruption, and fight impunity, which creates a permissive 
environment for transnational criminal organizations. As part of the 
President's directive for assistance, we are continuing to provide 
assistance to DOJ-related priorities such as strengthening the rule of 
law and judicial institutions in these countries where we have willing 
partners.

    Question. To what extent have the restrictions placed on aid to the 
governments of El Salvador, Guatemala, and Honduras contributed to 
policy changes in those nations?

    Answer. The President's directive regarding foreign assistance 
served as wakeup call to the Governments of El Salvador, Guatemala, and 
Honduras. Since then, the Department of Homeland Security (DHS) signed 
a bilateral memorandum of cooperation on border security cooperation 
with Guatemala May 28, and Asylum Cooperation Agreements with Guatemala 
July 26, El Salvador September 20, and Honduras September 25. The 
Department of Labor (DOL) signed a cooperative agreement with Guatemala 
July 30 on the H-2A nonimmigrant visa program for temporary 
agricultural workers.
                   effects of foreign assistance cuts
    Question. A lack of economic opportunity in the Central America 
region drives many people to migrate--in hopes of making basic ends 
meet and providing a better life for their children. This directly 
impacts the U.S. and also our neighbor, Mexico. Life-saving 
humanitarian aid was included in the Administration suspension and 
redirection of foreign assistance to Central America this summer. This 
included ending a USAID program implemented by Catholic Relief Services 
that was supporting food insecure households in the eastern dry 
corridor of Guatemala. Almost 30,000 people will not receive services 
as a result of discontinuing CRS's program alone:
    How can we expect to address the humanitarian crisis at our 
southern border if we refuse to, at a minimum, provide basic life-
saving humanitarian assistance to those suffering in the region?

    Answer. The United States is continuing support for life-saving 
health and HIV/AIDS assistance as well as DOJ and DHS-related 
priorities. The governments of El Salvador, Guatemala, and Honduras 
must demonstrate political will to take sufficient actions to stem 
irregular migration to the United States. We know that the facilitating 
and root causes of irregular migration--governance, security, and lack 
of prosperity--must be addressed to reduce the flows. We continue to 
work with regional partners, multilateral development banks, the 
international community, civil society, and the private sector to 
address these challenges over the long-term, while we work on our 
immediate goals of addressing the humanitarian and security crisis at 
the U.S. southern border.

    Question. Would you advise the White House to allow, at a minimum, 
life-saving humanitarian assistance to continue in the region?

    Answer. The Department of State continues to provide life-saving 
HIV/AIDS assistance in El Salvador, Honduras, and Guatemala. In Mexico, 
the Department has also provided humanitarian assistance through our 
international organization (IO) partners to help build asylum capacity; 
provide access to legal aid, psychosocial counseling, refugee 
integration services, and shelter; provide short-term cash and voucher 
assistance for asylum seekers and vulnerable migrants; and facilitate 
assisted voluntary return (AVR) activities. The Department has provided 
additional funding to our IO partners, including support for efforts in 
Guatemala to provide technical support for expansion of asylum and 
reception systems; shelter and integration assistance for asylum 
seekers and refugees; and counseling and transportation under an AVR 
program. Regionally, the funding also supports information awareness 
campaigns about the dangers of irregular migration; migration 
management regional capacity-building and research activities; and 
resettlement operations.

    Question. Can we expect the Administration to allow Fiscal Year 
2020 humanitarian funds to be expended in the region?

    Answer. Yes.

    Question. How do we ensure that other actors--especially China and 
Russia--do not take advantage of this void?

    Answer. We do not seek to compete with China and Russia through our 
foreign assistance; rather we seek to show our partners that working 
with the United States is to their long-term advantage both 
commercially and politically. We promote the United States as the 
partner of choice.
    We support and work with our partners in the Western Hemisphere to 
advance democracy, security, and economic prosperity. This includes our 
support for the rule of law, strong and independent institutions, 
transparency, and anti-corruption efforts, as well as frameworks that 
enable rules-based free market economies.
    We are facilitating increased private investment in the region's 
infrastructure and energy needs through the new Development Finance 
Corporation and America Crece.
    We actively engage governments on both the risks posed by 
problematic Chinese assistance as well as the opportunities presented 
by working with transparent private sector firms and democratic 
partners committed to the rule of law and the region's long-term 
development and institutional wellbeing, including the United States, 
Japan, or members of the European Union.
                         human rights defenders
    Question. Across the region, human rights defenders, especially 
indigenous and Afro-descendant social leaders and environmental 
activists, as well as journalists, anti-corruption activists, women's 
rights activists and LGBTI community members, justice operators, 
opposition activists, union leaders, and student activists, continue to 
face attacks and increasingly punitive measures restricting their work. 
These threats originate from a combination of organized crime, corrupt 
state actors, and abusive security forces. U.S. support has also been 
crucial in building the capacity of local Attorneys General, protection 
mechanisms for human rights defenders and the United Nations Offices 
for the High Commissioner of Human Rights (OHCHR) in Guatemala and 
Honduras--all of which are crucial in protecting human rights 
defenders, and investigating and prosecuting threats against them:
    Do you agree that the work of human rights defenders is crucial to 
free and fair societies, and that U.S. support to protect them is 
fundamental to strengthening the rule of law in the region? Please 
explain why you do or do not agree in your response.

    Answer. Yes. Human rights defenders continue to face harassment, 
intimidation, and attacks for doing work that is integral to protecting 
democracy. Impunity for those who attack and threaten human rights 
defenders further compounds the abuse against defenders, stifles the 
promotion of human rights, and erodes the rule of law. We continue to 
work with our partners in the region to strengthen legal frameworks and 
training opportunities for the protection of human rights defenders. 
Our engagement and collaboration through multilateral organizations and 
initiatives continue, to include rapid response and emergency 
assistance programs to support embattled human rights defenders.
                   violence and rule of law in mexico
    Question. In 2018, Mexico faced its most violent year on record, 
with more than 33,300 homicides documented nationwide. The first 9 
months of 2019 have been even more violent. Compounding this violence 
are weaknesses in Mexico's criminal justice institutions which have 
been unable to effectively investigate and prosecute crimes, with only 
2 percent of cases ending in conviction. Strengthening the rule of law 
in Mexico is an important way to address insecurity for Mexicans and 
asylum seekers alike.
    What are the State Department's cooperation priorities in order to 
support Mexico to address widespread violence, corruption and impunity 
in the country?

    Answer. The Department and USAID partner with Mexico to disrupt, 
deter, and ultimately dismantle transnational criminal organizations by 
reducing drug production; securing Mexico's borders and ports against 
the smuggling of drugs, weapons, cash, and people; depriving TCOs of 
their illicit assets; and ensuring criminals and their corrupt 
affiliates are held accountable. The United States also continues to 
support Mexican justice sector reforms. Together, these efforts improve 
collaboration across our criminal justice systems, reduce opportunities 
for corruption in Mexico, improve the protection of human rights, and 
contribute to stronger communities that can resist the presence of and 
recruitment by transnational criminal organizations.
                                 ______
                                 

   Responses of Assistant Secretary Kirsten D. Madison to Questions 
                 Submitted by Senator Edward J. Markey

    Question. Passed into law in 2018, the INTERDICT Act funded opioid 
detection devices and equipment for U.S. personnel at the border. 
However, the continued influx of fentanyl into the United States 
necessitates that we dedicate more attention and resources to all 
aspects of the problem:
    Considering that the majority of illicit drugs comes into the 
United States through legal ports of entry, what impact does the high 
number of migrants near them have on Mexican officials' ability to 
fully utilize their drug detection training to effectively stem the 
flow of fentanyl and other illicit substances into the United States?

    Answer. The Mexican Government continues to address multiple 
priorities of importance to the United States, including migration, 
trade, and counternarcotics. Since President Lopez Obrador took office 
in late 2018, the Mexican Government has surged significant resources 
to focus on migration and fuel theft, which is a major revenue stream 
for criminal trafficking organizations. At the highest levels, the 
United States continues to engage with Mexico on a range of U.S. 
priorities, including the need for Mexico to intensify its 
counternarcotics efforts throughout the country and along our shared 
border. In Mexico and elsewhere, the Department works to ensure that 
recipients of specialized anti-drug training and equipment make full 
and effective use of that assistance.

    Question. Passed into law in 2018, the INTERDICT Act funded opioid 
detection devices and equipment for U.S. personnel at the border. 
However, the continued influx of fentanyl into the United States 
necessitates that we dedicate more attention and resources to all 
aspects of the problem:
    How is the United States maximizing its investment in funding and 
training Mexican officials to detect and intercept drugs before they 
flow northward into our country? In areas where we are falling short in 
working with our Mexican partners, where is your office prioritizing 
comprehensive solutions?

    Answer. The Department partners with Mexican authorities to reduce 
drug trafficking across our shared border as well as drug production in 
Mexico, disrupt transnational criminal organizations and remove their 
illicit revenue, and bring criminals to justice. As the Department 
executes programs and policies in support of these efforts, it 
considers a variety of factors including stated and demonstrated 
political will, geography, the comparative advantage of certain types 
of U.S. assistance compared to others, the threshold for 
sustainability, and the level of expected, direct benefit for the 
United States. The Department is focused on pressing Mexico to create a 
comprehensive and holistic strategy and intensify its counternarcotics 
efforts.
                                 ______
                                 

 Responses of Acting Assistant Secretary Michael G. Kozak to Questions 
                 Submitted by Senator Edward J. Markey

    Question. What assistance is the State Department providing to 
Mexican authorities to ensure these asylum seekers are not subject to 
violence?

    Answer. In fiscal year 2019, the State Department, through the 
Bureau of Population, Refugees, and Migration (PRM), contributed more 
than $51 million to the U.N. High Commission for Refugees (UNHCR) for 
its Mexico response. With this funding, UNHCR is helping strengthen 
Mexico's asylum capacity and assisting asylum seekers and refugees, 
including providing access to legal assistance, psychosocial 
counseling, refugee integration, shelter support, and countering 
misinformation on the U.S. asylum system.
    The Mexican Government has noted publicly that individuals under 
the Migrant Protection Protocols are accorded all protections and 
freedoms recognized under its legal obligations. The Government of 
Mexico remains ultimately responsible for addressing crime and 
insecurity in its country.

    Question. What assistance is the State Department providing to 
Mexican authorities to make sure these asylum seekers are not subject 
to inhumane living conditions while subject to the so-called metering 
policy?

    Answer. In the June 7, 2019, U.S.-Mexico Joint Declaration, the 
Mexican Government committed to offer work permits, healthcare, and 
education, to migrants awaiting adjudication of their asylum claims 
under the Migrant Protection Protocols.
    Of the more than $24 million that the State Department, through the 
Bureau of Population, Refugees, and Migration (PRM) contributed to the 
International Organization for Migration (IOM) for programming to 
respond to needs in Mexico, more than $17 million is supporting shelter 
and short-term cash and voucher assistance for vulnerable migrants and 
asylum seekers in cities along Mexico's northern border. With PRM 
support, IOM is also providing non-food item kits, hygiene kits, basic 
food staples, and support to help eligible beneficiaries obtain legal 
employment.

    Question. What assistance is the State Department providing Mexico 
in order to protect asylum seekers who are being returned to Mexico 
under the Migrant Protection Protocols?

    Answer. In FY 2019, the Bureau of Population, Refugees, and 
Migration (PRM) contributed more than $51 million to the U.N. High 
Commissioner for Refugees (UNHCR) for its operations in Mexico. With 
this funding, UNHCR helps strengthen Mexico's asylum capacity and 
assists asylum seekers and refugees. Specifically, this funding 
supports Mexico's refugee agency, and helps provide access to legal 
assistance, psychosocial counseling, and refugee integration services, 
including shelter support.
    PRM also supports an Assisted Voluntary Return program, implemented 
by the International Organization for Migration, that allows migrants 
from El Salvador, Guatemala, Honduras, and Nicaragua to return safely 
from Mexico to their country of origin or residence, if they so choose.
    The Government of Mexico has stated publicly that it would ensure 
that individuals under the Migrant Protection Protocols have all rights 
and freedoms recognized in its constitution, Migration Law, and the 
international treaties to which Mexico is a party. The Department 
regularly engages with the Mexican government to help address security 
challenges.
    We would refer you to the Government of Mexico to describe its 
efforts regarding security for individuals awaiting their U.S. asylum 
hearings in Mexican territory.

    Question. In what ways is the State Department working with Mexico 
to ensure the human rights of asylum seekers are not being violated 
when they are turned away from the United States under MPP?

    Answer. Mexico and the U.S. have cooperated closely to stem the 
mass migration that has endangered hundreds of thousands of people 
placing their physical safety and human dignity in jeopardy. Once the 
individuals are in Mexico, the Mexican Government is responsible for 
ensuring the safety and rights of all individuals in its territory. 
Mexico has a sound legal framework governing its asylum system and is a 
signatory to the 1951 Convention relating to the Status of Refugees and 
the 1967 Protocol, and is a party to the 1984 Convention against 
Torture.
    The Government of Mexico agreed in the June 7 U.S.-Mexico Joint 
Declaration to authorize the entrance of individuals under the Migrant 
Protection Protocols (MPP) for humanitarian reasons, and offer jobs, 
healthcare, and education to migrants returned to Mexico under the MPP.
    The Department of State and U.S. Mission Mexico are closely 
monitoring the situation of the returnees. Department personnel are in 
direct contact with shelter administrators, National Institute of 
Migration staff, and Mexican Secretariat of Foreign Relations 
leadership about migrants returned to Mexico under the Migrant 
Protection Protocols, including living conditions, health, and 
security, including through on-site visits. All U.S. Government-funded 
programming implemented by the International Organization for Migration 
and the U.N. High Commissioner for Refugees to support migrants in 
Mexico is executed under the principle of ensuring the preservation of 
human rights.
                        foreign food-related aid

    Question. State Department personnel raised alarm earlier this year 
regarding your Administration's sudden cuts to food security programs 
in Honduras. Concerned personnel warned explicitly that reduced 
assistance would likely increase migration rates while leaving tens of 
thousands of Hondurans more vulnerable to environmental disruptions. A 
State Department document cites findings suggesting that affected 
assistance programs have reduced people's intention to migrate as well 
as actual rates of irregular migration:
    Are you aware of any efforts to raise to the White House views from 
the State Department or USAID personnel that (a) cutting agricultural 
and food security assistance programs in Central America would lead to 
increased migration; or (b) such food security assistance programs 
should be expanded rather than cut?

    Answer. The State Department and USAID have followed the policy set 
by the White House regarding curtailing funding to assistance programs 
in Central America.

    Question. Have any State Department personnel suggested that the 
Federal Government should consider climate-change vulnerabilities in 
the region in an effort to enhance resilience to climate-change 
impacts?

    Answer. The United States recognizes for Central American countries 
are vulnerable to food insecurity caused by drought and other natural 
disasters. We will work with willing partners in Central America to 
increase their resilience to drivers of food insecurity and 
malnutrition. The governments of Central America must also address 
these challenges through their action as well. U.S. efforts in the 
region incorporate the need to address environmental degradation and 
protect the environment while advancing economic growth.

    Question. According to a GAO report (https://www.gao.gov/assets/
700/696460.pdf), the State Department stopped providing missions with 
guidance on whether and how to include climate change risks in their 
integrated country strategies. Why?

    Answer. The 2016 EAP-AF ICS cycle included a Climate-risk annex 
that missions had to include in their strategy if, after screening 
their Mission Objectives, it was determined there was a medium or high 
climate risk. After that cycle was completed, the Department's planning 
and performance steering committee advised and encouraged missions that 
wanted to discuss climate in the ICS to include it in their risk 
discussion under each Mission Goal. The supporting materials provided 
for the climate annex remain available to posts. Many of the ICS 
completed in 2018 include climate change/risk points.
    The Department intends to publish new ICS guidance by the end of 
October, which will include the following guidance for an optional 
annex section:

        Missions may choose to submit annexes either with their final 
        ICS, or shortly after it is finalized, to provide additional 
        details not included in the main portions of the strategy. 
        These annexes would provide implementation focus to specific 
        policy priorities. Recent examples of this from the field 
        include, but are not limited to, climate risk, stabilization, 
        CVE, and cyber-planning.
                                 ______
                                 

    Responses of Assistant Secretary Kirsten D. Madison and Acting 
Assistant Secretary Michael G. Kozak to Questions Submitted by Senator 
                               Todd Young

    Question. How does the State Department plan to address the root 
causes of violence and instability that are driving migration, since 
most assistance to the Northern Triangle was suspended in March?

    Answer. The root causes of illegal immigration from El Salvador, 
Guatemala, and Honduras to the United States--insecurity and lack of 
economic opportunity--require political will on the part of the 
governments of El Salvador, Guatemala, and Honduras, as well as action 
by multilateral development banks; the international community; civil 
society; and the private sector to address these challenges through 
both promoting expanded private sector opportunities and strengthening 
regional institutions.
    We continue to urge the Governments of El Salvador, Guatemala, and 
Honduras to follow through on their commitments to their Plan for the 
Alliance for Prosperity.

    Question. What is the rationale for cutting off funding that is 
going directly to assist these vulnerable communities? What specific 
improvements would the Administration like to see to these programs?

    Answer. The decision to reprogram certain foreign assistance 
intended for programs in El Salvador, Guatemala, and Honduras was 
designed to send a wake-up call that these governments need to do more 
to reduce illegal immigration to the United States and the factors that 
drive these out flows. The President and the Secretary believe that 
these governments must take clear action to stem illegal immigration to 
the United States and expect to see reductions in the number of illegal 
immigrants from El Salvador, Guatemala, and Honduras prior to making 
any decisions to restart assistance to these countries.

    Question. What specific additional steps is the Administration 
looking to see from the governments in Guatemala, Honduras, and El 
Salvador in order to reverse the freeze on funding?

    Answer. The President and the Secretary have asked the governments 
of El Salvador, Guatemala, and Honduras to take concrete steps to stem 
irregular migration to the United States. The President and the 
Secretary have said that the crucial metric is a decrease in the number 
of migrants apprehended at the U.S.-Mexico border. As the President has 
made clear, there cannot be a resumption of assistance until our 
partners demonstrably do their part to reduce out-migration.
    Accordingly, in the time since the President decided to cut foreign 
assistance, the U.S. Government has provided the governments of El 
Salvador, Guatemala, and Honduras with additional migration-related 
asks. At the regional level, those asks included addressing the drivers 
of out-migration--especially corruption and impunity--and strengthening 
actions under the Plan of the Alliance for Prosperity. At the national 
level, those asks include signing agreements related to asylum 
cooperation, biometric data-sharing, agricultural worker visas, and 
border security.

    Question. Given the Administration's focus on burden-sharing, what 
update can you provide on any burden-sharing agreements?

    Answer. The Department of State, in collaboration with other U.S. 
Government agencies, is engaging governments in the region to address 
the humanitarian and security crisis at the U.S. southern border. The 
Department of Homeland Security signed a quadrilateral memorandum of 
cooperation on border security with El Salvador, Guatemala, and 
Honduras March 28 and a separate bilateral memorandum of cooperation on 
border security with Guatemala May 28. DHS also signed bilateral Asylum 
Cooperation Agreements with Guatemala July 26, with El Salvador 
September 20, and with Honduras September 25. The Department of Labor 
signed a cooperative agreement with Guatemala July 30 on the H-2A 
nonimmigrant visa program for temporary agricultural workers.

    Question. Are investments in Guatemala's immigration and judicial 
systems simply efforts to address the symptoms of our flawed 
immigration policy rather than addressing the underlying factors that 
are causing illegal immigration?

    Answer. U.S. foreign assistance to Guatemala is designed to address 
both immediate challenges and the root causes of irregular migration. 
Our assistance continues to build the capacity of Guatemala's 
institutions by strengthening the Government's ability to uphold rule 
of law, root out corruption and impunity, improve its counternarcotic 
efforts, and keep its citizens safe; helping create the conditions 
necessary to inspire hope among the Guatemalan people that they do not 
have to leave their country to meet their basic safety and material 
needs. But this must be a partnership, the Government of Guatemala must 
demonstrate the political will to do more to strengthen institutions in 
order for our capacity building efforts to succeed and to implement 
their commitment to increase economic growth and opportunity under the 
Plan for the Alliance for Prosperity. The Department continuously 
evaluates assistance to ensure taxpayer resources are aligned with 
Administration foreign policy priorities.

    Question. What type of return has the United States received on 
large investment of Merida Initiative?

    Answer. The Merida Initiative enables greater cooperation between 
U.S. and Mexican law enforcement agencies, prosecutors, and judges as 
they share best practices and expand bilateral cooperation in 
confronting transnational criminal organizations (TCOs), the production 
and trafficking of illegal drugs, and money laundering. Because of our 
collaboration, securing our shared border is more of a priority than 
ever before, information sharing is more fluid, and Mexico is more 
capable of confronting transnational crime thanks to state-of-the-art 
equipment, training, and technical assistance provided through the 
Merida Initiative.
    Our cooperative efforts prioritize reducing drug production, 
inhibiting cross-border movement of drugs, cash, and weapons, and 
denying illicit revenue to transnational criminal organizations. 
Continued U.S. support for Mexico's justice sector reforms improves 
collaboration across our criminal justice systems, reduces 
opportunities for corruption, improves the protection of human rights, 
and contributes to stronger communities that can resist the presence of 
and recruitment by transnational criminal organizations.

    Question. Does the Merida Initiative include any efforts to do 
public messaging to potential migrants on the limitations of U.S. 
immigration law in an attempt to dissuade them from traveling to the 
U.S.-Mexico border?

    Answer. The Merida Initiative does not fund public messaging; 
however, U.S. missions to Guatemala, El Salvador, Honduras, and Mexico 
all conduct public messaging to potential irregular migrants in Central 
America and those already en route to the U.S.-Mexico border to 
discourage potential migrants from embarking on a hazardous and 
ultimately, futile journey. These messages are delivered regularly via 
social media; radio, TV, and press interviews with Ambassadors or other 
U.S. officials; and off-the-record discussions to explain U.S. policy. 
Messages target populations in areas of high out-migration and focus on 
the realities of the asylum process, testimonials from individuals who 
have decided to return home from the United States or Mexico, the risks 
of the journey, and the importance of building a future in one's home 
country.

    Question. In December 2018, Mexican President Lopez Obrador agreed 
to allow Central American migrants to be returned to Mexico under the 
U.S. Migrant Protection Protocols (MPP) while they await a court date 
in the United States. How is this policy being received among the 
Mexican public? How long can we expect the support of the Mexican 
Government to continue?

    Answer. The influx of illegal immigrants to the United States 
through Mexico places additional stresses on the communities along both 
sides of the U.S.-Mexico border. We recognize these common challenges 
and are grateful for the Mexican Government's cooperation in working 
with us to resolve these issues as quickly and smoothly as possible. 
The work we have done together pursuant to the Joint Declaration has 
resulted in a 60 percent reduction in migrant flows, which benefits 
Mexico as well as the U.S.
    President Lopez Obrador, who maintains high approval ratings from 
the Mexican public, has stated his priority to maintain a good 
relationship with the United States and address potential differences 
through peaceful resolution, including agreements and dialogue. In this 
spirit, the Department of State engages in ongoing discussions with the 
Government of Mexico to ensure MPP is implemented smoothly along our 
shared border, as evident by the June 7 U.S.-Mexico Joint Declaration. 
Following the September 10 meeting with Vice President Pence, Foreign 
Secretary Marcelo Ebrard publicly stated the Government of Mexico would 
continue to implement the commitments that came from the Joint 
Declaration, not foreseeing any changes.
                                 ______
                                 

 Response of Assistant Secretary Nominee Kimberly Breier to a Question 
         Submitted by Senator Robert Menendez on June 13, 2018

    Question. As our principal diplomat for the Americas, do you intend 
to formulate a strategy to make Mexico pay for a border wall between 
our countries?

    Answer. No, but I am committed to helping secure our borders. The 
United States and Mexico work together to stop the flow of drugs and 
other contraband that travel in both directions across our shared 
border. We also work together to improve efficiencies at ports of entry 
to ensure the legitimate flow of commerce and travelers. Border 
infrastructure is an integral part of border security. Mexico has 
consistently stated it will not pay for a border wall.
    The President and Congress will ultimately make a decision about 
funding.
                                 ______
                                 

   Letter From Senator Edward J. Markey to the Trump Administration 
Concerning Foreign Food-Related Aid Cuts to the Central American Region
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

Statement by Congresswoman Veronica Escobar of El Paso and a Series of 
  Documents and Letters Sent by Senator Menendez to the State on U.S.-
              Mexico Agreements and State's Non-Responses
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

Statement by Rick Jones, Senior Technical Advisor for Latin America and 
                the Caribbean, Catholic Relief Services

    Thank you for the opportunity to submit this written statement for 
this hearing and for the opportunity to highlight the importance of 
U.S. engagement in Central America, and specifically the need for 
effective international poverty-reducing humanitarian and development 
assistance.
    Catholic Relief Services (CRS) is the international relief and 
development agency of the Catholic community in the United States. Last 
year CRS celebrated its 75th anniversary and we were privileged to 
serve more than 127 million people in 114 countries. CRS also engages 
with and educates Catholics and people of good will in the United 
States about the challenges of global poverty and injustice.
    I live in El Salvador and have worked in the region for nearly 30 
years. CRS has worked in the Northern Triangle of Central America for 
more than 50 years to alleviate suffering, cultivate just and peaceful 
societies, and accelerate the end of poverty, hunger, and disease. In 
partnership with the U.S. Government, the local Catholic Church, and 
other civil society agencies, we have made gains. U.S. sponsored 
programs have helped reduce poverty, malnutrition, and violence. 
Homicide rates dropped by over half in El Salvador from 104 homicides 
per 100,000 people to 52 from 2015 to 2018 and by 35% in Honduras. Aid 
has provided economic opportunities for families and communities and 
fostered positive engagement with the private sector. We currently work 
with over 300 small businesses who hire young people graduating from 
our programs that have been funded by the U.S. Department of Labor 
(DOL).
    Nevertheless, today we face a humanitarian crisis at our southern 
border that demands political, social, and economic attention. But we 
must not lose sight of the humanitarian crisis in Guatemala, Honduras, 
and El Salvador that is driving migration northward. Guatemala has the 
6th highest rate of malnutrition in the world. Honduras and El Salvador 
experience two of the highest homicide rates for countries not involved 
in active war. And climate change and soil degradation drastically 
alter communities' opportunities to maintain sustainable livelihoods. 
The Catholic Church believes that people have the right to find 
opportunities in their home countries and that they have the right to 
migrate when conditions in their country of origin preclude them from 
providing for the safety and wellbeing of their families. My colleagues 
and I working in Central America witness poverty, violence, food 
insecurity, climate change, and an absence of hope, all contributing 
factors to what has resulted in hundreds of thousands of people fleeing 
despair.
    Audelio Mejia, who supports his wife and three children by growing 
corn and beans in Lempira Honduras, is an example of someone who has 
found hope. He lives in what is called the ``Dry Corridor'' that runs 
through parts of Guatemala, Honduras, El Salvador, and Nicaragua. He 
thought about migrating to better feed his family in 2014 but he joined 
a CRS Project we now call Water Smart Agriculture instead and began 
seeing his corn and bean yields more than double--even in years of 
drought. In 2018 during 42 days of drought he lost just 10% of his 
crop, while his neighbors lost 80%. That is the difference between 
having to find other work for a couple of months in the off season and 
watching your family starve. Over 2 million small farmers have been 
affected by drought in the last 2 years. The Food and Agriculture 
Organization estimates that 1.4 million people are going hungry and 
that nearly half the migrants from Central America in the last several 
years have come from rural areas suffering drought and food insecurity. 
CRS applied for funds from the Office of Foreign Disaster Assistance to 
both mitigate hunger and help farmers learn the practices that Audelio 
Mejia is using to increase his corn and bean yields. The recent 
decision to suspend aid to Central America means that desperate 
families will not receive the life-saving support they need.
    Cutting humanitarian and development assistance to people fleeing 
what Bishop Alvaro Ramazzini of Huehuetenango, Guatemala recently 
called the ``violence of poverty'' sends a message to many that they 
are on their own. The question we must ask ourselves today is not if 
the U.S. should engage or if the U.S. should invest in humanitarian and 
development programs, but how can we, the U.S. Government, civil 
society organizations such as CRS, and the private sector, engage more 
productively and effectively in Central America to address the root 
causes of migration, to provide opportunities for families to thrive in 
their home communities, and to uphold the human dignity of each and 
every person so that they are not forced to migrate. If we turn our 
backs on people like Audelio and retreat from providing humanitarian 
and development assistance, many will see no alternative but to migrate 
north.
    CRS commends Congress' steadfast commitment to funding 
international poverty-reducing humanitarian and development assistance. 
Furthermore, we recognize Congress' recent efforts over the last five 
fiscal years to increase investment in the Northern Triangle through 
the U.S. Strategy for Engagement in Central America, which has targeted 
holistic concerns related to security, governance, and prosperity. In 
CRS' experience, U.S. investments have made a difference. Too often 
though we do not hear about the success stories. CRS implements 
projects in Guatemala, Honduras, and El Salvador in youth development, 
water-smart agriculture, education, health, and emergency response, 
targeting the people who are most vulnerable to migration due to 
violence, poverty, and food insecurity. We partner with the Department 
of State (DOS), the United States Agency for International Development 
(USAID), DOL, the United States Department of Agriculture (USDA), and 
the Overseas Private Investment Corporation (OPIC). The following 
program examples, funded by the United States and other private donors, 
not only have saved lives and alleviated suffering but also have 
supported the long-term developmental needs of communities and 
societies, reducing the vulnerabilities to forced migration.
    In 2012, CRS launched Food Security Focused on the First 1,000 Days 
(SEGAMIL) to reduce chronic malnutrition and improve food security in 
263 communities for almost 100,000 people in San Marcos and 
Totonicapan, two regions in the highlands of Guatemala most vulnerable 
to food insecurity. Over the 6-year USAID funded project, CRS supported 
small-scale cooperatives and associations to increase production and 
sales with better technologies and practices; taught rural families the 
importance of saving for emergencies and investing in their future 
while providing affordable loans; and improved families' understanding 
of how to raise household livestock and expand income from the sale of 
animals and other related products. Through these three interventions, 
the project helped reduce the number of people living on less than 
$1.25 per day by half. The project also reduced poverty in female-
headed households from 29.6 percent to 8.3 percent. Furthermore, 
through strong social behavior change, chronic malnutrition in children 
under age five went down an average of 1.5 percentage points per year, 
more than five times the national average. These achievements 
illustrate the impact aid has when it is well targeted and sustained.
    In Central America, one in four youth aged 15-24 are unemployed and 
not in school. Since 2009, CRS has worked with more than 10,000 youth 
across Central America to help them stay in school, return to school, 
find a job, or start an entrepreneurial venture. Our work has targeted 
at-risk youth living in high crime urban areas who have a higher 
propensity of becoming victims or perpetrators of crime and violence. 
Adapting the YouthBuild model, developed in the United States in the 
1970s, CRS implements Youth Pathways, a DOL funded project, in Honduras 
and El Salvador. Youth Pathways follows program participants after 
graduation to ensure effectiveness and sustainability. A 2019 impact 
evaluation has highlighted results. The baseline study of participants 
showed 12% were employed. Six months after graduation, employment 
increased to 45%. Twelve months after graduation employment increased 
to 56%. And 18 months after graduation, employment increased to 59%. 
Furthermore, at enrollment, only 29% of program participants were 
working or studying. Eighteen months after graduation, 75% of graduates 
are now working or studying. Youth Pathways, and programs like it, are 
unleashing young people's potential to change their own lives. By 
increasing employment opportunities and reducing the gap between 
training opportunities and labor market demands, Youth Pathways combats 
two of the strongest push factors of migration, insecurity and limited 
economic opportunities.
    Second Chances, a DOS funded private sector rehabilitation and 
reinsertion project in El Salvador, has worked with 670 inmates using 
cognitive behavioral curriculum to shape alternative behavior and self-
control to break the cycle of violence. Inmates are showing major 
improvements. In partnership with El Salvador's General Directorate of 
Penal Centers, CRS is training key penitentiary staff to integrate our 
curriculum into the national rehabilitation system. CRS' curriculum 
provides program participants cognitive behavioral techniques to help 
adopt positive behaviors that allow them to re-enter society. Allowing 
youth and young people to thrive includes fostering environments where 
the system supports a second chance to become a contributing member of 
society.
    In El Salvador, CRS has structured Azure, a blended finance and 
technical assistance provider, to improve water and sanitation services 
for underserved communities. Comprised of two integrated components: 
Azure Capital LLC, a U.S. based finance company that deploys loan 
capital through local financial institutions to upgrade and expand 
water and sanitation infrastructure; and Azure Technical Services, 
which provides water service providers with design and engineering, 
system diagnostics, loan application, and management support. Developed 
in partnership with the Inter-American Development Bank's Multilateral 
Investment Fund and supported by OPIC, Azure hopes to improve quality 
of services for 500,000 people through 2020. Innovative approaches to 
inclusive development such as Azure harness and embody the power of 
effective public-private partnerships.
    Guatemala has 70% chronic malnutrition rates for children in the 
Western Highlands. CRS' USDA McGovern-Dole Food for Education program 
serves more than 65,000 students, teachers, and parents, covering 337 
public, primary schools. The project provides nutritious school 
feeding, improves bilingual literacy and reading skills, strengthens 
the educational community, and supports local value chains by linking 
Guatemalan small producers to schools. Since 2017, student enrollment 
in the project area has increase by 2.74%, while national enrollment 
has decreased. Third grade literacy improved by 21.5% from 2014-2017. 
But results are not just program specific. In addition to direct 
provision of services, U.S. foreign assistance allowed CRS to be at the 
table with the national government to help pass a National School 
Feeding Law by the Guatemalan Congress in November 2017. In 2018 and 
2019, 50% of food will be procured locally, increasing up to 70% by 
2020. The law also increased school feeding investment from $0.15 per 
child per day in 2017 to $0.41 in 2018 to $0.55 per child per day in 
2019. Disbursements in 2018 and 2019 from the Ministry of Education to 
schools have been timely and complete.
    During the first year of drought, a farmer will eat their reserves 
from the previous years' harvest. The second year, they eat their 
livestock. The third year, they sell available assets. The fourth year, 
they leave. For smallholder farmers in Central America, erratic 
rainfall patterns, rising temperatures, and increasing drought threaten 
their livelihoods. An estimated 80% of farmland in Central America 
suffers from soil degradation. 2.2 million farmers in the Central 
American dry corridor suffer from crop losses, and 1.4 million are food 
insecure. CRS partners with the Howard G. Buffett foundation to support 
farmers through water-smart agriculture, the practice of managing soil 
to manage water and increase yields. Water-smart agriculture protects 
soil and makes efficient use of water to optimize productivity. In the 
2018 drought, 80% of farmers using water-smart agriculture practices 
produced at least 15% more crops than those that did not. CRS has 
trained 40,000 people to implement water-smart agriculture. A recent 
study shows that 20% more farmers would meet their basic maize 
production needs if they adopted water-smart agriculture techniques. 
These skills can change a farmer and their family's life. As one farmer 
said, ``To protect our crops, our livelihood and our future, we need to 
save and protect the soil and water.'' Water-smart agriculture helps 
address a cause of migration at the physical root. These efforts are 
cumulative and cutting off aid will erode the existing success, 
throwing people back to the conditions where they started.
    In Honduras, coffee provides around 5% of national GDP, employs 1 
in 4 workers at some point during the production, processing, and 
export of green coffee, and is the main source of earnings in rural 
areas. Since 2012, coffee farmers have been faced with plant diseases, 
drought, and dramatic price swings in green coffee prices. Recent 
harvests were characterized by reduced yields and low prices, 
representing a one-two punch in the gut to small scale farmers and 
their families. These issues led CRS to partner with Keurig Green 
Mountain to implement Blue Harvest, a program that seeks to protect 
water resources, assure coffee quality and productivity, and improve 
market efficiencies in order to secure a greater portion of value for 
the farmers. In 2018 alone CRS supported over 1,550 Honduran coffee 
producers by implementing water and soil protection practices to 
protect water sources in their highlands and have focused on improving 
coffee quality through better post-harvest processes. This focus on 
quality and sustainability has allowed cooperatives supported by Blue 
Harvest to export for 2 years consecutively to DR Wakefield and Cafe 
Nero with differentials as high as $0.14/lb, generating over $900,000 
of income. Coffee Cooperatives supported by the program have a contract 
for 2019 with a $0.15/lb differential above market value. This is 
solely based on CRS and partners' efforts to enhance the protection of 
water resources while assuring coffee quality.
    These programs are illustrative examples of the combined impact of 
U.S. Government investment, civil society expertise, and private sector 
engagement. From public-private partnerships and national policy 
advocacy to increased literacy, youth employment, and a reduction in 
poverty, U.S. funded foreign assistance projects are addressing the 
root causes of migration. The answers to how we should engage are 
clear, invest in successful models, initiatives, and strategies that 
target assistance and catalyze development outcomes at scale. 
Disengaging will not only undermine our collective ability to improve 
human security, communal prosperity, and good governance today but also 
exacerbate forced migration tomorrow.
    The Administration announced this summer their intent to suspend 
$164M from Fiscal Year 2017 funds (approximately 27% of all FY17 
funds), to reprogram $404M from Fiscal Year 2018 allocations 
(approximately 82% of all FY18 funds), and to suspend all future 
humanitarian and development programming in the region. Cutting foreign 
assistance is counterproductive to addressing issues of security, 
governance, and prosperity and will create a vacuum for increased 
instability, poverty, and migration.
    Suspending and redirecting funds will have a direct impact on human 
lives served. CRS was implementing a USAID funded, life-saving 
humanitarian program to support food insecure households in the eastern 
dry corridor of Guatemala. Due to the cuts, the project will close this 
month. More than 7,400 families and almost 30,000 people will not 
receive services as a result of discontinuing CRS' program alone. The 
program targeted populations that are vulnerable to migration, helping 
save the lives of acutely malnourished children and supporting families 
that have little to eat due to 5 years of recurrent drought. The 
project helped accelerate communities' recovery and build future 
resilience. Eliminating this program prematurely will exacerbate human 
suffering. Furthermore, CRS leads a USAID funded program supporting 200 
Guatemalan communities in 30 municipalities. Women make up 66% of the 
program participants. Due to the redirection of Fiscal Year 2018 funds 
and uncertainty about future funding, CRS will need to reduce or stop 
certain program activities. The project seeks to empower citizens to 
design and implement community development plans and to improve long-
term sustainability of community development by increasing private 
sector engagement and resources. Decreased engagement will reduce the 
opportunities for people to thrive in their home communities.
    In addition to the immediate, direct impact of cutting assistance 
to people participating in ongoing humanitarian and development 
projects, there will be indirect effects moving forward that could have 
a long-lasting influence on our work in the region. First, an absence 
of U.S. investment and engagement could halt progress and allow 
community achievements to regress. For example, reducing homicides 
requires robust initial investments. To maintain gains, we must follow 
through with sustained support for communities as they find their 
pathway out of poverty and violence. Withdrawing support will open the 
door for communities to slide back to previous levels of violence. 
Second, community trust is at the core of how we accompany communities 
and promote subsidiarity. Pulling back on commitments breaks that 
trust. Third, U.S. engagement and U.S. sponsored programming provide 
seats at the proverbial table for both civil society and the private 
sector to engage with local and national governments to foster 
inclusive development. If we lose trust and credibility as well as 
seats at the table, we will create a void for other actors to offer 
influence who may not have the best interest of the poor and the 
vulnerable in mind. U.S. sponsored projects such as the ones previously 
mentioned contribute to enhancing community and society conditions that 
reduce violence, food insecurity, and lack of economic opportunities. 
By stepping away, we risk increasing vulnerabilities that lead to 
migration.
    Therefore, CRS recommends that Congress preserve and increase 
humanitarian and development programs in the region. Millions of 
Catholics support U.S. led efforts to serve the poor and the vulnerable 
overseas in places such as Central America. CRS commends Congress' 
steadfast leadership to address humanitarian crises and to seek 
solutions to human development challenges around the world. As we 
encounter a humanitarian crisis at our southern border and in 
Guatemala, El Salvador, and Honduras, we urge the Senate to introduce 
and pass bipartisan legislation that authorizes poverty-reducing 
humanitarian and development funding to the region in Fiscal Year 2020. 
We support the House of Representatives recent effort to pass H.R. 
2615, The U.S.-Northern Triangle Enhanced Engagement Act, which would 
authorize funding to the region and prioritize inclusive economic 
growth and development. Furthermore, we urge the Senate to protect 
poverty-reducing funding to Central America in Fiscal Year 2020 State 
and Foreign Operations appropriations, including ensuring that 
international assistance can continue immediately in the region at 
Congressional appropriated levels for previous fiscal years.
    Furthermore, CRS urges Congress to help catalyze development 
outcomes at scale. CRS has witnessed firsthand that U.S. programs have 
reduced poverty and malnutrition; increased employment and literacy 
while promoting policy changes at a national level; fostered public-
private partnerships to improve the lives of the poor and vulnerable; 
and supported innovative agriculture techniques to meet new 
environmental challenges. To create lasting results, we urge Congress 
to catalyze development outcomes at scale by lifting up and supporting 
effective development models and strategies that can foster more just 
and peaceful societies.
    Lastly, we urge Congress to expand U.S. leadership. The Catholic 
Church prioritizes the protection and promotion of human dignity. As 
Pope Paul VI wrote, our collective efforts and solidarity should 
``allow all peoples to become the artisans of their destiny.'' With 
high rates of violence, a changing environment and climate, lack of 
economic opportunities and dignified livelihoods, and continued large-
scale migration, the U.S. must lead at a regional level to ensure we 
address these challenges in a humane and just manner. Expanding U.S. 
leadership does not always signify doing more. U.S. leadership also 
comes in the form of partnership with U.S. based agencies like CRS who 
sit at the table with government, business, and community leaders 
seeking local investments that benefit the poor. We urge Congress, 
through humanitarian and development programming, to empower and 
accompany local communities and the institutions that support their 
development to be effective and impactful leaders.

                                  [all]
</pre></body></html>
